<html>
<title> - ADDRESS BY SENATOR JESSE HELMS, CHAIRMAN, U.S. SENATE COMMITTEE ON FOREIGN RELATIONS, BEFORE THE UNITED NATIONS SECURITY COUNCIL</title>
<body><pre>[Senate Hearing 106-777]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-777


=======================================================================

                   THE FUTURE OF U.S.-U.N. RELATIONS

 A Dialogue Between the U.S. Senate Committee on Foreign Relations and 
                       the U.N. Security Council

=======================================================================





 Visit of the U.S. Senate Committee on Foreign Relations to the United 
                                Nations

                          January 20-21, 2000


                Address Before the U.N. Security Council
                    by Senator Jesse Helms, Chairman


                            Field Hearing: 
                     Implementation of U.N. Reforms









                   Visit of the U.N. Security Council
                           to the U.S. Senate

                             March 30, 2000


              Remarks Welcoming the U.N. Security Council
                    by Senator Jesse Helms, Chairman


                   Roundtable Discussion with Members
                      of the U.N. Security Council









       Printed for the use of the Committee on Foreign Relations















  Available via the World Wide Web: http//www.access.gpo.gov/congress/
                                 senate


62-154                                     2000

                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              

  Address by Senator Jesse Helms, Chairman, U.S. Senate Committee on 
Foreign Relations, Before the United Nations Security Council, January 
                                20, 2000

                                                                   Page

Text of Chairman Helms' Address..................................     1

                              ----------                              

        Field Hearing on Implementation of United Nations Reform

Bolton, Hon. John, Vice President, American Enterprise Institute, 
  Former Assistant Secretary of State For International 
  Organization Affairs, Washington, DC...........................    43
    Prepared statement...........................................    45

Cooper, Michael, President, Bar Association of New York..........    13

Holbrooke, Ambassador Richard C., United States Permanent 
  Representative to the United Nations...........................    17
    Prepared statement...........................................    21

Luck, Edward C., Executive Director, Center for the Study of 
  International Organization, New York University School of Law 
  and the Woodrow Wilson School of Princeton University, New 
  York, NY.......................................................    50
    Prepared statement...........................................    53

Warner, Hon. John, A U.S. Senator from the Commonwealth of 
  Virginia.......................................................    39

 an informal discussion among members of the committee and hon. donald 
                  hays, joseph connor, and john ruggie

Transcript of the discussion.....................................    67

                                appendix
       Responses to Additional Questions Submitted for the Record
                      by Members of the Committee

Questions Submitted to the U.N. Secretariat

    From Senator Helms...........................................    81

    From Senator Grams...........................................    88


Questions Submitted to Ambassador Holbrooke

    From Senator Helms...........................................    89

    From Senator Grams...........................................    90


Questions Submitted to Donald Hays

    From Senator Helms...........................................    92

                                 (iii)

  

       Responses to Additional Questions Submitted for the Record
                 by Members of the Committee--Continued

Questions Submitted to John R. Bolton

    From Senator Helms...........................................    95

    From Senator Grams...........................................   101

Additional Material Submitted by John R. Bolton

    Statement Submitted to the Committee on International 
      Relations, U.S. House of Representatives, April 9, 1997....   104

                              ----------                              

  Welcoming Remarks by Hon. Jesse Helms, Delivered in the Old Senate 
                      Chamber of the U.S. Capitol

Text of Chairman Helms' Welcoming Remarks........................   113

   Roundtable Discussion With Members of the United Nations Security 
           Council: Critical Issues Before the United Nations

           opening statements of united nations participants

His Excellency Arnoldo M. Listre, Permanent Representative of 
  Argentina......................................................   153

His Excellency Anwarul Karim Chowdhury, Permanent Representative 
  of the People's Republic of Bangladesh and March President, 
  United Nations Security Council................................   119

His Excellency Robert R. Fowler, Permanent Representative of 
  Canada.........................................................   134

His Excellency Wang Yingfan, Permanent Representative of China...   129

His Excellency Jean-David Levitte, Permanent Representative of 
  France.........................................................   150

Her Excellency Mignonette Patricia Durrant, Permanent 
  Representative of Jamaica......................................   147

His Excellency Agam Hasmy, Permanent Representative of Malaysia..   151

His Excellency Moctar Ouane, Permanent Representative of the 
  Republic of Mali...............................................   135

His Excellency Martin Andjaba, Permanent Representative of the 
  Republic of Namibia............................................   126

His Excellency Arnold Peter Van Walsum, Permanent Representative 
  of the Netherlands.............................................   127

His Excellency Sergey V. Lavrov, Permanent Representative of the 
  Russian Federation.............................................   148

His Excellency Said Ben Mustapha, Permanent Representative of 
  Tunisia........................................................   141

His Excellency Volodymyr Y. Yel'chenko, Permanent Representative 
  of Ukraine.....................................................   131

His Excellency Sir Jeremy Quentin Greenstock, Permanent 
  Representative of the United Kingdom...........................   122

Hon. Richard Holbrooke, United States Representative To the 
  United Nations.................................................   141

              opening statements of united states senators

Hon. Jesse Helms, U.S. Senator from North Carolina...............   116

Hon. Joseph R. Biden, Jr., U.S. Senator from Delaware............   118

Hon. Rod Grams, U.S. Senator from Minnesota......................   120

Hon. Barbara Boxer, U.S. Senator from California.................   124

Hon. Paul D. Wellstone, U.S. Senator from Minnesota..............   128

Hon. Paul S. Sarbanes, U.S. Senator from Maryland................   132

Hon. John Warner, U.S. Senator from Virginia.....................   136

Hon. Carl S. Levin, U.S. Senator from Michigan...................   139

Hon. Gordon H. Smith, U.S. Senator from Oregon...................   145

Hon. Bill Frist, U.S. Senator from Tennessee.....................   145

 
               ADDRESS BY SENATOR JESSE HELMS, CHAIRMAN,
                        U.S. SENATE COMMITTEE ON
                           FOREIGN RELATIONS,
                       BEFORE THE UNITED NATIONS
                            SECURITY COUNCIL

                              ----------                              


                            JANUARY 20, 2000

    Mr. President, Distinguished Ambassadors, Ladies and 
Gentlemen, I genuinely appreciate your welcoming me here this 
morning. You are distinguished world leaders and it is my hope 
that there can begin, this day, a pattern of understanding and 
friendship between you who serve your respective countries in 
the United Nations and those of us who serve not only in the 
United States Government but also the millions of Americans 
whom we represent and serve.

    Our Ambassador Holbrooke is an earnest gentleman whom I 
respect, and I hope you will enjoy his friendship as I do. He 
has an enormous amount of foreign service in his background. He 
is an able diplomat and a genuine friend to whom I am most 
grateful for his role and that of the Honorable Irwin Belk, my 
longtime friend, in arranging my visit with you today.

    All that said, it may very well be that some of the things 
I feel obliged to say will not meet with your immediate 
approval, if at all. It is not my intent to offend you and I 
hope I will not.

    It is my intent to extend to you my hand of friendship and 
convey the hope that in the days to come, and in retrospect, we 
can join in a mutual respect that will enable all of us to work 
together in an atmosphere of friendship and hope--the hope to 
do everything we can to achieve peace in the world.

    Having said all that, I am aware that you have interpreters 
who translate the proceedings of this body into a half dozen 
different languages. They have an interesting challenge today. 
As some of you may have detected, I don't have a Yankee accent. 
(I hope you have a translator here who can speak Southern--
someone who can translate words like ``y'all'' and ``I do 
declare.'')

    It may be that one other language barrier will need to be 
overcome this morning. I am not a diplomat, and as such, I am 
not fully conversant with the elegant and rarefied language of 
the diplomatic trade. I am an elected official, with something 
of a reputation for saying what I mean and meaning what I say. 
So I trust you will forgive me if I come across as a bit more 
blunt than those you are accustomed to hearing in this chamber.

    I am told that this is the first time that a United States 
Senator has addressed the U.N. Security Council. I sincerely 
hope it will not be the last. It is important that this body 
have greater contact with the elected representatives of the 
American people, and that we have greater contact with you.

    In this spirit, tomorrow I will be joined here at the U.N. 
by several other members of the Senate Foreign Relations 
Committee. Together, we will meet with UN officials and 
representatives of some of your governments, and will hold a 
Committee ``Field Hearing'' to discuss U.N. reform and the 
prospects for improved U.S.-U.N. relations.

    This will mark another first. Never before has the Senate 
Foreign Relations Committee ventured as a group from Washington 
to visit an international institution. I hope it will be an 
enlightening experience for all of us, and that you will accept 
this visit as a sign of our desire for a new beginning in the 
U.S.-U.N. relationship.

    I hope--I intend--that my presence here today will presage 
future annual visits by the Security Council, who will come to 
Washington as official guests of the United States Senate and 
the Senate's Foreign Relations Committee which I chair.

    I trust that your representatives will feel free to be as 
candid in Washington as I will try to be here today so that 
there will be hands of friendship extended in an atmosphere of 
understanding.

    If we are to have such a new beginning, we must endeavor to 
understand each other better. And that is why I will share with 
you some of what I am hearing from the American people about 
the United Nations.

    Now I am confident you have seen the public opinion polls, 
commissioned by U.N. supporters, suggesting that the U.N. 
enjoys the support of the American public. I would caution that 
you not put too much confidence in those polls. Since I was 
first elected to the Senate in 1972, I have run for re-election 
four times. Each time, the pollsters have confidently predicted 
my defeat. Each time, I am happy to confide, they have been 
wrong. I am pleased that, thus far, I have never won a poll or 
lost an election.

    So, as those of you who represent democratic nations well 
know, public opinion polls can be constructed to tell you 
anything the poll takers want you to hear.

    Let me share with you what the American people tell me. 
Since I became chairman of the Foreign Relations Committee, I 
have received literally thousands of letters from Americans all 
across the country expressing their deep frustration with this 
institution.

    They know instinctively that the U.N. lives and breathes on 
the hard-earned money of the American taxpayers. And yet they 
have heard comments here in New York constantly calling the 
United States a ``deadbeat.''

    They have heard U.N. officials declaring absurdly that 
countries like Fiji and Bangladesh are carrying America's 
burden in peacekeeping.

    They see the majority of the U.N. members routinely voting 
against America in the General Assembly.

    They have read the reports of the raucous cheering of the 
U.N. delegates in Rome, when U.S. efforts to amend the 
International Criminal Court treaty to protect American 
soldiers were defeated.

    They read in the newspapers that, despite all the human 
rights abuses taking place in dictatorships across the globe, a 
U.N. ``Special Rapporteur'' decided his most pressing task was 
to investigate human rights violations in the U.S.--and found 
our human rights record wanting.

    The American people hear all this; they resent it, and they 
have grown increasingly frustrated with what they feel is a 
lack of gratitude.

    Now I won't delve into every point of frustration, but 
let's touch for just a moment on one--the ``deadbeat'' charge. 
Before coming here, I asked the United States General 
Accounting Office to assess just how much the American 
taxpayers contributed to the United Nations in 1999. Here is 
what the GAO reported to me:

    Last year, the American people contributed a total of more 
than $1.4 billion dollars to the U.N. system in assessments and 
voluntary contributions. That's pretty generous, but it's only 
the tip of the iceberg. The American taxpayers also spent an 
additional eight billion, seven hundred and seventy nine 
million dollars from the United States' military budget to 
support various U.N. resolutions and peacekeeping operations 
around the world. Let me repeat that figure: eight billion, 
seven hundred and seventy nine million dollars.

    That means that last year (1999) alone, the American people 
have furnished precisely ten billion, one hundred and seventy 
nine million dollars to support the work of the United Nations. 
No other nation on earth comes even close to matching that 
singular investment.


    So you can see why many Americans reject the suggestion 
that theirs is a ``deadbeat'' nation.

    Now, I grant you, the money we spend on the U.N. is not 
charity. To the contrary, it is an investment--an investment 
from which the American people rightly expect a return. They 
expect a reformed U.N. that works more efficiently, and which 
respects the sovereignty of the United States.

    That is why in the 1980s, Congress began withholding a 
fraction of our arrears as pressure for reform. And 
Congressional pressure resulted in some worthwhile reforms, 
such as the creation of an independent U.N. Inspector General 
and the adoption of consensus budgeting practices. But still, 
the arrears accumulated as the U.N. resisted more comprehensive 
reforms.

    When the distinguished Secretary General, Kofi Annan, was 
elected, some of us in the Senate decided to try to establish a 
working relationship. The result is the Helms-Biden law, which 
President Clinton finally signed into law this past November. 
The product of three years of arduous negotiations and hard-
fought compromises, it was approved by the U.S. Senate by an 
overwhelming 98-1 margin. You should read that vote as a 
virtually unanimous mandate for a new relationship with a 
reformed United Nations.

    Now I am aware that this law does not sit well with some 
here at the U.N. Some do not like to have reforms dictated by 
the U.S. Congress. Some have even suggested that the U.N. 
should reject these reforms.

    But let me suggest a few things to consider: First, as the 
figures I have cited clearly demonstrate, the United States is 
the single largest investor in the United Nations. Under the 
U.S. Constitution, we in Congress are the sole guardians of the 
American taxpayers' money. (It is our solemn duty to see that 
it is wisely invested.) So as the representatives of the U.N.'s 
largest investors--the American people--we have not only a 
right, but a responsibility, to insist on specific reforms in 
exchange for their investment.

    Second, I ask you to consider the alternative. The 
alternative would have been to continue to let the U.S.-U.N. 
relationship spiral out of control. You would have taken 
retaliatory measures, such as revoking America's vote in the 
General Assembly. Congress would likely have responded with 
retaliatory measures against the U.N. And the end result, I 
believe, would have been a breach in U.S.-U.N. relations that 
would have served the interests of no one.

    Now some here may contend that the Clinton Administration 
should have fought to pay the arrears without conditions. I 
assure you, had they done so, they would have lost.

    Eighty years ago, Woodrow Wilson failed to secure 
Congressional support for U.S. entry into the League of 
Nations. This administration obviously learned from President 
Wilson's mistakes.

    Wilson probably could have achieved ratification of the 
League of Nations if he had worked with Congress. One of my 
predecessors as Chairman of the Senate Foreign Relations 
Committee, Henry Cabot Lodge, asked for 14 conditions to the 
treaty establishing the League of Nations, few of which would 
have raised an eyebrow today. These included language to insure 
that the United States remain the sole judge of its own 
internal affairs; that the League not restrict any individual 
rights of U.S. citizens; that the Congress retain sole 
authority for the deployment of U.S. forces through the league, 
and so on.

    But President Wilson indignantly refused to compromise with 
Senator Lodge. He shouted, ``Never, never!'', adding, ``I'll 
never consent to adopting any policy with which that impossible 
man is so prominently identified!'' What happened? President 
Wilson lost. The final vote in the Senate was 38 to 53, and 
League of Nations withered on the vine.

    Ambassador Holbrooke and Secretary of State Albright 
understood from the beginning that the United Nations could not 
long survive without the support of the American people--and 
their elected representatives in Congress. Thanks to the 
efforts of leaders like Ambassador Holbrooke and Secretary 
Albright, the present Administration in Washington did not 
repeat President Wilson's fatal mistakes.

    In any event, Congress has written a check to the United 
Nations for $926 million, payable upon the implementation of 
previously agreed-upon common-sense reforms. Now the choice is 
up to the U.N. I suggest that if the U.N. were to reject this 
compromise, it would mark the beginning of the end of U.S. 
support for the United Nations.

    I don't want that to happen. I want the American people to 
value a United Nations that recognizes and respects their 
interests, and for the United Nations to value the significant 
contributions of the American people. Let's be crystal clear 
and totally honest with each other: all of us want a more 
effective United Nations. But if the United Nations is to be 
``effective'' it must be an institution that is needed by the 
great democratic powers of the world.

    Most Americans do not regard the United Nations as an end 
in and of itself--they see it as just one part of America's 
diplomatic arsenal. To the extent that the U.N. is effective, 
the American people will support it. To the extent that it 
becomes ineffective--or worse, a burden--the American people 
will cast it aside.

    The American people want the U.N. to serve the purpose for 
which it was designed: they want it to help sovereign states 
coordinate collective action by ``coalitions of the willing,'' 
(where the political will for such action exists); they want it 
to provide a forum where diplomats can meet and keep open 
channels of communication in times of crisis; they want it to 
provide to the peoples of the world important services, such as 
peacekeeping, weapons inspections and humanitarian relief.

    This is important work. It is the core of what the U.N. can 
offer to the United States and the world. If, in the coming 
century, the U.N. focuses on doing these core tasks well, it 
can thrive and will earn and deserve the support of the 
American people. But if the U.N. seeks to move beyond these 
core tasks, if it seeks to impose the U.N.'s power and 
authority over nation-states, I guarantee that the United 
Nations will meet stiff resistance from the American people.

    As matters now stand, many Americans sense that the U.N. 
has greater ambitions than simply being an efficient deliverer 
of humanitarian aid, a more effective peacekeeper, a better 
weapons inspector, and a more effective tool of great power 
diplomacy. They see the U.N. aspiring to establish itself as 
the central authority of a new international order of global 
laws and global governance. This is an international order the 
American people will not countenance.

    The U.N. must respect national sovereignty. The U.N. serves 
nation-states, not the other way around. This principle is 
central to the legitimacy and ultimate survival of the United 
Nations, and it is a principle that must be protected.

    The Secretary General recently delivered an address on 
sovereignty to the General Assembly, in which he declared that 
``the last right of states cannot and must not be the right to 
enslave, persecute or torture their own citizens.'' The peoples 
of the world, he said, have ``rights beyond borders.''

    I wholeheartedly agree.

    What the Secretary General calls ``rights beyond borders,'' 
we in America call ``inalienable rights.'' We are endowed with 
those ``inalienable rights,'' as Thomas Jefferson proclaimed in 
our Declaration of Independence, not by kings or despots, but 
by our Creator.

    The sovereignty of nations must be respected. But nations 
derive their sovereignty--their legitimacy--from the consent of 
the governed. Thus, it follows, that nations can lose their 
legitimacy when they rule without the consent of the governed; 
they deservedly discard their sovereignty by brutally 
oppressing their people.

    Slobodan Milosevic cannot claim sovereignty over Kosovo 
when he has murdered Kosovars and piled their bodies into mass 
graves. Neither can Fidel Castro claim that it is his sovereign 
right to oppress his people. Nor can Saddam Hussein defend his 
oppression of the Iraqi people by hiding behind phony claims of 
sovereignty.

    And when the oppressed peoples of the world cry out for 
help, the free peoples of the world have a fundamental right to 
respond.

    As we watch the U.N. struggle with this question at the 
turn of the millennium, many Americans are left exceedingly 
puzzled. Intervening in cases of widespread oppression and 
massive human rights abuses is not a new concept for the United 
States. The American people have a long history of coming to 
the aid of those struggling for freedom. In the United States, 
during the 1980s, we called this policy the ``Reagan 
Doctrine.''

    In some cases, America has assisted freedom fighters around 
the world who were seeking to overthrow corrupt regimes. We 
have provided weaponry, training, and intelligence. In other 
cases, the United States has intervened directly. In still 
other cases, such as in Central and Eastern Europe, we 
supported peaceful opposition movements with moral, financial 
and covert forms of support. In each case, however, it was 
America's clear intention to help bring down Communist regimes 
that were oppressing their peoples--and thereby replace 
dictators with democratic governments.

    The dramatic expansion of freedom in the last decade of the 
20th century is a direct result of these policies.

    In none of these cases, however, did the United States ask 
for, or receive, the approval of the United Nations to 
``legitimize'' its actions.

    It is a fanciful notion that free peoples need to seek the 
approval of an international body (some of whose members are 
totalitarian dictatorships) to lend support to nations 
struggling to break the chains of tyranny and claim their 
inalienable, God-given rights.

    The United Nations has no power to grant or decline 
legitimacy to such actions. They are inherently legitimate.

    What the United Nations can do is help. The Security 
Council can, where appropriate, be an instrument to facilitate 
action by ``coalitions of the willing,'' implement sanctions 
regimes, and provide logistical support to states undertaking 
collective action.

    But complete candor is imperative: The Security Council has 
an exceedingly mixed record in being such a facilitator. In the 
case of Iraq's aggression against Kuwait in the early 1990s, it 
performed admirably; in the more recent case of Kosovo, it was 
paralyzed. The U.N. peacekeeping mission in Bosnia was a 
disaster, and its failure to protect the Bosnian people from 
Serb genocide is well documented in a recent U.N. report.

    And, despite its initial success in repelling Iraqi 
aggression, in the years since the Gulf War, the Security 
Council has utterly failed to stop Saddam Hussein's drive to 
build instruments of mass murder. It has allowed him to play a 
repeated game of expelling UNSCOM inspection teams which 
included Americans, and has left Saddam completely free for the 
past year to fashion nuclear and chemical weapons of mass 
destruction.

    I am here to plead that from now on we all must work 
together, to learn from past mistakes, and to make the Security 
Council a more efficient and effective tool for international 
peace and security. But candor compels that I reiterate this 
warning: the American people will never accept the claims of 
the United Nations to be the ``sole source of legitimacy on the 
use of force'' in the world.

    But, some may respond: the U.S. Senate ratified the U.N. 
Charter fifty years ago. Yes, but in doing so we did not cede 
one syllable of American sovereignty to the United Nations. 
Under our system, when international treaties are ratified, 
they simply become domestic U.S. law. As such, they carry no 
greater or lesser weight than any other domestic U.S. law. 
Treaty obligations can be superseded by a simple act of 
Congress. This was the intentional design of our founding 
fathers, who cautioned against entering into ``entangling 
alliances.''

    Thus, when the United States joins a treaty organization, 
it holds no legal authority over us. We abide by our treaty 
obligations because they are the domestic law of our land, and 
because our elected leaders have judged that the agreement 
serves our national interest. But no treaty or law can ever 
supersede the one document that all Americans hold sacred: The 
U.S. Constitution.

    The American people do not want the United Nations to 
become an ``entangling alliance.'' That is why Americans look 
with alarm at U.N. claims to a monopoly on international moral 
legitimacy. They see this as a threat to the God-given freedoms 
of the American people, a claim of political authority over 
America and its elected leaders without their consent.

    The effort to establish a United Nations International 
Criminal Court is a case-in-point. Consider: the Rome Treaty 
purports to hold American citizens under its jurisdiction--even 
when the United States has neither signed nor ratified the 
treaty. In other words, it claims sovereign authority over 
American citizens without their consent. How can the nations of 
the world imagine for one instant that Americans will stand by 
and allow such a power-grab to take place?

    The Court's supporters argue that Americans should be 
willing to sacrifice some of their sovereignty for the noble 
cause of international justice. International law did not 
defeat Hitler, nor did it win the Cold War. What stopped the 
Nazi march across Europe, and the Communist march across the 
world, was the principled projection of power by the world's 
great democracies. And that principled projection of force is 
the only thing that will ensure the peace and security of the 
world in the future.

    More often than not, ``international law'' has been used as 
a make-believe justification for hindering the march of 
freedom. When Ronald Reagan sent American servicemen into 
harm's way to liberate Grenada from the hands of a communist 
dictatorship, the U.N. General Assembly responded by voting to 
condemn the action of the elected President of the United 
States as a violation of international law--and, I am obliged 
to add, they did so by a larger majority than when Soviet 
invasion of Afghanistan was condemned by the same General 
Assembly!

    Similarly, the U.S. effort to overthrow Nicaragua's 
Communist dictatorship (by supporting Nicaragua's freedom 
fighters and mining Nicaragua's harbors) was declared by the 
World Court as a violation of international law.

    Most recently, we learn that the chief prosecutor of the 
Yugoslav War Crimes Tribunal has compiled a report on possible 
NATO war crimes during the Kosovo campaign. At first, the 
prosecutor declared that it is fully within the scope of her 
authority to indict NATO pilots and commanders. When news of 
her report leaked, she back pedaled.

    She realized, I am sure, that any attempt to indict NATO 
commanders would be the death knell for the International 
Criminal Court. But the very fact that she explored this 
possibility at all brings to light all that is wrong with this 
brave new world of global justice, which proposes a system in 
which independent prosecutors and judges, answerable to no 
state or institution, have unfettered power to sit in judgment 
of the foreign policy decisions of Western democracies.

    No U.N. institution--not the Security Council, not the 
Yugoslav tribunal, not a future ICC--is competent to judge the 
foreign policy and national security decisions of the United 
States. American courts routinely refuse cases where they are 
asked to sit in judgment of our government's national security 
decisions, stating that they are not competent to judge such 
decisions. If we do not submit our national security decisions 
to the judgment of a Court of the United States, why would 
Americans submit them to the judgment of an International 
Criminal Court, a continent away, comprised of mostly foreign 
judges elected by an international body made up of the 
membership of the U.N. General Assembly?

    Americans distrust concepts like the International Criminal 
Court, and claims by the U.N. to be the ``sole source of 
legitimacy'' for the use of force, because Americans have a 
profound distrust of accumulated power. Our founding fathers 
created a government founded on a system of checks and 
balances, and dispersal of power.

    In his 1962 classic, Capitalism and Freedom, the Nobel-
prize winning economist Milton Friedman rightly declared:

          [G]overnment power must be dispersed. If government 
        is to exercise power, better in the county than in the 
        state, better in the state than in Washington. 
        [Because] if I do not like what my local community 
        does, I can move to another local community . . . [and] 
        if I do not like what my state does, I can move to 
        another. [But] if I do not like what Washington 
        imposes, I have few alternatives in this world of 
        jealous nations.


    Forty years later, as the U.N. seeks to impose its utopian 
vision of ``international law'' on Americans, we can add this 
question: Where do we go when we don't like the ``laws'' of the 
world?

    Today, while our friends in Europe concede more and more 
power upwards to supra-national institutions like the European 
Union, Americans are heading in precisely the opposite 
direction.

    America is in a process of reducing centralized power by 
taking more and more authority that had been amassed by the 
Federal government in Washington and referring it to the 
individual states where it rightly belongs.

    This is why Americans reject the idea of a sovereign United 
Nations that presumes to be the source of legitimacy for the 
United States Government's policies, foreign or domestic. There 
is only one source of legitimacy of the American government's 
policies--and that is the consent of the American people.

    If the United Nations is to survive into the 21st century, 
it must recognize its limitations. The demands of the United 
States have not changed much since Henry Cabot Lodge laid out 
his conditions for joining the League of Nations 80 years ago: 
Americans want to ensure that the United States of America 
remains the sole judge of its own internal affairs, that the 
United Nations is not allowed to restrict the individual rights 
of U.S. citizens, and that the United States retains sole 
authority over the deployment of United States forces around 
the world.

    This is what Americans ask of the United Nations; it is 
what Americans expect of the United Nations. A United Nations 
that focuses on helping sovereign states work together is worth 
keeping; a United Nations that insists on trying to impose a 
utopian vision on America and the world will collapse under its 
own weight.

    If the United Nations respects the sovereign rights of the 
American people, and serves them as an effective tool of 
diplomacy, it will earn and deserve their respect and support. 
But a United Nations that seeks to impose its presumed 
authority on the American people without their consent begs for 
confrontation and, I want to be candid, eventual U.S. 
withdrawal.

    Thank you very much.


        FIELD HEARING ON IMPLEMENTATION OF UNITED NATIONS REFORM

                                 ______
                                 

                        FRIDAY, JANUARY 21, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                      New York, NY.

    The committee met, pursuant to notice, at 2:15 p.m. at the 
offices of the Bar Association of New York, 42 West 44th 
Street, Grand Hall, New York, New York, Hon. Jesse A. Helms, 
chairman of the committee, presiding.

    Present: Senators Helms, Hagel, Grams, Biden, and Feingold.

    Also Present: Senator Warner.

    The Chairman. It is a little strange for a southerner to 
say this in New York City, but the committee will come to 
order, and we are glad to hear from the president of this 
distinguished organization, Mr. Michael Cooper, who is 
president of the Association of the Bar. Mr. Cooper.

STATEMENT OF MICHAEL COOPER, PRESIDENT, BAR ASSOCIATION OF NEW 
                              YORK

    Mr. Cooper. Thank you, Senator Helms. It is a great honor 
for us to have you and the other distinguished members of the 
committee on Foreign Relations here today, and also to have as 
our guests delegates to the United Nations and other members of 
the diplomatic community.

    This is the first time in the 130 years of this association 
that a committee of the U.S. Senate has met here. We are 
honored that you are meeting here today, and we believe it is 
singularly appropriate that you do so, because the association 
has long had a concern with the United Nations and its 
relations with the United States as a member Nation.

    Thank you.

    The Chairman. Thank you, sir. I believe you said it is 138 
years?

    Mr. Cooper. 130 years, 1870.

    The Chairman. I believe Strom Thurmond was here at the last 
one. [Laughter.]

    The Chairman. Well, thank you very much, sir.

    This field hearing of the Foreign Relations Committee will 
come to order today, as I say, and our purpose today is to 
examine prospects for improving the United Nations' financial 
position.

    Now, never before, as indicated, has this committee, the 
Foreign Relations Committee of the U.S. Senate, visited as a 
group an international institution, and I hope the Senators 
will consider it enlightening, and that the United Nations will 
regard this visit as a sign of our desire for a new beginning 
in the U.S.-U.N. relationship. And, while on that point, our 
first witness is going to be the distinguished Ambassador to 
the United Nations, Mr. Richard Holbrooke; and I want to 
commend him and all the members of his staff who have worked so 
diligently, and many long hours, and they do not pay overtime, 
to make this a good meeting.

    We have two panels to explore the U.N.'s reform efforts and 
American interest at the United Nations. First, the U.S. 
Permanent Representative to the United Nations, Mr. Holbrooke, 
will testify and respond to inquiries, aided by his assistant 
for management and reform, Ambassador Donald Hays, who has been 
squiring me around for the last 48 hours.

    On the second panel we will have John Bolton, a long-time 
friend of ours, Senior Vice President of the American 
Enterprise Institute and former Assistant Secretary of State 
for International Organization Affairs; and Edward Luck, 
Executive Director of the Center for the Study of International 
Organizations, affiliated with the New York University Law 
School and Princeton's Woodrow Wilson School.

    They will discuss the U.N.'s proper role and peacekeeping 
activities, and later, after the formal hearing, and we recess, 
we will hear from the Under Secretary General for Management, 
Joseph Connor, and the Special Advisor to the Secretary 
General, John Ruggie.

    Now, before Ambassador Holbrooke begins, I turn to my good 
friend, cohort, and the distinguished Ranking Member of the 
Foreign Relations Committee, Senator Biden of Delaware.

    [The prepared statement of Chairman Helms follows:]

                  Prepared Statement of Chairman Helms

    I want to thank the President of the Association of the 
Bar, Michael Cooper, for providing this stately room for a 
hearing.

    This Field Hearing of the Foreign Relations Committee will 
come to order and our purpose today is to examine prospects for 
improving the United Nations financial position.

    The American taxpayers feel that the U.N. lives and 
breathes on the hard-earned money of working Americans.

    They resent comments made here in New York suggesting that 
the United States is a ``deadbeat.'' They are aware that the 
majority of the U.N. members routinely vote against the U.S. 
position in the General Assembly.

    They read and hear in the news that, despite all the human 
rights abuses taking place in dictatorships across the globe, a 
U.N. ``Special Rapporteur'' sometime back decided that the most 
important task on his agenda was to investigate human rights 
violations in the U.S. He did an investigation of sorts and 
confirmed a feeling that he had to begin with--that the U.S. 
Human rights record was found wanting.

    The American people have heard all of this and they have 
grown increasingly irritated.

    As for the ``deadbeat'' charge, I asked the General 
Accounting Office to assess just how much the American 
taxpayers contributed to the United Nations in 1999 (last 
year). The GAO reported to me that in 1999, the American people 
contributed a total of more than $1.4 billion dollars to the 
U.N. system in assessments and voluntary contributions.

    The American taxpayers spent an additional eight billion, 
seven hundred and seventy nine million dollars from the U.S. 
military budget to support various U.N. resolutions and 
peacekeeping operations around the world. So, last year (1999) 
alone, the American people furnished Ten Billion, One Hundred 
and Seventy Nine Million Dollars to support the work of the 
United Nations. No other nation on earth comes anywhere close 
to matching that amount paid to the U.N.

    When the distinguished Secretary General, Kofi Annan, was 
first elected, several of us on this Committee decided to try 
to establish a working relationship, the result being the 
Helms-Biden law, which the President finally got around to 
signing into law this past November.

    The product of three years of negotiations and hard-fought 
compromises, it was approved by the U.S. Senate by a 98-1 
margin. Congress has written a check to the United Nations for 
$926 million, payable upon the implementation of previously 
agreed-upon common-sense reforms.

    So, we will address three subjects at this hearing. First, 
we will hear how reforms required by the Helms-Biden law are 
being implemented, including most notably, a sweeping 
readjustment of the scale of member nations financial 
contributions, in the spirit of burden-sharing.

    Second, we will look at how reform can be carried forward 
in the regular course of business at the U.N. reforms need to 
be sustained by constant monitoring and the measurement of 
success throughout the U.N. system. Redundancy in that system 
must be reined in; for instance, in Guatemala, there are 18 
different U.N. programs in operation.

    Third, with reforms launched and arrears paid, we can then 
turn to the subject of promoting U.S. interests on policy 
matters at the U.N.

    Never before has the Senate Foreign Relations Committee, as 
a group, visited an international institution. I hope Senators 
will consider it enlightening, and that the U.N. will regard 
this visit as a sign of our desire for a new beginning in the 
U.S.-U.N. relationship.

    We have scheduled two panels to explore U.N. reform efforts 
and American interests at the U.N. First, the U.S. Permanent 
Representative to the U.N., Richard Holbrooke, will testify and 
respond to queries aided by his assistant for management and 
reform, Ambassador Donald Hays.

    On the second panel, we will hear from John Bolton, Senior 
Vice President of the American Enterprise Institute and former 
Assistant Secretary of State for International Organization 
Affairs--and from Edward Luck, Executive Director of the Center 
for the Study of International Organization, affiliated with 
the New York University Law School and Princeton's Woodrow 
Wilson School. They will discuss the U.N.'s proper role and 
peacekeeping activities with them.

    Later, after the formal hearing recesses, we will hear from 
the Under-Secretary General for Management, Joseph Connor, and 
the Special Advisor to the Secretary General, John Ruggie.

    Before Ambassador Holbrooke testifies, I turn to the 
distinguished ranking member, Senator Biden.

    Senator Biden. Well, Mr. Chairman, I thank you. I thought 
the president was going to move your admission to the New York 
Bar. Having attended law school in the State of New York, I 
always thought I would be spending more time here than in my 
home State, and it turned out, fortunately for the bar, I went 
home, but it is an honor to be here.

    Let me just say that as a lawyer and member of the bar I 
consider this one of the most distinguished and honored 
organizations in the country, and I appreciate the opportunity 
to be here.

    But Mr. Chairman, I want to thank you. You and I have 
worked long and hard, with your leadership, to breach an 
impasse that began to, I think, impact on the security 
interests of the United States of America, and that is the 
impasse reached over whether we could reach an accommodation on 
funding requirements of the United States to the U.N.

    The fact that I was pushing that idea for a long time came 
as no surprise, and was not, quite frankly, of much relevance. 
The fact that you decided that this was an important 
undertaking was incredibly relevant, because you have and do 
represent and are the most respected and outspoken voice in the 
Senate on matters that reflect a more conservative point of 
view.

    The United Nations has never been the darling of certain 
sectors of our political environment, and your leadership has 
been significant. It is a term that is overused, but I do think 
that it is a start, not merely because it is the first time in 
130-plus years there has been a committee to ever hold a 
hearing here, but I think--I have been in the U.S. Senate--you 
and I came the same day, on the same year, were sworn in at the 
same time, 1972.

    I imagine we have had field hearings somewhere else, but if 
we have I do not know where, and I do not remember having any 
in this city, and your discussion and frank appraisal of your 
point of view with the U.N. Security Council yesterday, I think 
quite frankly benefited everyone.

    You and I, as we both know, as close friends, we may 
disagree on how much of a threat to our sovereignty the United 
Nations is--I think it is not a threat at all. I understand 
your point of view. We disagreed on a number of things. I did 
not think we should have as many conditions, and you did not 
think we should have as much money, but we worked it out.

    We worked it out, and hopefully this is the beginning of a 
new chapter in U.S.-U.N. relations. But I just want to say for 
the record it is because of your willingness to take the steps 
you have taken, and they have been significant, and I will end 
where I began. When I saw you this morning for the first time 
since Christmas, and I said, this was vintage Jesse Helms.

    By that, I mean that you did not trim your sails at all in 
terms of what your ideological point of view was, but what you 
did was, you commanded the stage and you changed the dialog and 
you changed the form, and that is what I meant by vintage Jesse 
Helms, and for that I thank you. I can think of no two people 
who are more independent and move to the sound of their own 
drummers more than you and the Ambassador before us, who I 
consider a very close personal friend.

    The idea that--I think you are becoming the--I used to say 
that Strom Thurmond and I were the ultimate odd couple in the 
Senate, because we like each other so much. Well, I think they 
are going to start talking about Holbrooke and Helms, or Helms 
and Holbrooke as the ultimate odd couple, but I am glad you are 
both in the positions you are in, and I want to again thank you 
and thank the bar for your hospitality today.

    The Chairman. Well said, Joe.

    Now, Mr. Ambassador, it is up to you, and thank you for all 
you have done.

  STATEMENT OF AMBASSADOR RICHARD C. HOLBROOKE, UNITED STATES 
PERMANENT REPRESENTATIVE TO THE UNITED NATIONS, ACCOMPANIED BY 
HON. DONALD HAYS, U.S. REPRESENTATIVE TO THE UNITED NATIONS FOR 
      UNITED NATIONS MANAGEMENT AND REFORM, NEW YORK, N.Y.

    Ambassador Holbrooke. Thank you, Mr. Chairman, Senator 
Biden, Senator Warner, Senator Hagel, Senator Grams, Senator 
Feingold. I want to welcome you to my home town. I look forward 
to visiting yours next month, Mr. Chairman, and then after that 
we can compare who has the better restaurants and nicer hotels, 
but I am glad that you are back in the city. I hope I am not 
revealing--

    Senator Biden. You did not say compare hospitality. You may 
lose on that one.

    Ambassador Holbrooke [continuing]. I will lose that, but I 
hope I am not betraying a confidence when I say, welcome back 
to the city you spent your honeymoon in, with your wife and 
your daughters. [Laughter.]

    I think the audience misunderstood me. I understand that 
you spent your honeymoon with your wife, but she is back here 
with you today, and that is what I meant. [Laughter.]

    The Chairman. I am glad about both times, to tell you the 
truth.

    Ambassador Holbrooke. So I also want to especially pay 
tribute to the fact that not just one but the two most 
important committee chairman dealing with our national security 
are here today, and my special appreciation, as always, to 
Senator Warner, who presented me to your committee for 
confirmation, and whose friendship and advice I treasure 
profoundly.

    I am accompanied today by, as you so kindly put it, most of 
our team, but particularly, sitting right behind me, Ambassador 
Don Hays, one of the really strongest experts in management in 
the State Department who your and Senator Grams' speedy 
confirmation has permitted us to make great inroads on the 
management issue.

    I would also like to note that Assistant Secretary of State 
Barbara Larkin is here with us from Washington, who you all 
know so well, and behind me are a very considerable number of 
Ambassadors from the U.N. who, apparently having enjoyed the 
remarkable lunch we just had, decided to come downtown to keep 
going.

    I have a prepared statement, Mr. Chairman.

    The Chairman. Mr. Ambassador, let us have the visiting 
Ambassadors stand, if they will. Will the General Assembly of 
the United Nations be in order. [Laughter.] [Applause.]

    Ambassador Holbrooke. So I see all continents are 
represented back there, and I am just delighted.

    Mr. Chairman, I have a prepared statement which I would 
like to submit for the record and then just make a few general 
remarks, if I might.

    The Chairman. Very well.

    Ambassador Holbrooke. You just used the phrase, a new 
beginning, Senator Biden just used the phrase, a new chapter, 
and here we are in the first month of a new century. Yesterday, 
in this remarkable and unprecedented meeting with the Security 
Council, at least four or five Ambassadors publicly used the 
word historic, so if they did, let me at least quote them and 
say that I think that we did something remarkable here and, 
like Senator Biden, I want to thank you for leading the 
committee here.

    For the benefit of the audience, I should also say that a 
very large number of Senators on this committee who could not 
be here called and asked to be remembered. They all understood 
the importance of this event.

    And I would like to put into the record my own feelings 
about the last 2 days. First of all, a special tribute to Irwin 
Belk from North Carolina, a public member of the U.S. 
delegation of the General Assembly, who is from North Carolina, 
and who has played an indispensable role in making this happen, 
and will be our host tonight at another unprecedented event, a 
reception in honor of the committee and the Security Council, a 
joint reception dinner.

    Second, simply to try to clarify what I think is happening 
here--and I say I think, Mr. Chairman, because it is a work in 
progress--if you look back over the history of the United 
Nations since the end of the cold war, we can already see three 
distinct phases. In the first phase, from the fall of the 
Berlin Wall through the next 3 or 4 years, I think there was an 
overextension of U.N. peacekeeping without its mandates being 
clearly defined. It got overextended. It ran into horrendous 
problems in three places very quickly, sequentially, Somalia in 
1993, Rwanda in 1994, and Bosnia in 1992 to 1995.

    That catastrophe, which cost countless lives, millions of 
lives lost on two continents, a tremendous amount of money, 
also led to the inevitable departure of the incumbent Secretary 
General of the U.N. at the time, a withdrawal from peacekeeping 
by the United Nations, a withdrawal of the United States from 
involvement with the United Nations, which your committee 
reflected, and which was symbolized to me by a very personal 
incident.

    When the Dayton peace talks began in November 1995, the 
U.N. called us up and asked if they could have a representative 
present, and it took me just about 1 nanosecond to tell them 
they were not welcome at Dayton. We did not want the U.N. at 
Dayton, they did not deserve to be there, they would have 
mucked it up, and we went on and did the Dayton peace 
agreements without the U.N.; it was a pretty low point.

    That was phase 1, and phase 2. Phase 1, an involvement 
which was not thought out, phase 2, a withdrawal.

    We are now clearly in a third phase, a phase in which, 
under your leadership, the United States has made available to 
the U.N. $926 million toward the arrears, while continuing to 
make tremendous contributions in other areas. We were always, 
even at the height of the arrears crisis, which is now well 
behind us, we were always the largest contributor to the U.N.

    We were never a dead-beat. I noticed you mentioned that 
yesterday. I want to assure you that no member of the State 
Department ever used that phrase. Many of your colleagues 
brought it up with me last fall. It may have been used by some 
private citizen, or some outside observer, but we were never 
dead-beats. We were the largest contributor even when we were 
in arrears.

    But you and Senator Biden and your colleagues solved that, 
and put on it some benchmarks which are controversial, but let 
us look at the record. We have already fulfilled three of them, 
three big ones. Some of the others are quite--we had already 
fulfilled.

    Secretary Albright and I have worked very hard to work with 
the Congress on this issue. She has worked in capitals and I 
have worked in New York on these issues.

    Senator Grams and his staff have been in constant touch 
with Ambassador Hays and myself on every detail, and as a 
result of this I think the United States position at the U.N. 
was already improving prior to your arrival in New York 
yesterday.

    Now, it is too early to tell the full impact of your trip 
to New York. This is a work in progress, and I told Nightline 
last night it was half-time. Now it is sort of the third 
quarter, but I think it is clear, by the reaction of the U.N. 
and the extraordinary fact that so many of my cherished 
colleagues have come here to see you again, this is a--I looked 
back here and I saw instantly--I do not want to insult anybody.

    I saw Australia, Mexico, other major countries are 
represented here by their Ambassadors, and many missions are 
represented by people just below the Ambassador level. It is 
clear that the message has gotten through, and the message is 
clear. You have made it clear you are not anti-U.N. You have a 
view of the United Nations, and you want the U.N. to succeed on 
your terms, and just as your committee has a range of views, it 
is now, I think, going to be much better understood by the 
Ambassadors.

    And I want to say to the people who were not at lunch that 
they should have seen Ambassador after Ambassador lining up to 
meet every one of the Senators and unanimously saying, I may 
not agree with everything you said, but your trip here is a 
break-through and we appreciate it, and we now understand more 
clearly what the Helms-Biden bill is all about. This lays a 
much better basis, Mr. Chairman, for the actual work of 
promoting American foreign policy through the U.N.

    Now, I would sum up the U.N. in three words, from an 
American point of view. Flawed, but indispensable. It is hard 
to imagine, as Senator Biden said earlier to day, it is hard to 
imagine the world today being better off if the U.N. did not 
exist, and yet it is simultaneously impossible to dispute the 
fact that the United Nations, for a lot of bureaucratic 
reasons, political reasons, leadership reasons in the past, 
prior to Secretary General Kofi Annan taking over, can be 
vastly improved, and that is what we are doing, and that is 
what your presence here today will advance.

    I know you have a vast agenda of specific issues you want 
to cover, substantive policy issues which I will withhold for 
the questions and answers, but I do want to say that if you 
talk about a new beginning, if Senator Biden talks about a new 
chapter, if dozens of Permanent Representatives talk about 
historic, I speak for both Secretary Albright and myself, we 
are proud to be part of the process.

    One last thing, Mr. Chairman. I have heard rumors this is 
an election year, and I think that we should all note that it 
is even more remarkable and important that we are meeting in 
the first month of a year in which we will choose a new 
President and a majority of the Members of Congress. I hope the 
world understands the message here, that politics goes on, but 
we are knitting together the core of a bipartisan foreign 
policy within which there are significant disagreements, 
significant. You and Senator Biden have aired them publicly 
many times.

    But the world should see what is going on here, and your 
coming to New York and then inviting the Security Council to 
come to Washington is a most remarkable statement, and I thank 
you for it on behalf of the President, with whom I talked the 
day before yesterday, President Clinton was extremely pleased 
at this hearing, and asked to be remembered to the committee--
and on behalf of Secretary Albright, with whom Barbara Larkin 
talked just a few moments ago.

    So I thank you very much for doing this for us, and I am 
ready to respond to any questions that you and your committee 
and Senator Warner may have.

    [The prepared statement of Ambassador Holbrooke follows:]

               Prepared Statement of Ambassador Holbrooke

    Mr. Chairman, Senators: thank you for this opportunity to 
appear before your committee today. I would like to welcome all 
of you to New York. I am deeply honored to be the lead witness 
in this unprecedented ``field hearing'' of your committee, and 
look forward to discussing with all of you how, together, we 
can move forward to advance U.S. interests at the United 
Nations, and make the U.N. a more effective institution.

    As I stated during my confirmation hearings last June, and 
expressed again the last time I had the privilege to appear 
before you in November, I believe that close consultations with 
the Congress are essential. U.S. national interests are best 
served when the Executive Branch and Congress work in a 
bipartisan spirit. I particularly appreciate the close 
relationship that has developed between members of this 
committee and myself and my team here in New York. Your trip 
here is only a beginning for an enhanced partnership between 
the committee and the U.S. mission to the U.N., as well as for 
the U.S.-UN relationship overall.

    Since the passage of the Helms-Biden legislation three 
months ago, the United States' relationship with the United 
Nations has undergone a dramatic, critical transformation. Mr. 
Chairman, yesterday's Security Council meeting, and today's 
special ``field hearing,'' opens a new beginning for the U.S.-
U.N. relations. As we heard from many of my fellow Permanent 
Representatives yesterday, for the U.N. to succeed, American 
leadership is essential. To my mind, there is no better example 
of the imperative for American leadership in the U.N. than this 
month's focus on Africa. Already, we've placed a new security 
focus on the scourge of AIDS and its effects on fomenting 
instability, addressed the plight of refugees and IDPs, pressed 
for peace in Angola and heard from former President Mandela on 
his vision for reconciliation in Burundi. And this weekend, 
seven presidents from states involved in the Congo conflict 
will come to New York for Monday's Security Council meeting on 
the next steps for peace there. Secretary Albright will preside 
over Monday's meeting, and negotiations will continue 
throughout the week.

    Mr. Chairman, I'd like to echo something you said yesterday 
during your historic speech in the Security Council: All of 
us--the Clinton Administration, the Congress, and most 
important, the American people--want the United Nations to 
succeed. Your committee's presence here in New York symbolizes 
our agreement on one essential point: that the U.N., despite 
its significant flaws, remains a vital tool for advancing U.S. 
national security interests. As they might say downtown from 
here, on Wall Street, the U.N. is ``net-net'' for the United 
States. If the U.N. did not exist, we would have to invent it.

    This fact is clear today around the globe. During the past 
five months, I have been to every major arena of current U.N. 
activity--Bosnia and Kosovo, East Timor, and Africa. I have 
seen first-hand the critical role the U.N. plays in each of 
these places: helping rebuild Bosnia and Kosovo and assisting 
their people in regaining a sense of normalcy and dignity; 
maintaining stability and supporting the rehabilitation process 
in East Timor; and sheltering refugees and feeding the hungry 
in desperate places like Angola. These are vital tasks that no 
single nation could--nor should--do on its own.

    The U.N. also remains essential to addressing problems that 
threaten the interests of every U.N. member--problems like 
environmental degradation, terrorism, arms proliferation, and 
the scourge of diseases like AIDS.

    And finally, the U.N. plays a critical political role in 
advancing freedom and democracy. At the beginning of the 20th 
century, there were only a handful of countries with 
governments elected by the people (and there were none elected 
on the basis of universal suffrage). Now, at the beginning of 
the 21st century, there are over 100 countries with 
democratically elected governments. The U.N. has played a vital 
part in making this true. Mr. Chairman, as you reminded us 
yesterday, these ideals--freedom of speech and faith; rule of 
law, not force; and government of the people, by the people, 
and for the people--are not just U.N. ideals, these are 
inalienable, fundamental American ideals and having the U.N. 
work toward them is in America's interest.

    That being said, we cannot, we will not, turn a blind-eye 
to the U.N.'s significant problems and inefficiencies Those 
U.N. supporters who regard criticism of the U.N. as criticism 
of the idea of the U.N. are profoundly mistaken. Those of us 
who care about the U.N. and believe in its great potential--
those of us like you, Mr. Chairman, President Clinton, 
Secretary Albright and myself, along with most members of 
Congress, and every member of this committee--have an 
obligation to be honest and acknowledge that in many ways, the 
U.N. system is flawed. We owe it to ourselves and we owe it to 
this organization. Since I first appeared before you during my 
confirmation hearings, I have been clear that U.N. reform would 
be my highest sustained priority. I intend to keep it that way.

    Mr Chairman, this meeting speaks volumes about our shared 
commitment to address these flaws and help the U.N. work 
better. Only two months ago, we made an important step in this 
direction: the Congress passed the landmark Helms-Biden 
legislation. With this accomplishment, we have started moving 
forward to tackle the tough reform issues. As Secretary General 
Annan himself has noted, and as several members of the Security 
Council repeated yesterday, U.N. reform is a ``process'' not an 
event--and there is no doubt that the reform process will be 
arduous.

    That is why we are so grateful for this committee's support 
and that of your colleagues in the Congress. Coming to New 
York, joining us here at the United Nations and having the 
opportunity to meet with representatives of our fellow member 
nations, helps provide a sense of the immense challenge we all 
face. It is imperative that we build a broad coalition of 
members in support of a positive reform agenda. For our part, I 
am fortunate to have as part of my team the indefatigable 
Ambassador Don Hays, who has already met with over 80 of our 
fellow Permanent Representatives to discuss our reform 
objectives.

    Mr. Chairman, our reform agenda at the U.N. is designed, as 
you put it in your speech yesterday, to strengthen the U.N.'s 
ability to serve the purpose for which it was created. This 
agenda includes meaningful structural reforms such as those 
outlined in the Helms-Biden legislation, including progress in 
results based budgeting, better program evaluation and sunset 
provisions. We also insist that the U.N. adheres to budget 
discipline--and this year, following some difficult 
negotiations, we succeeded in getting the U.N. to maintain a 
stable budget. Last fall, the United States finally returned to 
its rightful place on the U.N.'s expert committee on the 
budget, the ACABQ. We're also insisting that the scale of 
assessments process is made more equitable, and have launched a 
comprehensive strategy to overhaul the scale to reflect 21st 
century realities.

    Mr. Chairman, let me be clear: when we insist that the U.N. 
create a better management system; when we insist for sunset 
clauses for committees that are now irrelevant (like the 
Committee on Decolonization); when we insist for reform of the 
personnel system and for more transparency; when we insist that 
the U.N. get its act together on peacekeeping, we do so to 
strengthen the U.N.--not weaken it. At times, we have honest 
disagreements with the U.N. But that does not diminish our 
fundamental commitment to the U.N. and what it stands for--
common solutions to common problems. Fifteen years ago, 
President Reagan expressed a sentiment that I believe remains 
true today: ``We believe in the United Nations and what it 
symbolizes,'' he said. ``We have never stopped believing in its 
possibilities, and we've never stopped taking the United 
Nations seriously.''

    But taking the U.N. seriously means helping it become more 
effective--a more organized, more streamlined, more efficient 
organization, one that is better equipped to deal with the 
unique and daunting challenges of the 21st century. It is 
toward these ends that I look forward to working with you in 
the coming year.

    Again, thank you for affording me this opportunity to be 
with you here today.

    The Chairman. Well, thank you very much, Mr. Ambassador. I 
suggest we have maybe 6 minutes.

    My first question is, to reach a budget of $2.536 billion, 
the General Assembly cut expenditures in general temporary 
assistance, consultants, and travel. At the same time, the 
account for peacekeeping increased and the number of temporary 
positions charged to extrabudgetary funds increased, and that 
leads me to ask the question, how much of the regular budget 
was simply transferred to the other accounts?

    Ambassador Holbrooke. Mr. Chairman, the extrabudgetary 
positions are temporary, as I understand it. I am not familiar 
with every detail of this issue at this moment. I can submit an 
answer in writing, if you wish.

    The Chairman. Sure. It is a little unfair to ask a question 
like that, but I do want it for the record of this committee 
meeting.

    The United Nations has undertaken several new ambitious 
peacekeeping missions, plans to expand several others, and is 
considering several new ones. Now, in my mind, if the U.S. 
temporarily details military personnel, that is, so-called 
gratis personnel, to the U.N. Department of Peacekeeping, it 
will make peacekeeping operations more effective and help 
prevent the hiring of more permanent United Nations, shall we 
say, bureaucrats.

    Now, what impact has the elimination of gratis personnel 
since 1997 had on the U.N.'s capacity to carry out its 
peacekeeping responsibilities?

    Ambassador Holbrooke. Well, I appreciate this question both 
at its general and its specific level, because of all the many 
important things that we deal with in our foreign policy, 
directly or indirectly through the United Nations, I would say 
that this is probably the most urgent issue, is peacekeeping, 
although I would like permission to footnote the fact that we 
are paying a great deal of attention this month to another 
issue, AIDS in Africa, the spread of AIDS in Africa, which 
Senator Feingold and I focused on during our trip last month.

    But on this issue you raised on peacekeeping, as I 
indicated in my opening remarks, we are entering a new phase of 
the U.N.'s history in regard to peacekeeping in East Timor, in 
Kosovo, and in Sierra Leone, and perhaps elsewhere, and the 
U.N. will not get a third chance.

    I mentioned the first two earlier, the involvement which 
collapsed, the pull-back, now the U.N. has a second chance in 
your committee, and the Armed Services Committee has been very 
supportive in general and very constructive in its criticisms, 
and I would note here that Senator Warner and you already had a 
very important private colloquy on Kosovo with the Secretary 
General and his people earlier on peacekeeping today.

    Now, the U.N. will not get a third chance. If it blows it 
this time, I cannot imagine that it is going to be given a 
third chance, either by the American public or the world 
community, and therefore we have got to get peacekeeping right.

    The gratis personnel is an important part of that process. 
I personally believe it was highly successful, and I believe 
that the Secretary General's authority should be used to use 
gratis personnel under the framework that was set out a couple 
of years ago. This is one of the many issues on which I think 
your trip will help. I think it will correct some 
misunderstandings, and I think it is quite consistent with the 
larger picture that we are here to develop today.

    The Chairman. A good answer to a question that is of vital 
importance.

    Last month, the Security Council adopted a plan to create a 
new arms inspection program in Iraq one year after UNSCOM was 
shut down by Saddam Hussein. Now, the Secretary General is 
having trouble getting the Security Council to agree to a chief 
inspector. Two questions. Are you making undermining and 
replacing Saddam Hussein a priority of the U.S. diplomacy at 
the United Nations, and number 2, because they are related, are 
you determined to fight off the increasingly popular notion in 
the United Nations of loosening the sanctions on Saddam 
Hussein?

    Ambassador Holbrooke. My personal priorities would put the 
removal of two people at the top of my list. You mentioned one. 
The other one's name is Milosevic. I do not see how we can have 
stability in either Europe or the Middle East as long as those 
two men are in power.

    My actual duties do not involve the efforts for a regime 
change in Iraq, but I follow this issue closely. I met with the 
Iraq opposition when they came to New York. You and I had a 
private discussion on that, and I think we are in agreement.

    On the question of the head of the sanctions regime, the 
Secretary General was obligated under the U.N. Security Council 
resolution to name somebody by last weekend, 5 days ago. He 
told me, and I think he said to you it was the toughest 
personnel decision he has ever confronted, and he made a 
recommendation on schedule of Rolph Ekeus, who you all know is 
a very distinguished Swedish diplomat who headed UNSCOM and is 
currently the Swedish Ambassador in Washington.

    Mr. Ekeus himself was not anxious to take the job. He 
deserves to have an easier job than this, but he was willing to 
respond to the call of the world.

    Under the resolution, the Security Council needs to approve 
this. Two-and-a-half members of the Security Council objected. 
The half was not the key problem. The Russians objected and, I 
regret to say, the French objected.

    As you well know, the month of January, the United States 
has the rotating presidency of the Security Council, so I am 
currently the president of the Security Council, and in that 
capacity I have an absolute legal obligation under the charter 
to help solve this problem, which slightly limits my ability to 
address it openly while trying to solve it privately.

    But let me say this, Mr. Chairman. We have spent a great 
deal of time on this. I read in the papers that I have not been 
spending a lot of time on this because I am spending all my 
time on Africa. Well, the fact is, this is the month of Africa 
for the Security Council, we are emphasizing it, we did have 
President Mandela here earlier in the week, we have got seven 
African presidents arriving tomorrow.

    This question of Iraq has been on our agenda every hour of 
every day for the last month, and the situation as of this 
moment, to the extent I feel it would be useful to talk about 
it now, is very simple. The Secretary General made an excellent 
recommendation after an immense amount of work. The United 
States supports the Secretary General and commends him for his 
efforts.

    The Security Council is still considering Mr. Ekeus, but 
there is no full agreement, which is required under the rules 
of the Security Council, not entirely dissimilar, in some ways, 
to a confirmation process in the Senate, with which we are both 
familiar, except that it involves the Russians and other 
countries, and I feel it is very wrong to have blocked Mr. 
Ekeus, since he did a good job last time, and we have not stood 
down our support of that recommendation.

    It has not been withdrawn, and we are continuing to pursue 
it, and meanwhile other names are being thrown in the hopper 
and being discussed, but Rolf Ekeus is still the candidate of 
the Secretary General, and now speaking very formally as the 
president of the Security Council I will say we are still 
seized with the problem and we have been meeting in private 
sessions around the clock, and my deputy, Ambassador 
Cunningham, is not here right now I think because he is working 
on that very issue, in direct consultation with the Secretary 
and Tom Pickering as we speak.

    The Chairman. Very good.

    Senator Biden.

    Senator Biden. Thank you very much, Mr. Chairman.

    Mr. Ambassador, the Helms-Biden legislation provides a 
total of $926 million in back payments, but the U.N. claims the 
United States owes $1.6 billion in arrears. For the record, can 
you explain the difference, why the U.N. believes we owe $1.6 
billion?

    Ambassador Holbrooke. Senator Biden, I will let the U.N. 
explain why they think we owe what they say we owe. That is up 
to them. I will only say that the area in disagreement, so-
called contested arrears, is made up over a dozen different--
about $500 million is made up of over a dozen different 
legislative and policy withholdings that accrued over the 
years. Some result from a dispute over the taxation of U.S. 
citizens. Others grew out of our legislation that capped the 
U.S. contribution to peacekeeping. We will support the 
legislative process and above all the Helms-Biden package, and 
the U.N. may continue to say we owe them the money. Our 
position is clear, as laid out in your legislation.

    Senator Biden. And there is no space between the 
administration's position on that and the Senate's position, is 
that correct?

    Ambassador Holbrooke. None whatsoever. Under oath before 
your committee I said my highest sustained priority would be 
implementation of the Helms-Biden package, and that is our 
highest priority, and Senator Grams and Ambassador Hays and I 
have had extensive discussions on this precise issue.

    Senator Biden. One of the areas of confusion at the end of 
this last, the first year of this Congress, which we recessed 
prior to Thanksgiving, was whether or not the passage of Helms-
Biden solved the issue of losing our vote in the General 
Assembly, and that is that failure to pay our dues, our current 
dues, which come to about--for 1999 come to about $300 million, 
whether or not the passage of Helms-Biden solved that problem, 
and my understanding is that we have essentially put down $50 
million toward that.

    In addition, there is about $250 million, in what we call 
in the Senate the Commerce-Justice-State appropriations bill, 
which has become part of this big omnibus bill that we are 
about to deal with when we get back. But is our understanding 
correct that once that $250 million is freed up, which is 
separate and apart from the Helms-Biden piece, that the whole 
issue of our ``losing our vote in the General Assembly'' is 
moot, is over?

    Ambassador Holbrooke. It is a little bit too early for my 
colleagues to work out exactly what will be needed to ``avoid 
losing our vote in the General Assembly.'' We avoided losing it 
last year by about $40 million, but if we fulfill your 
benchmarks and work with people, including Joe Connor, who you 
will hear from later this afternoon, we will succeed in 
preventing that event.

    Senator Biden. Well, one last question. Again this is--I 
know we know the answers to this, but I want to make sure we 
are clear on the record. The Helms-Biden bill requires a 
reduction in our assessment to 20 percent. Now, is that 
impossible to obtain, in your view, or is that possible to 
obtain?

    Ambassador Holbrooke. We will fulfill the scale of 
assessment revision as laid out in the bill. It is certainly 
the most difficult of your benchmarks, but it is achievable, as 
you have formulated it in last year's bill. It requires, 
however, the deep understanding and collaborative efforts with 
many members of the United Nations, some of whose 
representatives are behind us today, most notably the chairman 
of the Fifth Committee, Ambassador Penny Wensley from 
Australia.

    And I want to pay tribute to her for her extraordinary 
shepherding of the budget through the last cycle, almost a 
solid week of 1-hour-a-night sleep, around-the-clock meetings 
until 4 or 5 in the morning. Our team was there, too, and she 
got it through, and we will look to her for leadership.

    The scale of assessments was last really revised in 1973. 
Since then, 56 nations have joined the U.N. Some countries have 
gotten richer, some have gotten poorer. There are countries 
that want to lower their rates. We are not the only ones that 
want to lower our assessment rate, and some have told me 
privately they are ready to raise their rate of assessment if 
it is part of an equitable package.

    We have hired outside consultants to do computer runs. We 
are talking to Governments and capitals, and here in New York. 
I will be traveling to other countries, starting in a few 
weeks, to talk this over. It is going to be tough, Senator 
Biden, but I absolutely believe it is possible, because in the 
end the actual dollar amount involved to go to the required 
rate under the legislation is only $39 million in the budget. 
It is not as much as people think.

    So we are talking a lot about symbolism, and I do not 
believe that the member States of the United Nations, who all 
care about it and who, as you heard first-hand today and 
yesterday, want American leadership, are going to oppose 
working with us on this issue, provided one thing, and this is 
critical. This issue cannot be divorced from our policies 
themselves, and it is the engagement of the United States in 
pursuit of our national interests and global stability and 
democracy that is critical here.

    It is our support of the policies in East Timor, and 
support of our brave Australian and Philippine allies, and our 
efforts in Sierra Leone and Kosovo and Bosnia and elsewhere, 
that have to go hand-in-hand. We cannot separate substance from 
management reform once Helms-Biden was passed.

    Until then, they were separate, for obvious reasons. It is 
a whole new ball game now, Mr. Chairman and Senator. With the 
passage of your bill, we are able finally to work toward an 
integrated policy, and I am so touched that so many Ambassadors 
came here today, because these are the people we work with, and 
by being here in the room, they are indicating to you that 
while they do not agree with everything that we do, they want 
to work with us, and so we are going to make--as I told you 
during the confirmation hearings, this is our top sustained 
priority, and Secretary Albright is also working on it. Every 
trip she makes, she always includes this as part of her 
efforts.

    Senator Biden. Mr. Chairman, 10 seconds to conclude. There 
is a provision that we have in there that we have got to get 
this down to 22 percent, and then down to 20. If you cannot get 
it from 22 to 20, there is the ability for the Secretary to 
waive the condition to get it done. I would expect that you 
would be able to do this. That is our hope and intention, but I 
did want you to know there is--I know you know this, but to 
know there is some flexibility. We do want to work with this, 
and I think it is time we reassess not just our position but 
other nations' positions.

    Ambassador Holbrooke. I well appreciate that, and I would 
just make one additional footnote, and that is that in the 
final analysis I believe that it is imperative that whatever 
our rate, we remain the largest contributor to the U.N. It 
would not be explicable if the world's richest nation, at the 
apogee of its economic power, its moral leadership, its 
cultural dominance in the world, to say nothing of our military 
preponderance, were to somehow not take the lead, and over and 
over again, on issue after issue, the most recent example being 
Vice President Gore's extraordinary appearance last week in New 
York on AIDS in Africa, when he announced that he and the 
administration would come to the Congress with a request for an 
increase, immediately, other countries, led by Japan, came 
forward and said they, too, will increase. American leadership, 
which is not simply rhetoric, is critical here.

    So Senator Biden, I completely understand your question. I 
just want to put a footnote down. I would not want to mislead 
the committee. I think it would not be explicable to the world 
if we were second to any other country.

    Now, that is a specific reference to one country, Japan. 
Japan pays about 19 percent right now, and they are pretty 
upset about the fact. They feel they got a pretty raw deal in 
the U.N. because they are not on the Security Council, and so 
on and so forth. Well, that is a separate issue, but the 
Japanese will have a major problem with their equivalent of the 
Helms-Biden package, and by the way, Mr. Chairman, you have 
your equivalent in the Japanese Diet now. They have been 
watching you, and they have got a committee which is starting 
to talk about the budget, and I met with them here in New York, 
and you are their role model. [Laughter.]

    Ambassador Holbrooke. And they talk to me about the 
Japanese Helms-Biden, so we have to be very, very clear about 
this one subplot.

    Other than that, we will get there, Mr. Chairman, Senator 
Biden.

    The Chairman. Japan, stay tuned.

    Senator Hagel.

    Senator Hagel. Mr. Chairman, thank you. Maybe our next 
field hearing will be in Tokyo, Mr. Chairman. [Laughter.]

    Senator Hagel. Mr. Ambassador, thank you for your 
hospitality.

    I would like to build on for a moment to what Senator Biden 
was focusing on. As we all know, the United Nations was formed 
50 years ago to deal with the great challenges of our time. It 
was to be a relevant organization to deal with those 
challenges. I have heard much today, we have over the last 
couple of years, about United Nations peacekeeping 
responsibilities.

    My question, Mr. Ambassador, is this. Peacekeeping is about 
more resources, about manpower, about leadership, about 
commitment, and about money. At a time when Western 
democracies' defense budgets are going down, ours, after a long 
period of decline, is starting to go up.

    Are we going to shift resources in the United Nations away 
from other activities to deal with the added expenses of the 
peacekeeping commitments? You mentioned Bosnia, Kosovo, East 
Timor--we are talking about Africa, we are talking about so 
many areas of the world that need our help.

    If we are not going to shift resources within the United 
Nations to deal with the additional resources needed for the 
peacekeeping efforts, then where do those additional resources 
come from? Will they come from increased dues, or perhaps less 
U.N. activity across the board? I would be very appreciative, 
Mr. Ambassador, if you could reflect on that in as many ways 
and specific terms as you can.

    Ambassador Holbrooke. Well, your question, Senator Hagel, 
goes to the heart of what we think the U.N.'s role is in our 
national security. In some cases the U.N. has been an abysmal 
failure. We mentioned the three most dramatic cases earlier. In 
other cases, the U.N. has succeeded. Those of you who were in 
the Security Council yesterday heard one country say that the 
U.N.'s peacekeeping operations had succeeded in a peaceful 
transition to democracy.

    I would submit that the activities of the Security Council 
and the U.N. from about Labor Day on of last year in East Timor 
were also successful, although the previous 20 years were not, 
so I believe that peacekeeping is a case-by-case issue. We 
cannot make a blanket judgment in which we become the world's 
policeman, and at the same time we have to look at each issue 
on its merits and say, is there something where the United 
Nations, supported by the U.S., can make a difference?

    Because the U.N. is only its member States; it is a 
bureaucracy, and that building on the East River is not what 
the U.N. is. They carry out what the member States tell them 
to, sometimes not to our liking, mine very much so. I am very 
unhappy with the U.N. Secretariat, as they all know, but they 
carry out our will, and this is a case-by-case basis.

    Sierra Leone is going to be on the table now, and the 
choice is very stark in Sierra Leone. Either vote a manageable 
increase in the U.N. peacekeepers, or risk a real bloodbath, in 
a country which has had some terrible scenes.

    I was in Minneapolis last year with Senator Grams, and we 
visited the Center for the Victims of Torture, and a lot of 
them were from Sierra Leone, and to see them, and then to sit 
in the U.N. Security Council and recognize that your vote could 
affect whether it happens again or not is a legitimate and 
important question.

    Now, there are no American troops involved in this. Either 
way, no Americans will be involved, but it will cost some 
money. Now, your question goes to the issue of fungibility. 
These are case-by-case issues in which under our laws we will 
have to notify you before we can formally approve these 
Security Council resolutions, and for better or worse, the 
Congress will get at least one notification in the not-too-
distant future, in my view, and that will be Sierra Leone.

    And I will be happy to come back down to Washington and ask 
you to consider that on its merits. It's not going to be an 
excessive amount of money and the alternatives, it seems to me, 
are much worse, but it is not fungible, Senator Hagel, in the 
sense that we are going to take money out of UNICEF or the 
World Food Program. It has to go through this separate process.

    Senator Hagel. Well, with the remaining couple of moments I 
have, Mr. Ambassador, thank you. You understand the point of 
the question, because the American public pays the taxes and 
pays our portion of the United Nations funding. I think the 
public is occasionally confused by the U.N. role, and what its 
role will continue to be. I think occasionally we are all a 
little too glib in throwing around peacekeeping terminology 
when the American public wonders what that means. You are 
exactly right, the United Nations does not have a standing 
army; it comes from the United States and Britain and France, 
and all of the member States.

    But at a time, again I say, when defense budgets in those 
democracies are going down, except in the United States, if we 
project out 10 years, those projections become clearer and 
clearer that more resources are going to be needed. I do not 
expect you to have the answer now, but we will obviously talk 
more about it in the next year. I am concerned about where the 
funds will come from and, as we have said all day today, the 
worst thing we can do is fail.

    The worst thing we can do is give the world a high 
expectation that we will come to the rescue of the United 
Nations and member states of the United Nations, and in fact 
not fulfill the commitment that we have made.

    Ambassador Holbrooke. I quite agree, Senator, and these are 
very tough problems. You and I both saw the U.N. spending $5 
million a day in Bosnia in the early nineties, and a previous 
administration in the early 1970's voluntarily took the U.S. 
contribution peacekeeping up to 30 percent. The Helms-Biden 
package takes it back down to 25 percent.

    Not everyone in the U.N. is happy about that, but you were 
quite right to do it. 30 percent is an excessive percentage, 
and we are going to work for that.

    Meanwhile, we will have to deal with the real crises, and 
some of these are very unpleasant, but I think--I hope I am not 
sounding overly optimistic, because that is not my style in 
regard to these issues, but I think that the pressure we are 
putting on--for example, this deliberate, protracted delay we 
have put on the consideration of peacekeeping in certain parts 
of Africa because we do not think that the peacekeeping office 
has got a clear, coherent plan yet, we have been holding that 
up for 3 months now, and we are getting, even while we are 
supporting a priority for Africa, we have been attacked by some 
of the Africans for delay. I do not apologize for that.

    I told the Presidents--Senator Feingold was with me, in 
fact, in Harare when President Mugabe turned to us and said, 
you are preventing peacekeeping, and Senator Feingold and I 
said, you are right, we are, because we are not comfortable 
yet. Senator Feingold spoke very eloquently to that issue.

    But now we have to deal with it. It is an extraordinarily 
difficult problem.

    Senator Hagel. Thank you.

    Senator Feingold. Ambassador, let me first congratulate you 
on the wonderful use you are making of our American presidency 
of the Security Council this month. It is very productive, and 
of course I particularly appreciate the emphasis on Africa.

    But turning quickly back to the conditions and the reform 
issue, would you talk a little bit about the reaction of the 
other member States of the U.N. to U.S. calls for reform? I am 
a little concerned that some apparently regard the reform 
discussion as associated with a United States-driven or 
western-driven agenda, and I am terribly concerned about the 
devastating impact that corruption has on social and economic 
development abroad, as well as my interest in it in our own 
country where we have problems with that as well.

    So I wonder if you would comment on the issue of 
transparency and oversight, and the problem of it being cast in 
a political light, in the context of the U.N.

    Ambassador Holbrooke. You are talking about within the U.N. 
system?

    Senator Feingold. I am, yes.

    Ambassador Holbrooke. I am very concerned about this. We 
have worked very closely with the Office of the Inspector 
General. We have been urging a quick replacement for Mr. 
Paschke, who has left the post.

    But the basic answer to your question, Senator, is that 
everything changed when the bill was passed. You asked about 
American leverage. It is a whole new ball game once we are 
sitting there with an actual set of checks in our hand and we 
say to Joe Connor, who has just arrived in the room, here is 
the money, but you have got to--there are certain strings that 
are attached to it, and I would say, Senator, that the whole 
mood has changed. People who would not talk about the 
benchmarks until the passage of the bill are now willing to 
discuss them.

    And again, the very fact that so many distinguished 
Ambassadors are here today--I see that the Ambassador from 
Britain has just arrived, Sir Jeremy Greenstock, is indication 
of the new mood that has been created by the passage of the 
bill and now by your presence here today.

    Senator Feingold. I am pleased to hear that turn-around has 
occurred, but I do know that the Secretary General has publicly 
complained about micro management from dozens of different 
member States that can lead to sort of a paralysis with regard 
to various initiatives.

    Do you think that the U.S. reform agenda needs to be better 
coordinated with the initiatives of other States?

    Ambassador Holbrooke. Perhaps so, but when we see an 
abuse--there are three or four that we are working on right 
now, which we are concerned with--I will go direct to the 
Secretary General in private, as any other member State has the 
right to. Sometimes we work closely together. I have been 
working with Sir Jeremy in a couple of areas where we share a 
common concern, but not always. The British Ambassador and the 
American ambassador can disagree.

    We will work with them when we can, but we will speak 
unilaterally for the United States when we must. The goal is 
the same in every case. There are still inefficiencies in the 
system. They are everywhere. You can see them. It is not just 
the U.N. Almost any large bureaucracy has it. Oversight is not 
as strong in the United Nations, as particularly some of the 
other agencies it has been, but I do want to say one thing.

    I think the current Secretary General is doing an excellent 
job. I think that Kofi Annan is a remarkable international 
public servant. I was particularly gratified that he changed 
his schedule today to accompany you to the lunch, Mr. Chairman, 
and to participate. That is a very powerful signal to all 185 
nations of the United Nations, when the Secretary General and 
the president of the General Assembly, who is from Namibia, 
walk in with you, and I would like to be clear that my 
criticisms of the Secretariat and the bureaucracy, which are 
much stronger in private than I am expressing them here today, 
in no way are a criticism of Secretary General Kofi Annan.

    Senator Feingold. Ambassador, we have talked about 
peacekeeping, and you know that I have on occasion voted 
against initiatives that would send U.S. troops abroad to 
address a crisis that I think in some cases would be better 
handled by regional leaders and sometimes regional forces, and 
you know that when we were in Africa, in virtually every 
country I wanted to hear about that issue in speaking to the 
presidents of the 10 African countries.

    With an eye toward the issue of burden-sharing, I would 
like to hear a little bit more about the state of relations 
between the United Nations and regional organizations like the 
OAU and the OAS with regard to burden-sharing.

    Ambassador Holbrooke. In general, I think we would always 
prefer to put regional organizations forward first. In Europe, 
the OSCE, for example. I would rather see the OSCE deal with an 
issue than the United Nations, quite frankly. It is a smaller 
organization. It is more manageable. It has a mere 52 members 
instead of more than triple that at the U.N.

    The Organization of African Unity has a critical role to 
play in almost all the crises of Africa, Ethiopia, Eritrea, 
Burundi, where Nelson Mandela is desperately trying to prevent 
a major blood bath, the Central African Republic, Sierra Leone, 
and the Congo.

    In East Timor, it is slightly more complicated because 
ASEAN does not want to be regarded that way, but it was 
basically what Senator Helms called in his speech yesterday a 
de facto coalition of the world led by our wonderful Australian 
allies, and I think it is extremely important to recognize this 
issue. The Australians have been with us in every war in this 
century, always. I cannot think of a better ally we have ever 
had in this century.

    And the Filipinos, who next week will replace the 
Australians as the commanders of the East Timor force, with the 
Australians becoming deputies, have also been with us 
throughout this century, and I would hope that this committee 
and the Senate would support our support of that effort. There 
are no U.S. troops under U.N. command, but we need to show our 
support for Australia and the Philippines and stability in this 
critical part of the world in Southeast Asia.

    Senator Feingold. Thank you, Mr. Chairman.

    The Chairman. I would say that regarding the next Senator, 
Senator Grams from Minnesota, that he probably ranks as one of 
the most conscientious Senators working on detail, and he spent 
a long time, a lot of time at and with the United Nations, and 
you are next, sir.

    Senator Grams. Thank you very much, Mr. Chairman. I 
appreciate that. I have a statement I would like to have 
entered into the record as if read.

    The Chairman. Without objection.

    Senator Grams. First a couple of comments, Mr. Chairman. 
First of all, I am pleased that the U.N. reform package that we 
worked so hard to draft was finally signed into law last year, 
and that the ball is now out of our hands and into the U.N.'s 
court. We are entering a new phase, as you have mentioned, as 
the chairman has mentioned, in our relations with the United 
Nations, one which I am confident and hopeful will be less 
adversarial, and I think that this hearing is going to go a 
long way to underscore that change in tone.

    The Foreign Relations Committee may be tough on the 
shortcomings of the United Nations, but we are fair, and we are 
sincere in trying to make this a more effective and an 
accountable organization. I think we are all working to reform 
the U.N. in order to ensure that it can rise to meet the 
potential that it has in this century, and as Secretary General 
Annan has noted, and I quote the Secretary General, he said, a 
reformed United Nations will be a more relevant United Nations 
in the eyes of the world.

    Now, while the desire for reform at the U.N. is widely 
held, the role of the United States in shaping that effort 
remains a matter of contention. Now, after having twice served 
as a congressional delegate to the United Nations, I am well 
aware of a lot of resistance to the benchmarks that are not due 
to the reforms, maybe, themselves, but to the fact that they 
are being proposed by the United States, and I hope these 
feelings will be put aside so that there can be a substantive 
debate on the merits of the reforms which the U.S. is 
proposing.

    Again, as I said, the ball is now in the court of the U.N. 
It may decide the reforms are too onerous, and forgo the $926 
million Congress has authorized and appropriated to pay our 
arrears, and I hope that will not be the case, and that would 
mean the loss of a great opportunity to mend U.S.-U.N. 
relations, in addition to improving the U.N. itself.

    [The prepared statement of Senator Grams follows:]

                  Prepared Statement of Senator Grams

    Mr. Chairman, I am pleased the U.N. reform package we 
worked so hard to draft was finally signed into law, and that 
the ball is out of our hands and in the U.N.'s court. We are 
entering a new phase in our relations with the United Nations, 
one which I am confident will be less adversarial. I think this 
hearing will go far to underscore that change in tone. The 
Foreign Relations Committee may be tough on the shortcomings of 
the U.N., but we are fair. And we are sincere in trying to make 
this a more effective and accountable organization.

    Fifty-four years ago, as the members of the United Nation's 
founding delegation met in San Francisco, there was great 
anticipation and a collective enthusiasm for this new, global 
institution. Delegates spoke of hope, of expectation, of the 
promise of peace. President Truman echoed these sentiments, 
telling the delegates they had, ``created a great instrument 
for peace and security and human progress in the world.''

    We are all working to reform the U.N. in order to ensure it 
can rise to meet its potential in the next century. As 
Secretary General Annan has noted, ``a reformed United Nations 
will be a more relevant United Nations in the eyes of the 
world.'' And in this age, being relevant means that the great 
powers, including the United States, consider the U.N. to be a 
powerful tool in their foreign policy arsenal. We must be able 
to look to the United Nations as a helpful forum to resolve 
conflicts and engage like-minded allies in joint action. To 
this end, the United States must help shape the United Nations 
to be an organization that the U.S. needs as much as the U.N. 
needs the United States.

    It is true that many Americans are not aware the 
contributions the U.N. makes in less high profile areas then 
child survival and disaster relief. For example, the U.N. 
agencies that focus on technical cooperation play a crucial 
role in establishing and coordinating international standards 
for governments and businesses. However, none of these benefits 
excuse the massive and uncoordinated growth of the United 
Nations which was outlined by the Secretary General in the 
introduction to his reform plan. Reform is necessary--not 
because Congress wants it, but to ensure the U.N. does not 
collapse under the weight of its own inefficiency.

    While the desire for reform at the U.N. is widely held, the 
role of the United States in shaping that effort remains a 
matter of contention. Having twice served as a Congressional 
Delegate to the U.N., I am well aware that a lot of the 
resistance to the benchmarks are not due to the reforms 
themselves, but to the fact they are being proposed by the 
United States. I hope those feelings will be put aside so there 
can be a substantive debate on the merits of the reforms which 
the United States is proposing. For the ball is now in the 
U.N.'s court. It may decide the reforms are too onerous, and 
forgo the $926 million Congress has authorized and appropriated 
to pay our arrears. That would mean the loss of a great 
opportunity to mend U.S.-U.N. relations, in addition to 
improving the U.N. itself.

    So while we are all here to celebrate the passage of the 
U.N. reform package and the payment of the arrears it is 
important to keep this new era in U.S.-U.N. relations in 
perspective. Shortly after the Helms-Biden package was signed 
into law, the U.N. approved a budget which is $2 million over a 
no-growth budget. While I am concerned this will cause the 
creation of new arrears just as we are settling the old ones, I 
am even more concerned about the message this sends to the 
United States. In a budget of $2.533 billion, there is no 
reason to have an overage of $2 million--unless it is a slap at 
the United States. Indeed, the U.N.'s outgoing Inspector 
General Karl Paschke said the U.N. could cut $55 million from 
its budget if it would follow his recommendations.

    And I am very concerned one of our greatest reform 
achievements to date, an independent Inspector Generals office, 
has been jeopardized by the appointment of the Under-Secretary 
General for Legal Affairs to serve as the temporary head of the 
OIOS. On its face, it would seem difficult to maintain OIOS' 
operational independence if the head of OIOS is responsible for 
providing legal support and advice to U.N. offices he is also 
auditing, investigating or evaluating.

    While I look forward to discussing the status of U.N. 
reform efforts, and the prospects for reform in the future, I 
would also like to take a look at the bigger picture of whether 
the U.N. is moving to impose norms which are anathema to many 
Americans. For example, a proposed protocol to the U.N. 
Convention on Transnational Organized Crime, supported by the 
Clinton Administration, would change the definition of sexual 
``trafficking'' in women and girls to include only those who 
are explicitly forced into prostitution, not those who have 
been coerced. Religious conservatives and prominent feminists 
have joined in opposition to this move. These are the kind of 
actions by the U.N. which lead to the disintegration of support 
by the American people.

    I strongly believe that the U.N. is an important forum for 
debate between member states and a vehicle for joint action 
when warranted. However, the U.N. must endorse reforms that 
provide transparency and accountability so it can be embraced 
as an asset instead of viewed by some as a threat.

    Senator Grams. Ambassador Holbrooke, just a couple of brief 
questions dealing with African peacekeeping. Given your 
decision to devote a month to Africa on the Security Council, I 
was wondering if you would reflect on the ability and the 
wisdom of the U.N. embarking on a nontraditional peacekeeping 
operation on that continent.

    Now, while it is easy to see the potential role of peace 
keepers in border conflicts, like the one between Ethiopia and 
Eritrea, it is more difficult in the situation of Congo, so Mr. 
Ambassador, what is the precise mission of this proposed 
operation?

    Ambassador Holbrooke. Thank you, Senator. I also want to 
echo Chairman Helms' comments about you. This is at least the 
third time you and I have met in New York on these issues, and 
you have really carved out a special role as our most closely 
watching watch dog, and I greatly appreciate it.

    One comment before I address the question of the Congo. 
Your opening comments seem to imply that a reform proposed by 
the United States breeds some resentment because it comes from 
us. That may have been true when you were a delegate here, or 
earlier last year when the arrears issue was so red hot, but I 
think if you think back to that lunch, or this remarkable 
display of U.N. ambassadors here, if they were resentful I do 
not think they would be in this room. The Ambassadors are here 
to learn what your views are, and to help them work with us. I 
have not seen any resentment directed to us simply because we 
are Americans. Plenty of Ambassadors disagree with us violently 
on issues, but that is how it should work.

    I was warned about this by many people, including members 
of my own staff. I just have not seen it, and I do not think we 
saw any of it yesterday, Mr. Chairman. I do not think we saw it 
today. But I am not disputing the fact that it is a widely held 
perception. I just do not see it. This is a very generous set 
of people and repeatedly, as Ambassador Greenstock and 
Ambassador Choudry of Bangladesh, and Ambassador Hasmi of 
Malaysia said yesterday to Chairman Helms, and in fact in one 
way or another, every one of the 14 Ambassadors in that room, 
including those from countries not known for their closeness to 
Chairman Helms, said, they want American leadership.

    Now to your specific point on the Congo. I know of no more 
difficult issue that I have had to deal with in my career than 
Congo. You use the phrase nontraditional. Well, very little in 
this difficult and brave new world that the U.N. is trying is 
traditional.

    Kosovo is without precedent, as Senator Warner has already 
made clear several times today, and I agree with what he has 
been saying on that. Kosovo in fact is going to be the most 
difficult of all the problems the U.N. is going to deal with 
this year, including Congo.

    East Timor is without precedent. East Timor will become the 
fist new State of the 21st century, and the U.N. has been put 
in charge of being midwife.

    Kosovo is in an uncertain legal status, and the U.N. 
Security Council is hotly disputing what the resolution number 
1244 actually means. Two or three countries in the Security 
Council say it means that Kosovo will always be part of 
Yugoslavia. The United States and Great Britain and others say 
that is not what it means, and as long as Milosevic is in 
charge in Belgrade we cannot do it. We cannot do anything about 
it anyway.

    So when you talk about nontraditional and Africa, I would 
just footnote we are in a world of extraordinary difficulties. 
They only have one thing in common, Senator Grams, and this 
includes Africa, East Timor, and the Balkans. They all stem 
from unresolved issues of sovereignty that stem from the 
breakup of empires and the drawing of boundaries in the latter 
part of the 19th century and the early part of the 20th century 
that caused enduring conflicts, and here we are in the 21st 
century dealing with them.

    They will not go away. They have sucked us in in various 
places. Timor is the one that has gone the best. Kosovo is by 
far the most complicated. Bosnia is doing pretty well, and 
Congo, well, President Mugabe arrived in town as we are holding 
this hearing from Zimbabwe. Seven presidents will be arriving 
in town over this weekend. We start the debate Monday. 
Secretary Albright, I am proud to say, will come to New York to 
chair that terribly important Security Council meeting.

    We have told the signatories to the Lusaka agreements that 
if they will not implement their own agreement we cannot 
support a peacekeeping effort. They have come here to reaffirm 
Lusaka, to update it, to take into account time lines that have 
shifted.

    Again, I want to single out Senator Feingold, because every 
step of the trip where this policy I am articulating was 
formulated, Senator Feingold was with me in the room, speaking 
separately for himself and for another branch, but with no 
division.

    Senator Frist, who could not be here today, was fully 
briefed by the CIA and the Pentagon before the trip, and I have 
been in constant touch with him. Congressman Paine, the Ranking 
Minority on the House side, was here earlier in the week, and I 
have been on the phone with Congressman Royce, Senator Frist's 
counterpart in the House, and he is going to come up next week 
to New York to participate in the debate, so we are going to 
work with you closely, as we work with the African leaders.

    It is much too early for me to predict where we are going, 
but I certainly share your use of the word nontraditional, and 
I hope to have your permission, Mr. Chairman, to report back to 
you along with Secretary Albright on this important issue in a 
couple of weeks.

    Senator Grams. Thank you, Mr. Ambassador.

    The Chairman. Senator John Warner is not a member of the 
Foreign Relations Committee, but he does not have to be. Our 
two committees, the Foreign Relations and the Armed Services 
Committee, which he chairs, work together closely, as we 
should. John Warner is a Senator's Senator, and I invited him, 
I urged him, to come and be with us today. Senator Warner.

    STATEMENT OF HON. JOHN WARNER, A U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. I thank you very much, Mr. Chairman. If I 
may say, in total sincerity, the leadership that you have 
shown, together with your distinguished colleague, the Ranking 
Member, and our distinguished Ambassador, Ambassador Holbrooke, 
you are a triumvirate that have made history. It is the right 
time, a new millennium, it is a right start, and this world 
cannot exist unless we as a family of nations, whether we are 
large or small, or rich or poor, can sit down, as we are today 
and yesterday, and address the tough decisions and provide as 
best we can the leadership and the answers as to what is to be 
done.

    So I will nominate you here and now for Profiles in 
Courage. Good luck.

    The Chairman. Thank you, Senator.

    Senator Warner. Having said all that, yesterday Senator 
Helms was very frank with his comments. Mr. Ambassador, you 
have been very frank today, and I copied a sentence down. I 
will speak this sentence on the floor of the Senate in the not-
distant future. You said, the United Nations will not get a 
third chance in peacekeeping, and you enumerated the historical 
context of that very profound and insightful observation. 
Courageous.

    You are among your peer group, and I say to you most 
respectfully, and this is not a reflection on the organization, 
certainly not the Secretary General with whom I spoke today, 
and I told him the same thing I am about to provide you in the 
form of a question. I just got back from the Balkan region a 
few days ago--Kosovo and Bosnia. I have been there twice each 
year almost since 1992. I have spent a lot of time, and my 
committee has authorized enormous sums of money, close to $10 
billion over this period of time, toward the United States 
contribution to help end the human rights violations in that 
area and helping the people.

    I say to you most respectfully, Mr. Ambassador, the U.N. is 
on the brink of failure, failure of the type that you said you 
will not get another chance, and these are not just my 
observations. They are the observations of the persons in the 
U.N. that are working courageously in this region and the 
military commanders of a number of nations. You know full well 
the long list of problems that confront the U.N. It is a 
challenge, and time is running out to fulfill that mission.

    There are tens of thousands of brave young men and women 
wearing uniforms of over 30 nations patrolling the streets, the 
alleys, day and night. As we sit here in the warmth and the 
comfort of this great city, they are exposed to everything, a 
tremendous risk, and you know what our Nation suffered in 
Somalia. That type of situation could happen any day, either in 
Kosovo or Bosnia. The infrastructure needed to provide a 
judicial system, the police that are needed not only for the 
street crimes but for international crime--all of this is sadly 
lacking, and the U.N. has not been able to fulfill in a timely 
way its obligations.

    The military performed with courage in prolonged battles at 
great risk to life, and succeeded, and now they are holding 
together--they are holding together a security blanket over 
both of these nations. But beneath that security blanket, 
particularly in Bosnia, are the most rapidly growing criminal 
syndicates in the world today. As one U.N. official told me, 
the best-organized thing in Bosnia today is organized crime, 
and we have got to put a stop to that.

    Now, it is one thing to make these observations, as tough 
as it is for me in my great respect for you and others, but I 
think that you have got to, together with the Secretary 
General, elevate this decisionmaking--yes within the U.N. to 
the top levels, but also involve the heads of State and 
Government of the principal nations.

    And second, you may have to consider a special assessment 
to all nations to meet the financial needs. I mean, Pristina 
does not even have enough power to operate the lamps in the 
headquarters of the KFOR. So I urge you, what recommendations 
can you provide this committee today by which we can begin to 
have a timely fulfillment of the U.N. obligations, so that 
eventually the troops of our Nation and other nations can 
return home?

    Ambassador Holbrooke. Mr. Chairman, I have no choice but to 
agree with your assessment, because as you were in Kosovo, so 
was my senior counselor for the issues, calling me every day 
from rooms which had no heat, with one light dangling from his 
office. The situation is--there may be some nuance differences, 
but it is enormously valuable for you to draw national 
attention, international attention to the fact that Kosovo is 
in a perilous state.

    I would differentiate, and I believe I understood you to be 
differentiating between Kosovo and Bosnia. Bosnia may not be 
going as fast as we want. I have been very publicly critical of 
it, but it is on the right track, but moving too slowly. Kosovo 
is a much more complicated situation, as we said earlier.

    I agree with you about the crime. There was an 
extraordinary--the only thing I am not sure about is whether 
the crime is worse in Bosnia now than in Kosovo, but if it is, 
do not worry, Kosovo will catch up if we do not get this thing 
under control, particularly since it is linked in the situation 
in Albania itself.

    I agree with you about the infrastructure, but there is 
only one thing you said I would like to kind of do a slight 
calibration on, and it is actually not about the situation on 
the ground. It is about who is responsible. You said, and I 
quote, because I, too, take notes on what you said, that the 
U.N. is on the brink of failure in Kosovo. If we are on the 
brink of failure--

    Senator Warner. --the entire region of the Balkans.

    Ambassador Holbrooke. I accept that, but if we are on the 
brink of failure, it is not the United Nations, it is the whole 
system. We cannot simply say that we are going to solve this 
through the U.N.

    Now, parts of the problem are the U.N. responsibility. 
Parts are the European Union responsibility. Let us be honest 
in this room. Some of my colleagues will not want to hear this. 
The power system in Kosovo was assigned to the European Union, 
so I think we have got to be honest about this one. They let 
the system collapse in the dead of winter. They are the reason 
people are freezing right now in Kosovo, and they themselves 
know it. I mean, I know I am going to get angry letters after 
this, but this is what you saw on your trip, and this is what 
my colleagues are reporting to me from freezing rooms.

    Senator Warner. You are correct. I failed to say, the U.N. 
and other international organizations. You are correct.

    Ambassador Holbrooke. On the question of police, Secretary 
General Annan responded to you by agreeing with you earlier 
today, and I think the public record should reflect that he 
said that the United States was the best contributor in police, 
and he appreciated that, and he is very disturbed that we are 
running behind.

    And on the security side, that is a NATO responsibility, so 
I think what you said is as important as anything else, Mr. 
Chairman, we are going to discuss here today, which is a policy 
of enormous importance, is not in as good shape as it should 
be, and I know that Secretary Albright--she and I have talked 
about this a great deal recently, as has Sandy Burger. We are 
all aware of the fact that things are not going, in Kosovo, at 
the pace that we had hoped at this point, but I can assure you 
that it has high-level attention, and I am sure that Chairman 
Warner's comments will increase that attention.

    The Chairman. This concludes this panel. Mr. Ambassador, 
you have been clear and responsive to all the questions, and I 
appreciate that, and I appreciate all that you and your 
associates have done to make this meeting and the earlier ones 
possible, so thank you very much, and we will call the second 
panel.

    The second panel will proceed to the table, and I see that 
our friend is setting it up. They understand that we are under 
pressure of time. We will give the folks who are exiting the 
auditorium a couple of minutes to do it, but if you will do so 
as quietly as possible, we would like to proceed. We appreciate 
the presence of everyone here this afternoon.

    Panel Number 2 consists of two friends, and two experts, 
and two Americans who I admire. Hon. John Bolton is Senior Vice 
President of the American Enterprise Institute and former 
Assistant Secretary of State for International Organization 
Affairs in Washington, and Mr. Edward C. Luck is the Executive 
Eirector of the Center for the Study of International 
Organization, New York University School of Law, and the 
Woodrow Wilson School of Princeton University.

    So I believe you understand the time restraints, and we 
want to move along as rapidly as we can. Mr. Bolton, we will 
first hear from you.

    STATEMENT OF HON. JOHN BOLTON, VICE PRESIDENT, AMERICAN 
ENTERPRISE INSTITUTE, FORMERLY ASSISTANT SECRETARY OF STATE FOR 
      INTERNATIONAL ORGANIZATION AFFAIRS, WASHINGTON, D.C.

    Mr. Bolton. Thank you very much, Mr. Chairman. It is a 
pleasure to be here today to appear before you and other 
members of the committee. I have a prepared statement I would 
ask be entered into the record, which I will summarize.

    The Chairman. Without objection, it will be done.

    Mr. Bolton. Mr. Chairman, here in the United States, this 
is really the third time in this century that we have had a 
major debate on the role of the United States, the place of the 
United States, among the nations of the world. What I would 
like to do today is try to just take a few moments to move 
beyond the precedent-setting Helms-Biden legislation and ask in 
both a theoretical and a practical way, ``what comes next?''

    It seems to me, Mr. Chairman, that there are basically 
three broad priorities for the United States in any 
international organization of which it is a member. The first 
is preserving and protecting our constitutional decisionmaking 
structures here in the United States.

    The second is to defend and advance American interests in 
those international organizations. Some may think that the 
organizations are Platonic structures designed to create a more 
perfect world. I view these organizations, instead, as places 
where the United States advances its interests. The third broad 
priority is maintaining American leadership while guarding 
against the imposition of unfair burdens.

    Now, Mr. Chairman, under those broad objectives, although 
there are many specific priorities, I would name four, looking 
ahead from today. First, I do not think there is much question 
that the United Nations can be a potentially useful tool of 
American foreign policy, but I would stress that it is not the 
only tool, and generally not even the preferred tool, and I 
think this goes centrally to questions of American national 
security.

    I think many people misread the lessons of the series of 
United Nations resolutions that were adopted under President 
Bush's leadership during the Persian Gulf crisis, that led to a 
vast overreach by member nations of the U.N. in peacekeeping 
operations. I think many of those lessons have been learned, 
but Mr. Chairman, we have been faced, just within the past 
year, by a very significant statement from the Secretary 
General. He said it in several different ways. I would just 
like to read one formulation of it.

    In May of last year the Secretary General said, and I am 
quoting now, ``unless the Security Council is restored to its 
preeminent position as the sole source of legitimacy on the use 
of force, we are on a dangerous path to anarchy.'' I will 
repeat his phrase. The Security Council was the ``sole source 
of legitimacy on the use of force.''

    Mr. Chairman, this statement is flatly wrong. I believe it 
is a statement that is not supported by the U.N. Charter or by 
international practice, and it certainly has little or no 
support in the American body politic. I think it is a subject 
appropriate for debate in the U.S. Senate, and I hope that you 
will have a chance to do that.

    The second priority is that when we do choose the United 
Nations as a tool of our foreign policy interest, it is very 
clear from the historical experience that the United States 
must lead if the U.N. is to be successful. There is no 
substitute for American leadership. There is no other nation, 
there is no other combination of nations that can lead, nor, as 
I think has already been said here today, can we expect the 
Secretariat to lead. Indeed, I would go further. If the 
Secretary General were leading, I think he would be 
overstepping his bounds, and I think that would be a very bad 
precedent.

    Third, Mr. Chairman, while I am still in awe, quite 
frankly, of the Helms-Biden bill and the ability of the Senate 
and House to reach agreement on the arrearages question, I 
think you were necessarily constrained because you are, after 
all, members of the legislative branch. While I have no doubt 
that the conditions that are part of the Helms-Biden 
legislation will have a substantial and salutary effect, I do 
not think, unfortunately, they ultimately really get to the 
main problem, which is the enormous dysjunction in the U.N. 
system between voting power on budget questions and the 
contribution of financial resources. One nation, one vote on 
budget issues is a system which is broken and cannot be fixed.

    I think there are two alternatives. One is to move toward 
what was once called the Kassebaum-Solomon approach of 
basically $1, one vote, the other, the approach that I prefer, 
is to move toward voluntary contributions. I think some of the 
best-run U.N. agencies are funded voluntarily. I think that 
competition among U.N. agencies to be better run and better 
managed, and thus encourage more contributions from the United 
States and other Governments, would be a good thing. I think we 
have seen that voluntary contributions or systems of 
replenishments, as in the international financial institutions, 
can work effectively, and I think the more we talk about moving 
toward a real system of fully voluntary contributions, the 
better a 20 percent assessed American share will look.

    Finally, Mr. Chairman, the fourth priority is to ensure 
that in our use of international organizations they do not 
assume governmental functions. You spoke at length yesterday 
about the International Criminal Court. There are a number of 
other examples of such institutions and treaties that are under 
consideration or under debate. I think from the point of view 
of American foreign policy, preventing the assumption of 
governmental authority by international organizations has been 
and should remain our highest priority.

    I appreciate the opportunity to be here, Mr. Chairman, and 
wish you and the committee good luck.

    [The prepared statement of Mr. Bolton follows:]

                  Prepared Statement of John R. Bolton

    Thank you, Mr. Chairman and members of the Committee, for 
the opportunity to appear before you today at this field 
hearing to testify about the appropriate role of the United 
Nations and other international organizations. I will summarize 
my prepared statement, which I ask be included in the record, 
and would be pleased to answer any questions the Committee may 
have.
                              introduction

    For the third time in a century, the United States is 
having a serious debate about its place among the nations of 
the world. The first two of these debates (after World Wars I 
and II) concerned proposed American participation in specific 
international organizations (the League of Nations and the 
United Nations, respectively), and touched only lightly on 
larger issues. The ongoing third debate, by contrast, after the 
successful conclusion of the Cold War concerns precisely these 
larger issue of whether and to what extent America's freedom of 
action internationally and its own internal governance--in 
effect, its sovereignty and its constitutionalism--will be 
constrained by international agreements and organizations.

    Although the prevailing conventional wisdom is that America 
was wrong to reject the League and right to embrace the U.N., 
these two debates and decisions were then and are still now 
seen largely through the narrow lens of internationalism versus 
isolationism. Today's debate has far greater implications for 
the United States. It is more than a foreign policy debate 
because it also involves basic answers to the fundamental 
question: ``Who governs?''
                                overview

    Whether the League of Nations could have prevented World 
War II even with American membership is of mostly historical 
interest, but there is no doubt that our membership in the 
United Nations failed to prevent the Soviet Union from 
launching the Cold War. Indeed, starting with the 1946 debate 
over the withdrawal of Soviet troops from northern Iran, and 
the first Soviet boycott of the Security Council, the U.N. was 
the scene of many classic Cold War confrontations. Americans 
still vividly remember Soviet Premier Nikita Khruschev pounding 
his shoe on his table in the General Assembly, or the display 
in the Security Council of dramatic photographs of Soviet 
missile facilities in Cuba in 1963.

    There is near total agreement that the Cold War brought 
gridlock to the Council, and rendered it largely (although not 
totally) incapable of fulfilling its original mandate in the 
U.N. Charter ``to maintain or restore international peace and 
security.'' For the United States and its allies, the key 
lesson was that the unrealistic promises of ``collective 
security'' had failed yet again; strong political-military 
alliances such as NATO and an independent American nuclear 
deterrent replaced the increasingly hollow words of the U.N. 
Charter both to protect our liberty and to prevent ``the 
scourge of war.''

    During the 1960's and 1970's, while the Security Council 
remained largely frozen, anti-Western and anti-American 
majorities in the General Assembly, egged on by the Soviets, 
regularly and enthusiastically trashed our values and integrity 
and assaulted our world leadership. They attacked our friends, 
such as in the General Assembly's 1975 Resolution equating 
Zionism with racism. They undermined economic freedom by 
endorsing collectivist dreams to force a global redistribution 
of wealth such as the ``New International Economic Order,'' 
often through the multifarious U.N. specialized agencies. And 
all the while, the U.N. bureaucracy grew like a coral reef--no 
planning, no management, no goals, yet apparently blessed with 
eternal life. The U.N. had become, as Senator Daniel Moynihan 
descried it, ``a dangerous place.''

    By the mid-to-late 1980's however, the combination of a 
much stronger U.S. defense and foreign policy posture and the 
advent of ``new thinking'' in Soviet policy caused substantial 
change in the possibilities for the United Nations. The U.N. 
Secretary General helped negotiate a truce in the Iran-Iraq war 
that helped protect oil supplies from disruption in the Persian 
Gulf; free and fair elections were held in Namibia, leading it 
out of apartheid and into independence; and the U.N. played a 
constructive role in helping to end Cold War conflicts in 
Afghanistan, Angola and Central America.

    Most dramatically, in November, 1990, the Security Council 
authorized the use of force to repel the Iraqi invasion of 
Kuwait, only the second time in the U.N.'s history (Korea being 
the first) where the Council had acted along the lines 
envisioned by the Charter's drafters. After the American-led 
forces won the Persian Gulf War, the U.S. persuaded the Council 
to take unprecedented steps to strip Iraq of its capabilities 
in weapons of mass destruction, provide compensation to the 
victims of its aggression, and maintain economic sanctions to 
encourage Iraqis to remove Saddam Hussein from power.

    The lesson seemed plain, for some at least: where there was 
a vital U.S. interest at stake, and vigorous, persistent U.S. 
leadership, the U.N. could play a useful role as an instrument 
of U.S. foreign policy. However, many U.N. supporters 
immediately drew a different conclusion, arguing that the 
organization was now fully functional as envisioned in 1945. 
This erroneous but widely shared misreading coincided with the 
1992 election of President Clinton, whose central foreign 
policy initiative was known as ``assertive multilateralism.'' 
This redirection from a perceived ``unilateralist'' impulse in 
U.S. policy sought to channel more and more U.S. diplomacy 
through the United Nations and its specialized and technical 
agencies. Ambitious new ``peacekeeping'' activities were 
launched in such places as Somalia, where the Clinton 
Administration, though the U.N., tried its hand at ``nation 
building.'' For the first time ever, the Security Council 
created international war crimes tribunals for former 
Yugoslavia and Rwanda, and urged the creation of a permanent 
war-crimes court. Multilateral negotiations on environmental 
matters and many other political, economic and social policy 
questions previously thought to be of largely domestic concern, 
were stepped up.

    The Clinton Administration's ``assertive multilateralism,'' 
however, led directly to tragic failures in Somalia, political 
ineffectiveness and military incompetence in Bosnia, and the 
collapse of the post-Gulf War regime to weaken and isolate 
Iraq. It led also to several ill-advised arms control 
agreements, politically fashionable but militarily flawed 
agreements such as the Landmines Convention, unprecedented and 
far-reaching new international bodies such as the International 
Criminal Court, and potentially catastrophic environmental 
agreements such as the Kyoto Protocol. Even initiatives thought 
buried in the 1980's re-emerged. The Law of the Sea Treaty was 
revived, U.N. specialized agencies began reconsidering the 
possibility of international regulatory roles, and new 
proposals for international tax schemes to fund U.N. activities 
(and thus to remove funding from the decisions of member 
governments such as the United States) appeared.
      the importance of international governance and organizations

    Although the failures of U.N. peacekeeping have received 
the most media and congressional attention, it is really the 
broader treaty and policy manifestations of ``assertive 
multilateralism'' that are the most troubling and have the most 
profound implications for the United States. Of critical 
importance here, we deal not with traditional ``alliances'' 
such as NATO, which have limited and clearly defined 
objectives, but typically with organizations (and treaty 
regimes) of ``universalist'' membership, whose core objectives 
include membership for virtually every state.

    America's interests in this broad arena are so diverse, and 
the threats so numerous that policymakers and analysts can 
often lose sight of the larger philosophical battle. There are, 
to be sure, some vital areas where globally-based institutions 
have and will continue to provide important venues for the 
pursuit of American national interests, such as advancing free 
trade and preventing international crime and terrorism. But 
both within the United States, and especially in Europe, more 
and more intense efforts are underway to constrain the roles in 
international affairs of nation states in general, and to 
constrain the United States in particular.

    This is the battleground of the third fundamental debate in 
a century about America's relations with other nations, and it 
marks a significant change in the way Americans have to think 
about foreign policy, at least, as we hope, if they intend to 
maintain traditional concepts of constitutionalism and 
independence. These fundamental American interests can be 
described in three ways: (1) preserving our ability to make 
critical policy decisions within the democratically-accountable 
structures of the Constitution, and not losing this capability 
to international organizations; (2) within those multilateral 
organizations where we are members, preserving and enhancing 
our political, military and economic national interests, 
especially the one just mentioned; and (3) within such 
organizations, maintaining an appropriate American leadership 
role while safeguarding against unfair financial and other 
burdens.

    What happens or not in the U.N. and other international 
organizations depends largely on critical political and 
economic developments at national and regional levels. For 
purposes of this analysis, their common importance stems from 
their often-simultaneous implications for U.S. national 
interests and sovereignty both in foreign policy and in 
domestic affairs. It is this relatively new, shared context 
that American decision-makers in the new century must bear 
constantly in mind.
                     priorities for u.s. leadership

    Within this framework, American key priorities in the 
``international system'' should be:

    1. Treat international organizations as potentially useful 
tools of American foreign policy, not as the preferred (or 
only) vehicle. Even within their increasingly apparent limits, 
international organizations can play helpful roles in certain 
foreign policy contexts to help advance U.S. interests. In the 
Persian Gulf War, for example, the Security Council's 
authorization to use force to repel the Iraqi invaders of 
Kuwait was both an important political success, both 
internationally and in the domestic effort to convince Congress 
to do likewise. Nonetheless, it does not follow from the 
Persian Gulf example that we should always or even frequently 
invoke the Security Council when our vital interests are at 
stake.

    This logic is very much in doubt. In May, 1999, during the 
air campaign over Yugoslavia, U.N. Secretary General Kofi Annan 
insisted that ``unless the Security Council is restored to its 
pre-eminent position as the sole source of legitimacy on the 
use of force, we are on a dangerous path to anarchy.'' A few 
months later, in his annual report to the U.N. membership, he 
said that actions such as Kosovo, undertaken without Council 
authorization, constitute threats to the ``very core of the 
international security system.'' Both of these statements are 
flatly incorrect. They are unsupported either by the language 
and background of the U.N. Charter, or by over fifty years of 
experience of the Charter's operation.

    Nonetheless, substantial segments of ``the international 
community'' and many Americans fully believe that the Clinton 
Administration acted illegitimately or even ``illegally'' under 
``international law'' in conducting military operations over 
Yugoslavia without express authorization by the Security 
Council. Within the next decade, we may well see other 
conflicts where the United States must decide whether and when 
to act, unilaterally or in concert with a few other countries, 
without first obtaining ``approval'' by the Council. The 
pattern of our behavior during this next decade, therefore, 
might well determine whether Secretary General Annan proves 
correct, or whether we maintain the capability for 
independent--and, where necessary, unilateral military or other 
action. As a matter of ``first, do no harm,'' if nothing else, 
our policy in international organizations must preserve 
America's independent capability for action to protect its 
interests.

    2. Where the United Nations or another international 
organization is chosen as a tool of our policy, the United 
States must be prepared to lead the organization to our 
objectives. We have learned repeatedly that the U.N. as an 
entity neither has, nor should it have, the capability for 
independent action. It and other international organizations 
function as the agents of their member governments, and no 
more. Assuming these lessons as prerequisites, it follows that 
we entrust responsibility for an important undertaking to the 
U.N., the United States must understand that it alone has the 
possibility to lead the effort to a successful conclusion. It 
is unwise both as a matter of broad policy as well as 
tactically to assume that someone else will have either our 
best interests at heart, or our unique national assets 
necessary to be effective.

    Although there are many examples of this point, the most 
important has undoubtedly been the fate of the U.N. Special 
Commission on Iraq's weapons of mass destruction (``UNSCOM''). 
When the United States provided clear leadership, during both 
the Bush and Clinton Administrations, technical support and 
overall policy leadership, UNSCOM achieved significant progress 
in eliminating Iraq's WMD capabilities. While far from perfect, 
UNSCOM stood nearly unequaled as a non-military example of 
international cooperation. When, however, the Clinton 
Administration ceded our de facto leadership of UNSCOM to the 
Secretary General, its effectiveness evaporated, and the entire 
Iraq WMD-control regime collapsed. UNSCOM's failure proves 
beyond dispute that if the United States is not prepared to 
lead those ventures that it entrusts to international 
organizations, it simply cannot count on them being protected 
through difficult periods, or being implemented effectively in 
calmer times.

    3. Financing and governance structures in the U.N. system 
must change so that American interests are better reflected. 
Under the rubric of ``sovereign equality,'' voting in most U.N. 
bodies reflects the ``one-nation-one-vote'' system. Simply as a 
matter of mathematics, this approach typically puts the United 
States at an enormous disadvantage. It did so during the Cold 
War when the Communist bloc and the Non-Aligned Movement 
(``NAM'') routinely outvoted the United States and a few close 
friends on issue after issue. Even after Communism's demise 
(and the consequent irrelevance of the NAM), these voting 
patterns continued. Nowhere are they more important than in 
financial decision making, since most U.N. agencies allocate 
the monetary burdens of membership through purportedly 
mandatory ``assessments,'' or percentages of each agency's 
budget that members are ``required'' to remit annually. The 
United States' share (derived under a complex and antiquated 
formula) is typically twenty-five percent, easily the largest 
share of any member government. The temptations for the minor 
(indeed, tiny) contributors to increase agency budgets and 
require the large contributors to meekly pay up has, over the 
years, predictably proven completely irresistible. Indeed, many 
Western countries, and even the United States itself, have 
often shown a lack of budgetary discipline.

    But the plain fact is that financial decision-making in the 
U.N. is broken almost beyond repair. It is the enormous 
disjunction between voting power and financial responsibility 
that has caused so much of the dissatisfaction within Congress 
that we see reflected in the withholding of U.S. assessments, 
and the attendant creation of large ``arrearages'' which have 
been the subject of so much recent debate. Instead of simply 
acquiescing to demands that the U.S. ``pay up,'' or remaining 
at loggerheads over the disputed amounts, potentially forever, 
Congress has sought to impose a variety of conditions on the 
payments both of the accumulated arrearages and the regular 
assessments. Such legislative restrictions are, of course, the 
only alternative for Congress, but we should also consider 
steps that might be taken if a more realistic and hard-headed 
President were to assume office in the near future.

    The long-term solution to America's Gulliver-like position 
in the U.N. system is either to change the one-nation-one-vote 
approach on financial matters, or to replace the system of 
assessments with voluntary contributions. Neither of these 
alternatives will be easy, and both will require a long-term 
commitment and considerable diplomatic effort. Indeed, 
ultimately, neither may be obtainable. But if the United States 
is unwilling to make a substantial effort, the present pattern 
of dissatisfaction and frustration will simply continue 
indefinitely, and, in short order, call into question the 
utility of continuing our Sisyphean efforts at U.N. ``reform.''

    4. Prevent the assumption of ``governmental'' authority by 
international organizations. Since the end of the Cold War, 
there has been considerable commentary and a commensurate level 
of international activity to create new multilateral structures 
and regulatory frameworks to constrain nation states. For 
example, a variety of arms control agreements such as the 
Chemical Weapons Convention and the Landmine Convention have 
created new international norms and regulatory secretariats. 
The Kyoto Protocol, if implemented, would result in profound 
changes in the domestic policies of many signatories in the 
field of energy policy and economic policy more generally. In 
June, 1998, negotiators signed the Statute of Rome, which 
created an new International Criminal Court with purported 
jurisdiction over war crimes and crimes against humanity. In 
Europe, the members of the European Union have been consciously 
and deliberately ceding sovereign authority to the European 
Commission in Brussels.

    Several of these new agreements and structures have 
required signatories to undertake changes of constitutional 
dimensions in their domestic political arrangements, and many 
have done so willingly. Indeed, many believe that there is a 
global trend toward the disintegration of the nation-state, 
reducing its autonomy and independence of action, in favor of 
authority being transferred increasingly to multinational 
bodies. The United States has, quite properly, not been a 
participant in this exercise. What we can observe of its course 
to date, however, demonstrates that inevitably accompanying the 
trend toward integration is the loss of democratic 
accountability, and the weakening of national constitutional 
structures and protections without their replacement by 
adequate substitutes. In countries, even in democracies, where 
elite-driven politics are the norm, this pattern may be 
acceptable, but it should not be acceptable to Americans.


    International organizations and governance topics cut 
across a wide range of regional and functional topics without 
fitting comfortably into either. As such, they have often 
received inadequate attention in both policy analysis and 
decision making. While heretofore, the costs of relegated these 
issues to a secondary role have not been enormous, that 
calculus is changing. We can improve policy making considerably 
simply by being more conscious of the precedent-setting effects 
of foreign policy decisions that, in the long term, might 
compromise American sovereignty. But much also depends on an 
enhanced awareness in the post-Cold War era that America's 
unique experience with constitutional democracy now faces a new 
challenge, which we ignore at our peril.

    The Chairman. Well, we are honored to have you here, and I 
thank you. Mr. Luck.

STATEMENT OF EDWARD C. LUCK, EXECUTIVE DIRECTOR, CENTER FOR THE 
STUDY OF INTERNATIONAL ORGANIZATION, NEW YORK UNIVERSITY SCHOOL 
 OF LAW AND THE WOODROW WILSON SCHOOL OF PRINCETON UNIVERSITY, 
                         NEW YORK, N.Y.

    Mr. Luck. Thank you very much, Mr. Chairman. I, too, would 
like to submit my statement for the record and just note a few 
key points now.

    The Chairman. Absolutely, without objection.

    Mr. Luck. First, I would like to join the others in 
complimenting you on coming up to New York City. Sometimes we 
have the impression that all of Washington is moving to New 
York, and we consider this quite a compliment, and we are 
pleased to see it is happening on a bipartisan basis as well.

    Now, I would say, Mr. Chairman, that while I hope very much 
that the bill that you and Senator Biden and others worked so 
hard to bring about will offer a new era in U.S.-U.N. 
relations, I must temper my optimism with five rather large 
caveats.

    First, whether the other member States will accept all of 
these benchmarks and conditions is still an unknown. Second, 
will other member States follow our example and start 
withholding? Ambassador Holbrooke mentioned the problem with 
the Japanese Diet. There could be others who do this for 
reasons that might not be terribly friendly to our own 
interests.

    Third, I wonder whether future Congresses might say that 
the U.S. got so many concessions from other member States by 
this withholding, let us do it again, and for other conditions. 
Maybe you have started a pattern, and maybe we will have many 
chapters, not just one chapter, being opened now.

    Fourth, I wonder if this is really going to help the 
fundamental problem in U.N. reform, which is that the member 
States simply do not agree on an agenda. There has been a fair 
amount of movement in the Secretariat, but other member States, 
as you know, are very resistant to being told what to do, or 
otherwise we will withhold additional funding.

    And finally, some of the provisions of your bill relate to 
other U.N. agencies that are autonomous, that have their own 
budgets, their own leadership, their own member States, and yet 
the U.N. would be penalized if they do not follow the U.N.'s 
example, and that, I think, could be a problem.

    Now, where does this lead us? Let us assume that all of 
this is accepted, that all of this moves in a positive 
direction. I would suggest a six-point agenda of where we might 
go from here on matters that are really fundamental.

    First, and this is a chapter from Senator Hagel's book, is 
the whole question of looking for a bipartisan approach. It is 
very hard in our country right now for anyone to say that he or 
she represents the views of all Americans. We are deeply 
divided on these issues.

    Now, maybe you succeeded in your legislation because there 
was not a large public debate, but partly because of that, I do 
not think that we have healed these divisions throughout the 
public, and I believe there is a need for much more discussion 
between right and left and between Republicans and Democrats on 
these issues. We simply have to be able to speak with one voice 
in international fora.

    Second of all, Mr. Chairman, you pointed out one of the 
right topics yesterday on the question of sovereignty. I would 
agree much more with Senator Biden's approach. I do not think 
our sovereignty is so threatened, but I do believe that this is 
a fundamental issue that needs to be dealt with very seriously, 
and I take your writings and comments on this with a great deal 
of seriousness.

    Third, I think we ought to recognize that multilateral 
cooperation generally is burgeoning in field after field after 
field, and all sorts of institutions and arrangements are being 
created at the same time that we are squeezing the U.N., 
especially the central U.N.

    It is like there is a very diverse, vague universe out 
there, and the U.N. is a rather small piece of that. The 
Secretary General has relatively little control over what is 
happening more generally, so if you are worried about 
sovereignty, if you are worried about such things, it may not 
be in the U.N. Secretary General's control to do very much 
about it.

    And here I would disagree with John--it is very unusual 
that I would ever disagree with him, of course--on the question 
of voluntary funding, and I know, Mr. Chairman, that you have 
written yourself that you favor most funding to be voluntary. 
We are moving in that direction anyway, I believe somewhat 
unfortunately, as the wealthier States pick and choose among 
particular priorities, and particular programs that they care 
about at the moment.

    And what you end up with is most of the funding being 
extrabudgetary, most of the funding in that way is not really 
planned, it is not systematized. We have a lot of ad hoc-ery, 
and that makes it very, very difficult if you are trying to 
reform the system, because you do not really have control over 
the money, and you cannot really plan in a systematic way what 
is going to happen.

    Now, added to this, I would say fourth, we have to pay more 
attention to non-State actors. The U.N. was set up as the 
quintessential intergovernmental body, but more and more of the 
interesting things that are happening are outside of 
Governments, and important things. So the question is, how do 
you bring non-State actors into the dialog, how do you let them 
have a voice without destroying the system and giving them a 
vote? That very much remains to be seen.

    Fifth, I would suggest that we need much more discussion 
about how the international community goes about enforcing 
decisions of the Security Council or of other bodies. Now, we 
have heard some of the dilemmas about Kosovo. Well, we are 
going to hear about those more and more in other places down 
the road.

    There is fundamental disagreement now about who should be 
on the Security Council. A number of member States are even 
challenging whether the veto ought to be kept, or whether there 
ought to be many countries with the veto. Economic sanctions 
are very controversial because of the humanitarian effects. 
Military action is very difficult for the U.N. in any sensible 
way to mount.

    We have seen even this week a very divided Security 
Council, and the harmony that we saw at the end of the cold war 
has not lasted very long.

    Finally, Mr. Chairman, let me suggest that we really need a 
new modus vivendi between the United States and the other 
member States. The old system is breaking down. The question 
really is about power and decisionmaking. We may talk about 
budgets, we may talk about reform, but fundamentally it is a 
question of power within the system, and on the U.S. part we 
have to decide whether we are ready or not to live within the 
rules, to live within the system. Basically, I think your 
legislation is saying no, we could not get what we wanted 
through the system, so we did it our own way.

    I think the other member States have to decide whether or 
not they are ready to accommodate American power, because if 
there is such a dysjunction that American power outside the 
organization is not reflected inside the organization, that 
could be very bad both for the U.S. and for the world 
organization.

    So with this, let me say that I think we ought to have a 
new international political compact to go along with a new 
domestic one. Thanks very much.

    [The prepared statement of Mr. Luck follows:]

                  Prepared Statement of Edward C. Luck

    Mr. Chairman, you and Ambassador Holbrooke should be 
commended for transporting your distinguished Committee to New 
York to see first hand the United Nations at work. For those of 
us who have long fretted over the communication gaps between 
Congress and the world body, we trust that you have managed to 
trim at least a few miles from the seemingly endless distance 
between New York and Washington. I am also pleased to see, 
whatever our differences on the specifics, your continuing 
effort to raise the public visibility of U.N. reform issues.

    In my brief comments today, Mr. Chairman, I would like to 
raise a few questions about the future of U.S.-U.N. relations 
and the prospects for deeper U.N. reform. Now that the Helms-
Biden provisions have become law and the first payments on U.S. 
arrears to the U.N. have been paid, there may be some reason 
for tempered optimism, though with some very large caveats, as 
follows:

  <bullet>  First, there is no guarantee that the other U.N. 
        member states will accept the multiple conditions, or 
        benchmarks, for the second and third years of arrears 
        payments under the bill. Particularly onerous, in their 
        view, are the unilateral demands for a reduced U.S. 
        share of the regular budget and peacekeeping costs and 
        for setting aside more than one-third of U.S. arrears 
        in a contested arrears account. Others may well seek 
        off-setting concessions from us in return for bowing to 
        these demands.

  <bullet>  Second, down the road other member states could 
        well follow our lead and begin to condition their U.N. 
        payments on various benchmarks that we find obnoxious. 
        Now that America's traditional adherence to the legal 
        standard that assessed contributions should be paid on 
        time, in full, and without conditions has been 
        abandoned, what will be the long-term consequences for 
        the integrity of the principle of collective 
        responsibility and for the viability of international 
        institutions?

  <bullet>  Third, what lesson will future Congresses learn 
        from this episode: that the more they impose unilateral 
        withholdings, the more concessions the other U.N. 
        member states will make? Based on the current 
        precedent, will there be further rounds of withholdings 
        and acrimony in the years ahead, diverting attention 
        from the urgent task of finding a common platform for 
        building a stronger and more effective U.N. system?

  <bullet>  Fourth, it is hardly coincidental that the 
        Secretary General has been far more forthcoming in 
        terms of initiating and implementing reforms than have 
        the other member states. Our unilateral withholding 
        tactics have been counterproductive in terms of 
        persuading other sovereign countries that the reforms 
        we seek can benefit their national interests as much as 
        our own. It should have come as no surprise that other 
        states have been reluctant to accept changes pressed on 
        them by publicly announced and unilaterally imposed 
        financial pressures. As a result, the progress on the 
        secretariat side has not been matched by inter-
        governmental agreement on the more fundamental 
        questions of priority-setting and restructuring.

  <bullet>  Fifth, we need to be careful not to mix apples and 
        oranges. The law would punish the central U.N. for the 
        sins of independent agencies, specifically the ILO, 
        FAO, and WHO, which have their own budgets, 
        memberships, and governing bodies. Likewise, we have 
        given the cause of U.N. reform a bad name--in the eyes 
        of others--by mixing needed improvements, such as 
        strengthening the inspector general system, adopting 
        sunset provisions, and increasing transparency and 
        accountability, with our understandable desire to 
        reduce our national payments to the world body.

Let me assure you, Mr. Chairman, that I am not calling for a 
rollback of the legal provisions that you, Senator Biden, 
Ambassador Holbrooke, and others have worked so hard to achieve 
through the give-and-take process of legislative compromise.

    The question at hand, however, is how do we proceed from 
here? The first step, in my view, is for Americans of different 
political persuasions to begin a serious dialogue on what kind 
of a U.N. our nation wants and needs in this new century and on 
what we are prepared to contribute to the realization of our 
vision. For much of the past century, partisan and 
Congressional-executive differences have left our nation with a 
muffled and ambivalent voice in international fora. Hopefully 
your efforts to build bipartisan support for the Helms-Biden 
provisions will mark a turning point.

    In twelve months, our nation will have a new President and 
a new Congress. They will need to be vigilant in working with 
the Secretary General on consolidating the management gains 
that are underway. But they will also have the opportunity of 
engaging the other member states in a more far-reaching review 
of the functions, priorities, structures, and decision-making 
processes of the world body. The member states are deeply 
divided on these strategic matters, but they are also acutely 
aware of the dangers of institutional drift and 
marginalization. As much as they resent our withholdings, most 
of them recognize that only renewed American leadership can 
point the way toward a revitalization of the world body.

    Over the past decade, while surface-level reforms absorbed 
our attention, both the U.N. and the conditions in which it 
operates were undergoing some fundamental changes without the 
guidance of any blueprint or plan. Multilateral cooperation is 
burgeoning in field after field, spurring the creation of 
countless organizations and arrangements. Yet many of the most 
consequential, such as the WTO, have been placed outside of the 
U.N. system. We have insisted that the central U.N. contract 
year after year in terms of staff, of real spending, and of 
authority. Those who prefer voluntary to assessed 
contributions--even for peacekeeping--have largely won the day. 
The regular budget now covers less than one-fifth of U.N. 
system-wide spending and extra-budgetary outlays far exceed 
those that are assessed. More and more, the wealthier 
countries--and even private donors such as Ted Turner--are 
bypassing the regular budget process to fund unilaterally 
selected program initiatives. As a result, ad hoc priority 
setting is coming to replace coherent planning and truly 
multilateral decision-making. Consequently, the pieces are 
prospering and the center is fading.

    At the same time, transnational non-state actors of all 
kinds--NGOs, PVOs, research communities, the media, the private 
sector, religious and ethnic movements, and the unsavory 
elements of uncivil society--have been playing a larger and 
larger role in shaping the choices and priorities of public 
policy in a period of cheap and instantaneous global 
communications. Most of these groups, moreover, act largely 
beyond the jurisdiction and oversight either of national 
governments or of the U.N. Given these trends, what hope does a 
wounded United Nations have of taming this vast, undisciplined 
universe of transnational organizations and arrangements, which 
are composed of an ever-changing mix of governmental, semi-
governmental, and non-governmental actors? Nevertheless, the 
Secretary General does his best to achieve greater coordination 
within the U.N. system. But the larger picture is that the 
world, and the multilateral system in its image, is 
restructuring itself in ways that we barely comprehend, much 
less control.

    Perhaps this is as it should be: change without reform, 
adaptation without planning. For a dominant power, like our 
country, it may be just as well to let the pieces fall where 
they may, to bend or ignore the old rules as circumstances 
dictate, and to champion the virtues of ad hocism and 
expediency in the name of realism and pragmatism. But the 
price, at some unknown future juncture, may be greater than we 
can imagine at this time of exceptional power and wealth. Half 
a century from now, our children may well regret our lack of 
foresight, our reluctance to try to consciously reshape the 
system when we have the power, when we are in the driver's 
seat. If not now, when will the time be ripe?

    Mr. Chairman, though I have begun to explore these themes 
in my recent book, Mixed Messages, I would not pretend to have 
any quick, easy, or sure answers to the dilemmas and challenges 
before this Committee and before the United Nations. But of two 
things I am reasonably confident: one, that we will not be able 
to get where we want to be by drifting and squabbling among 
ourselves; and two, that we will not find the right answers 
until we begin to pose the right questions.

    Thank you, again, Mr. Chairman, for the opportunity to 
raise these issues with you and with your distinguished 
colleagues.

    The Chairman. Very well. Thank you, sir.

    Now then, Bertie and I are going to work out a little 
timing situation here. We are going to give you 5 minutes for 
each question, including the Chairman and Vice Chairman, but I 
will have him put on the red light just briefly at the end of 4 
minutes and then go back to green, and you have got 1 minute, 
and then we will have to cut you off, because these folks want 
to get home, and certainly I do, too. So if you will mind, no 
preface, if you will just ask your questions and be done with 
it, that will work out fine.

    All right. Here we go. Have you got it, Bertie? Good.

    Recently, Mr. Bolton, as you mentioned, Secretary General 
Kofi Annan publicly proclaimed that only the United Nations 
Security Council can legitimately authorize the use of force in 
international affairs. Now, I came out of my chair when I read 
that myself. Specifically he stated, and I am quoting, ``unless 
the Security Council is restored to its preeminent position as 
the sole source of legitimacy on the use of force, we are on 
the path to anarchy.'' End of quote.

    Now, I think the world of Kofi Annan, but I just wonder if 
you think that his doctrine infringes on the sovereignty of 
individual members of the United Nations to pursue policies 
that are in their national interest.

    Mr. Bolton. Well, to the extent that that view were to 
prevail within the United Nations, I think it would be very 
harmful to the United States. That has never been the view, to 
my knowledge, of any American Secretary of State or Secretary 
of Defense. It has never really been proclaimed, as far as I 
know, by any other U.N. Secretary General.

    I do not know what motivated the Secretary General to say 
it. It is a flat and unequivocal remark, and I am constrained 
to say just as flatly and unequivocally it is wrong. We should 
reject it. We should say publicly that we reject it, and we 
should make it clear that if that is his thinking, he ought to 
think again.

    The Chairman. Mr. Luck.

    Mr. Luck. Well, I think there is a little bit of wiggle 
room in the charter with Article 51, which recognizes the right 
of self-defense of individual nations. I think the view he was 
expressing is that of a purist on the U.N. Charter. I am not 
sure I would always agree with John on this, but I do think in 
fact over time we have seen member States interpret the charter 
rather flexibly, and this is one of those places.

    It obviously helps our international legitimacy if the 
Security Council agrees and if other member States participate, 
but I would not restrict American use of force simply to the 
times the Council could agree, because we first had our 
problems in the cold war, now we are having another set of 
problems and differences on the council.

    The Chairman. Maybe sometime we could have a debate on 
that.

    The second question is for you, sir. Many nations still 
consider the United States a dead-beat Nation, even after 
enacting a plan to pay $926 million to the United Nations, the 
Helms-Biden bill, tied to long-discussed common-sense reforms.

    Now, how can the United States be called a dead-beat when 
it has contributed so much to U.N. peacekeeping operations and 
military missions pursuant to Security Council resolutions, and 
that amounts, John, to more than $8.7 billion, according to the 
General Accounting Office.

    Mr. Bolton. Well, I think that this impression that somehow 
the United States' objections to payments for certain 
obligations to which it has objected represent a breach of 
faith by the United States with the organization, thus making 
it a dead-beat, is really something that has poisoned relations 
between the members of the United Nations and the United 
States.

    The fact of the matter is that the allocation of 
assessments is fundamentally a political question within the 
General Assembly, and the idea that a majority of nations can 
decide what our share is and then when we, for good and 
sufficient policy reasons, do not vote it, that that is somehow 
has put us in breach of our obligations, I think is a canard.

    It is part of the problem with the entire system of 
assessments, which when you can count year after year after 
year on 25 percent from the United States and 31 percent for 
peacekeeping, creates a kind of welfare entitlement mentality, 
and the way to break it is to move to voluntary contributions.

    The Chairman. I want to give Mr. Luck a bite at this 
question.

    Mr. Luck. Here, I would depart a bit from John and I am 
afraid from your viewpoint as well, Mr. Chairman. We have a 
preference in this country for doing things voluntarily. We do 
not like being told that things are assessed, or that they are 
obligated. Most other member States and most other parliaments, 
on the other hand, prefer to say there is an international 
bill, we have a treaty obligation, and therefore we will pay 
it.

    It does seem to me that it is not really fair for us to do 
certain things militarily around the world and then to say, 
gee, coincidentally our action supported a U.N. operation and 
now you should recognize this as part of our obligation. I 
believe that peacekeeping costs ought to be assessed, and we 
ought to pay our dues. If we provide support for U.N. 
operations directly, then we should be, and are supposedly, 
reimbursed for those. But if we decide to have the Sixth Fleet 
deployed in the Mediterranean or in the Persian Gulf and it 
happens that the U.N. also has a problem with Iraq, perhaps 
because we help to persuade the Security Council to pass a 
resolution, it does not mean it is only their concern and we 
are just doing them a favor. This happens to be a place where 
our actions coincide with the U.N., and our interests coincide.

    The Chairman. Good. Thank you.

    Senator Biden.

    Senator Biden. Thank you very much. I notice, Mr. Chairman, 
you were explaining the clock. The only people who fully 
understood it in the room were the lawyers, because they 
understand how abrupt the Supreme Court is in 5 minutes. They 
cut you off in mid-question. So we are a kind compared to them.

    Mr. Bolton, Mr. Secretary, I read your statement. I do not 
have time now, but I think you engaged in a little bit of 
revisionism on Somalia, and in Bosnia relative to Clinton and 
Bush, but I am going to write you a note as to why I think it 
is different and we can discuss it.

    [Senator Biden's statement on the points referred to above 
follows:]

                   Additional Statement of Sen. Biden

    Mr. Bolton's prepared statement contains some assertions 
that amount to historical revisionism. The record should be 
corrected.

    First, he suggests that the Clinton Administration launched 
the U.N. peacekeeping mission in Somalia. The truth is that the 
U.N. mission in Somalia was ``launched'' in December 1992 under 
the authority of U.N. Security Resolution 794 (1992), at the 
end of the Bush Administration. To be sure, a Security Council 
resolution was passed in March 1993--in the first months of the 
Clinton Administration--that started a new phase of the 
peacekeeping mission. But the Somalia expedition began under 
President Bush.

    Second, he implies that Clinton Administration policies 
``led directly . . . to political ineffectiveness and military 
incompetence in Bosnia.'' True, the Clinton Administration's 
policies on Bosnia left something to be desired in the initial 
years of President Clinton's first term--and I said so at the 
time. But the foundation for this policy was poured during the 
Bush Administration, which made a decision to yield leadership 
on the Yugoslav crisis to the Europeans. The war in Bosnia, it 
will be recalled, commenced in April 1992. It is an undisputed 
fact that the UNPROFOR mission was established during the Bush 
Administration; the weak mandate of UNPROFOR was sanctioned and 
countenanced by President Bush's administration.

    Moreover, it was the Clinton Administration that launched 
the NATO air strikes against the Bosnian Serbs in September 
1995, which played a key role in rolling back Bosnian Serb 
battlefield gains and in ending the fighting. It then convened 
the Dayton peace talks, which yielded the diplomatic settlement 
that, while far from perfect, still offers the best chance for 
lasting peace in Bosnia and Herzegovina.

    Senator Biden. I do not think you have to worry about there 
being any debate on the Secretary General's statement about the 
sole source of sovereignty is the Security Council. Nobody in 
the Senate agrees with that. There is nothing to debate. He is 
dead, flat, unequivocally wrong, and both, I would say to Mr. 
Luck, who I agree with a great deal more than I you do, John, 
we have been through this exercise for years, that I cannot 
even figure how one gets that interpretation from the document, 
unless we had put into effect the provision of the U.N. which 
calls for the ability to establish a multinational force in 
advance. We have not done that, so it does not even get into 
play. It is a statement that an overexuberant politician like I 
am might make on another matter, but I hope he did not mean it 
if he did. I love him, but he is flat-out wrong. There is 
nothing to debate. We totally agree on that.

    Now, let me suggest and ask you, Professor Luck, you 
indicated that there were four pieces, five pieces of concern 
you had and six prescriptions for how to proceed. The 
prescription to proceed is the need for a bipartisan foreign 
policy. My colleagues might not agree with this, but I truly 
believe that the Helms-Biden bill was as much an effort to 
resolve within the Senate and the House and reach a bipartisan 
consensus among us where we, the U.S. Congress, both parties, 
stood relative to the United Nations.

    So I think it is important to look at this from two places, 
and I really mean that, not merely the empirical evidence that 
supports the following conditions requirements and provides the 
following money, but it took a long way to get there. It took 
us 3 years. 3 years. And the fact that he and I cosponsored 
together and fought for and got a majority of both the House 
and the Senate to be with us on this is, I would argue, a first 
start, a first step in reestablishing some bipartisan 
consensus.

    The second point I would like to make and ask is a 
question, before my time is up, and that is, you indicated 
there were five concerns. I share your concerns about whether 
or not we can get it done, whether or not we started a 
precedent followed by the Japanese Diet and others, whether or 
not--I am much less concerned about whether further Congresses 
will decide to make this a practice. I do not think that is a 
reasonable concern, and I do not think it is a likely concern.

    But the fourth one I think is the $64 question, and that 
is, the agenda. This does not solve in any way, nor do we think 
it would, nor did we suggest it might, the need for the member 
States to reach some consensus among themselves on an agenda, 
an agenda for the United Nations.

    My question to you is, how does that process get underway? 
Is it bilateral, then multilateral, head of State to head of 
State, and then it gets to the United Nations, or can it 
actually in any way be generated from within the U.N.?

    Mr. Luck. Well, having watched the intergovernmental 
discussions for a number of years now at the U.N. on reform, I 
do not think you simply put it into a committee of 188 member 
States and expect something great to happen on the other end. I 
think you need a coalition of States, and from different parts 
of the world, not just with our normal favorite allies, but 
people from Africa, Latin America, Asia, whatever, trying to 
find some common ground, and then work it from there.

    The first big hurdle was getting over the U.S. arrears, 
because half the discussion was about the United States, not 
about U.N. reform. Then the question is finding a positive 
agenda, because I think we have been looking at reform as a 
negative, as a sort of punishment for the U.N. We need to have 
a more positive agenda that others can buy into, and then I 
think there would be a possibility, but it will not be quick or 
easy.

    Senator Biden. And by the way, we are not all moving to New 
York. We came to New York because we know most New Yorkers do 
not recognize there is a Washington. They still think New York 
is the capital of America. I understand that. That is one of 
the reasons why we came.

    Mr. Luck. I assumed it was Friday, and everyone wants to 
come to New York when it is weekend time.

    The Chairman. Senator Hagel.

    Senator Hagel. Mr. Chairman, Mr. Bolton wanted to respond.

    Mr. Bolton. I just wanted to say briefly I am happy to have 
the Biden corollary to the Helms speech yesterday.

    Senator Hagel. Mr. Chairman, Thank you.

    The Chairman. Senator Hagel.

    Senator Hagel. Gentlemen, thank you. We are always grateful 
for your testimony and your thoughts.

    A question for each of you. Obviously, over the last 50 
years the scope of U.N. activities, programs, commitments, 
obligations, and responsibilities has widened considerably. My 
question is, is the U.N. trying to do too much? Mr. Bolton, 
would you like to start?

    Mr. Bolton. Well, I think the answer to that is yes, and I 
would address it in two ways. First, I think both in the United 
Nations itself, and in the specialized agencies, that there is 
simply too much emphasis on economic and social questions 
covering a wide variety of fields that are best left either to 
regional organizations or to the nation-states themselves. I 
think one of the reasons for budget bloat over the years is 
that economic and social programs in the U.N. system have grown 
like a coral reef, utterly without plan, and without 
constraint. Until that mentality changes you are fundamentally 
going to get a leaner United Nations.

    But second, the United Nations is only a reflection of its 
members' will, or at least it should be, and what has happened, 
and I can certainly testify to this from my own experience at 
the State Department, is a temptation by governments, looking 
at a problem that they know they cannot solve or will not 
solve, to be able to say, ``well, let us have the United 
Nations get involved.'' This is a very serious problem.

    I think in peacekeeping operation after operation, when 
member Governments, for good and sufficient reason, have not 
been willing or able to engage themselves because they did not 
consider it in their national interest to do so, they have been 
willing to say, well, let us have a U.N. peacekeeping force, 
let us have some U.N. involvement like that, in part because 
they know that the United States would pay for 31 percent of 
it. I think that has got to change, too.

    Senator Hagel. Thank you. Mr. Luck.

    Mr. Luck. I think the U.N. is trying to do too much, 
because the member States do ask it to do more and more, and I 
would point out that there is a little paradox, because we, 
too, in this country ask the U.N. to do more. At the same time, 
we are asking it to do so with fewer resources and fewer 
people, and at some point it has just got to be spread too 
thin.

    Second, I think there is a fundamental problem of priority-
setting in the organization. Any business with 188 members on 
its board of directors from all over the world is going to have 
a problem setting priorities. It is a real difficulty in the 
organization.

    One of the things I did like in the Helms-Biden 
legislation--there are many things I do not like--but one thing 
I did like is that it does flag the need for sunset provisions, 
and that is very important. I worked on a staff basis for the 
committee trying to eliminate some of the underbrush in the 
General Assembly, some of the subcommittees and whatever. Quite 
frankly, we went through scores and scores and scores of them, 
but there was always some country that wanted each body to be 
continued, some State, and so it was continued.

    But I must say, this idea of only operating and deciding by 
consensus, that makes choosing so difficult, was something that 
the U.S. wanted because of the budgetary question. We insisted 
that there be consensus-based decisionmaking, and now this is 
the downside of that, because if one or two countries get up 
and object, you do not have a consensus, and you cannot get rid 
of things, so we might rethink that one as well.

    Senator Hagel. Thank you.

    Mr. Bolton. Can I just add one point on that, and that is, 
I think the limits of consensus budgeting have been reached, 
and I think it may well be appropriate to go back and have 
votes if we are going to have an assessed budget, and let us 
see how those votes shake out.

    Senator Hagel. Thank you. Mr. Chairman.

    Mr. Bolton. Mr. Chairman, could I beg your indulgence? I 
have a commitment. I have got to get to Dulles Airport to pick 
my wife and daughter up, and I am looking for a cab driver in 
New York who is going to, within the limits of the law, get me 
to La Guardia quickly, so my apologies. I thought we might 
start earlier, but I have enjoyed the time.

    The Chairman. I understand. We thank you for coming, John.

    Mr. Bolton. Thank you.

    Mr. Luck. I think he did say that I could speak for him. 
[Laughter.]

    The Chairman. Russ Feingold.

    Senator Feingold. Thank you, Mr. Chairman.

    Other countries, Mr. Luck, have suggested reforms for the 
U.N. that are clearly not included in Helms-Biden, and one area 
that I think you referred to is the composition of the Security 
Council. Could you comment on some of those ideas, and what you 
think of the course that should be taken?

    Mr. Luck. Well, one of the things that really worries me is 
that, if you look at the majority of member States, their idea 
of reform goes exactly in the opposite way that we probably 
would want.

    Most member States feel that they are in an organization 
that the U.S. dominates. They do not feel that the organization 
is somehow controlling the U.S. they see it the other way 
around, and many of them would like to limit the prerogatives 
of the five permanent members. Many of them are very resentful 
of the veto. Many of them would like to see more committees be 
committees of the whole, so that everyone gets a voice. This is 
a very, very deep and difficult problem.

    If you get a Security Council that, let us say, has 25, 30 
members in it, and you move up from 5 vetoes to 7, 10, whatever 
different formula is come up with, the harder and harder it is 
going to be for that Security Council to act, because more and 
more States will be saying not here, not there, not somewhere 
else. The biggest problem now is not that the U.N. is too 
powerful, but that it is too weak. One of the reasons that it 
is too weak is because you cannot get agreement on these kinds 
of things, and I fear that things are going to be more and more 
difficult in the Council in the future.

    Senator Feingold. You are obviously done a lot of research, 
and you are a qualified observer about the U.N. You have had 
occasion to search through U.N. records and speak with U.N. 
employees in order to further your research. In your 
experience, how transparent have you found the organization's 
financial and administrative practices to be? Is it a culture 
of openness and accountability, or is it one of secrecy?

    Mr. Luck. Well, I would say on the program side, in 
activities, the organization has become more open and more 
transparent. On the question of budget and accounting questions 
that you are asking, it is very, very difficult. I am not sure 
it is intentionally that way, but it is a rather opaque 
organization. Part of it is that the very structure of the U.N. 
is so complicated, and there are so many different pieces, paid 
for under different budgets, and by different member States, 
that it is very, very hard to go to one place and get a single 
answer.

    I do believe that Joe Connor, who will be speaking shortly, 
has done a very good job of trying to bring a rationality to 
the accounting, to the budgeting system of the organization; 
but, I must say, a lot of member States do their best to work 
around that. In fact, I think this one does sometimes as well, 
and I would say that transparency is not the first 
characteristic that comes to mind when you think about the 
budgetary system within the United Nations, or the personnel 
system, for that matter.

    Senator Feingold. Thank you, Mr. Chairman.

    The Chairman. Thank you. Senator Grams.

    Senator Grams. Thank you very much, Mr. Chairman.

    Mr. Luck, just a couple of quick questions dealing with the 
concerns over the creation of the International Criminal Court.

    It appears unlikely that the Clinton administration will be 
able to find a way to provide 100 percent protection to U.S. 
military personnel and thus will not be able to sign on to the 
court. Are you concerned, however, that the administration will 
practice benign neglect, or maybe even worse, that it will 
support Security Council referrals to the court? I was going to 
address this to Mr. Bolton, but you can speak in his behalf, if 
you would like. [Laughter.]

    Mr. Luck. I sort of regret what has happened with the 
diplomacy and the politics relating to the International 
Criminal Court, because I think there is a very good, worthy 
objective there, but I believe somehow the advocates got a 
little out front of what the politics would bear, and maybe 
this administration was not quite on top of it as much as it 
might have been at the beginning.

    I think there are a lot of protections in the statute, so I 
am not as worried as some are on this committee about the 
threat that it would be to American servicemen. There are a lot 
of remedies in there, but I do feel very awkward about a court 
that could come into being before the U.S. and even other major 
powers, in fact, have ratified and become parties to it, that 
somehow we would have to be living under a system that we had 
not yet approved of. It would have been better if they had 
pulled back and slowed up the negotiations until the politics 
began to catch up with it.

    We could have used more public debate on it, but I do not 
think, when you talk about Security Council referrals, that 
this administration has been in any way naive about it. I 
believe that they are very realistic about it, but that they 
got on top of it rather late. I hope that the process can be 
slowed down enough so that we can begin to catch our breath and 
begin to build a broader political base for it.

    Senator Feingold. I would like to also just ask one 
question dealing with the U.N. and duplications that we have 
talked about, and the whole purpose of a lot of the reforms of 
the Helms-Biden bill, but in the introduction to the Secretary 
General's reform proposal, he stated that the major source of 
institutional weakness in the United Nations is that certain 
organizational features have become, and I quote, fragmented, 
duplicative, and in some areas ineffective, and in some areas 
superfluous. Which organization's features at the United 
Nations, or the United Nations, do you believe could be labeled 
as superfluous?

    Mr. Luck. I am not sure. That is a question of individual 
member States' and one's judgment. I do agree that some of the 
economic and social things are not that central, but I am like 
a typical American. I believe more in the political and 
security side of the organization.

    A great deal of member States, however, do put a lot of 
stock in the economic, social, and development side of the 
organization, and we have to recognize that this is not our 
organization. It is an organization of 188 States and they are 
pulling in somewhat different directions.

    The main problem is not so much picking one or another 
piece to eliminate, but rather that the decisionmaking 
structure, particularly in the General Assembly, could be 
simplified enormously if you could get rid of a lot of this 
underbrush that I mentioned before.

    It would help if you could do more things through smaller 
coalitions and smaller groups. If there was enough transparency 
and enough confidence, then more of the member States would 
allow these smaller groups to work on things. But they feel 
every time that the U.S. is going to control it, the U.S. is 
going to dominate it, along with the other major donors, and so 
they all want to be there, and pretty soon the bodies get 
bigger and bigger, and it is harder and harder to make choices.

    Coordination in the system is not improved by our efforts 
to weaken the center of the United Nations, especially since 
the U.S. has supported the creation of many, many little 
pieces. Sometimes we have to get coordination together in 
Washington as well, so that you do not have different agencies 
of the U.S. government, different departments, favoring 
particular aspects of the U.N. system that answer their 
particular interests, and that includes in economic and social 
and other areas. If we do not get our act together, we cannot 
expect the U.N. to get its act together.

    Senator Grams. Could this be number six I think you 
mentioned, agenda?

    Mr. Luck. Yes. To me, it is a never-ending central piece, 
and Helms-Biden did touch on this. I somewhat regret that 
Helms-Biden puts our particular national interests, such as 
reducing our assessment, together with fundamental reforms that 
you and others have worked on, so much in terms of questions of 
transparency and accountability and lack of duplication and 
other things, because they are really two different agendas.

    One is an agenda that is good for everybody. The other is 
an agenda that is basically good for us. People forget that 
there are some things on the accountability side, on sunset 
provisions and other things in that bill that are extremely 
valuable, but because they are attached to our unilateral 
efforts to get our dues down, they tend to dismiss them.

    Senator Grams. Thank you. Mr. Chairman.

    The Chairman. Mr. Luck, Mr. Bolton understands this, and I 
would suggest to you that we will leave the record open for 
Senators present and who are not able to come today to submit 
questions in writing, and we would appreciate your responding 
to them in writing.

    Mr. Luck. I will be happy to.

    The Chairman. Oh, just a minute. That is my boss back 
there. He is a good one, too. But--and I am going to ask 
unanimous consent at this point that, inasmuch as this is the 
first meeting of the Senate Foreign Relations Committee outside 
of Washington, that all the testimony be printed, and if you 
will respond to questions, and John and of course the 
Ambassador knows that procedure.

    Mr. Luck. If he is slow, I can write his answers for him.

    The Chairman. Pardon me?

    Mr. Luck. If he is slow, I will be happy to write his 
answers for him. [Laughter.]

    The Chairman. Now, John.

    Senator Warner. Mr. Chairman, given the hour and the need 
to move on--this has been an excellent presentation by Mr. 
Bolton and Mr. Luck--I will put my questions into the record. I 
thank the chair.

    The Chairman. All right. This has been an interesting 
afternoon for me, beginning with the luncheon. We have a third 
panel.

    Let me see. I am going to read exactly what was handed me. 
On the third and final panel, Mr. Connor and Mr. Ruggie will be 
joined by Ambassador Hays at the table for discussion, and I 
apologize for the late start. I am trying to keep everything 
straight here under unusual circumstances.

    But thank you, sir, for coming. I enjoyed your testimony.

    Mr. Luck. Thank you.

    The Chairman. Thank you so much, and is there any further 
business to come before the committee? Hearing none, this--what 
did the Ambassador call it?--this historic meeting of the 
Foreign Relations Committee comes to an end, and we stand 
adjourned.

    [Whereupon, at 4:20 p.m., the committee adjourned.]

 An Informal Discussion Among Members of the Committee and Hon. Donald 
  Hays, U.S. Representative to the United Nations for United Nations 
   Management and Reform; Joseph Connor, Under Secretary General for 
 Management; and John Ruggie, Special Advisor to the Secretary General.

    The Chairman. Please forgive the lateness of the hour. Now 
we will hear from the distinguished Under Secretary General for 
Management, Mr. Connor, in the middle there, and the Special 
Advisor to the Secretary General, Mr. Ruggie, and Hon. Don 
Hays. Do you want to proceed with a statement? All right. I am 
getting whispers in my ear. They do not have formal statements. 
All right. OK.

    This is a good question. Mr. Connor, isn't the toughest 
reform necessitated by Helms-Biden a change in the assessment 
scale, and what is your answer to that, first.

    Mr. Connor. The toughest reform I am dealing with, Mr. 
Chairman, is the managerial reform, to reform the personnel 
system. We no longer want 90 percent of our staff members rated 
as outstanding. I never met that group of people.

    The second is to turn the budget around, to concentrate on 
what the member States get for the money they give us. We need 
productivity measurement, we need output measurement, we need a 
consciousness that money should result in value. That is the 
second.

    Let me say that that has led to a second and a half. I do 
not believe you can accomplish reform without budgetary 
pressure. We did a lot of this ourselves. You helped along the 
way. The budget when I joined the organization in 1994 was $2 
billion, 532 million for a 2-year period. It is down $100 
million over a period of 8 years, because we are budgeting 
ahead.

    Now, to reduce by $100 million, you have to cut $340 
million worth of real costs, fewer people, fewer meetings, 
fewer travel, fewer reports. We did that. That does not mean it 
is over, but frankly I think one without the other, budget 
pressure and reform, without the two of them together, you get 
nowhere. We have measured that.

    Let me answer a question that was directed to Ambassador 
Holbrooke. Extrabudgetary people are people paid for by 
somebody who wants an extra service. It is not assessed. The 
Nordics asked us to do lots of things extra, and they paid for 
it themselves. That is extrabudgetary.

    Another type of extrabudgetary, the Secretary prepares the 
United Nations Development Programme (UNDP) and the United 
Nations Children's Fund (UNICEF) payroll. That is efficient. 
That is an extrabudgetary, because we bill them for the 
service, so we really focus on how many people we have on the 
staff.

    When we began the reform we had about 10,000 people on the 
regular budget. We are down by about 750 today, but that is a 
remarkable achievement when you ask us to do more all the time.

    Senator, let me thank this committee, let me thank the U.S. 
Government. You contributed $700 million last year to this 
organization, and the last $400 million was after October 1, 
and you paid it by December 31 and, indeed, the loss of a vote 
is off the table by $50 million. We open the mail very fast 
every day in December.

    I must also say that others were looking for your lead. We 
were delighted to receive the Japanese payment of $155 million 
in the last month.

    Now, we have got problems in Kosovo. I do not think that--

    The Chairman. May I interrupt you, sir?

    Mr. Connor. Of course. Excuse me.

    The Chairman. I want to followup on my original question, 
and I do not have a whole lot of time. What do you plan to do 
about a situation where we have more than 90 U.N. members pay 
only 1/1000th of 1 percent of the budget, less than half the 
Secretary General's salary paid by each. Do you plan to do 
anything about that, or try to?

    Mr. Connor. The regular budget basically reflects each 
member State's share of the world gross national income. No 
bells and whistles. That is about what it is. The smaller 
countries get a discount that adds up to 10 percentage points 
of the scale, and that is largely paid for by the European 
Union, Canada, Australia, and Japan.

    The U.S., because it is capped at 25 percent, is slightly 
under its share of world gross national income, so what goes on 
within the scale is basically the extension of willingness to 
pay a little bit more than GNP by a large number of member 
States so that an even larger member State component can get 
somewhat of a discount. That is basically what the scale is.

    The Chairman. With full respect, sir, may I take that as an 
answer of no to my question?

    Mr. Connor. Mr. Chairman, I have forgotten what your 
question was. Excuse me for doing that.

    The Chairman. Are you going to do anything to correct that 
situation?

    Mr. Connor. I think that the scale has got to be looked at 
very carefully, and I am delighted that that is going to happen 
this year.

    The Chairman. One other problem I am going to ask you 
about, and I will leave you alone. What do you plan to do, if 
anything, about a Security Council member with one-fifth of the 
population of the world, and of course I am talking about 
China, paying less than 1 percent of the United Nations budget?

    Mr. Connor. I think that renegotiations of the scale of 
assessment, while we have an interest in seeing how it comes 
out, that basically is something that gets agreed by the member 
States, and I heard carefully what Ambassador Holbrooke said. 
This places the ball in his court. I think it is in a very 
capable set of hands, and I think he will meet equally capable 
hands on the parts of the other member States.

    The Chairman. I thank you, sir. My time is up.

    Senator Biden.

    Senator Biden. Mr. Connor, I should know the answer to 
this. I do not, and if you do not, maybe your colleagues do.

    If the present assessment is roughly based upon the percent 
of GDP, or GNP, the world GNP that each national occupies, or 
contributes, was this always the measure? Realizing the cap on 
the United States, was this always the measure? Was this the 
measure in 1950 and 1952 and 1955 and 1957 and 1960? Do you 
know?

    Mr. Connor. I think with the exception of what I call the 
reallocation between less-developed countries and the developed 
ones, exclusive of the United States, the answer is yes.

    Senator Biden. I find that amazing, because relative to the 
rest of the world, in 1952 the percentage of the GDP that the 
United States contributed, or made up, and what the Europeans 
made up, has to have been different, substantially different 
than it is today.

    Mr. Connor. The scale started, Senator, with the U.S. 
picking up 40 percent at the beginning.

    Senator Biden. So it was different.

    Mr. Connor. No, it was--yes. It was capped in the 
beginning, it is capped now, and the pattern was that as the 
U.S share of gross national income went down over that long 
period of years, the cap was lowered, and the last time it was 
lowered was, as mentioned by Ambassador Holbrooke, about 1973, 
and the U.S. share of gross national income--

    Senator Biden. It was lowered to what, though?

    Mr. Connor. Somewhere in the thirties, I believe, low 
thirties, so it has dropped several times.

    Senator Biden. Well--I do not have any more questions.

    The Chairman. Senator Hagel.

    Senator Hagel. Mr. Chairman, thank you. Gentlemen, welcome, 
and we are grateful that you would come and spend some time 
with us today.

    Mr. Connor, in light of the numbers that you presented, the 
decrease in the budget, the decrease in manpower, I am going to 
ask you essentially the same question that I asked the previous 
panel.

    Do you think the U.N. should be doing a better job of 
prioritizing its resources and programs to meet the challenges 
of our time? Essentially, is the U.N. doing too much? After you 
answer that, would you give this panel some projections on how 
U.N. budget resources will be matched against its commitments 
and programs? Thank you.

    Mr. Connor. Thank you, Senator. The member States define 
too generally what they want us to do. The priorities are like 
an elastic band. We need more specificity.

    Within a zero-growth budget we were able to allocate about 
$17 million to what we perceived to be their highest 
priorities, and they went along with that. Now, the overall 
program--Secretary General initiated this, and I followed 
through--cut the administrative costs and reprogrammed to 
programmatic outputs. Of course, everybody has his idea of how 
to get the extra money, but we did, with no increase in the 
budget, give more to crime, give more to drugs, give more to 
human rights, give more to peace and security--we had a whole 
list. But because the budget is on a zero-growth basis, that, 
of course, makes limits.

    But I will continue to cut administration. I must also say 
that we look for that to feed programmatic imperatives much 
more readily in the next couple of years.

    Senator Hagel. Do you anticipate having to increase dues or 
obligations over the next 5 to 10 years, as you project this 
out?

    Mr. Connor. We cannot stay on a zero-growth budget 
indefinitely. I think that probably is--but I think we can make 
major reallocations following the program that I outlined, and 
then I think that if we are being asked to do something more 
and something different, the member States will either have to 
accept or not, but 8 years of no-growth, most years down, and 
at worst level, that is not a bad record from which to start 
the process of credibility with the member States as to 
delivering value. That is what I would try to do.

    Senator Hagel. So you think that your budget, and 
projections of that budget, match the obligations the member 
States want to do.

    Mr. Connor. Yes, I do. Yes.

    Senator Hagel. Thank you.

    The Chairman. Senator Feingold.

    Senator Feingold. Mr. Chairman, the hour is late, so I will 
just ask one question. I wanted to at least mention today, on a 
day when we focus on U.S. reform, the issue of criminal 
tribunals.

    When Ambassador Holbrooke and I were in Kigali with the 
deputy prosecutor of the International Criminal Tribunal for 
Rwanda we had quite a meeting, and I have been a strong 
supporter of the tribunal, but I was very disturbed to learn in 
that meeting that while reforms and improvements have been 
made, and there have been some inroads in terms of Arusha, that 
the tribunal was very plagued by inefficiencies, and I am 
especially concerned what message this sends in the future to 
those who would commit such incredible atrocities as occurred 
in Rwanda. Why can't the U.N. do a better job in reforming this 
critically important entity?

    Mr. Connor. Three or four years ago, as a result of an OIOS 
report, very strong corrective actions were taken in changes of 
people, addition of administrative types, the hastening of 
construction of a third courtroom--a lot of what I would call 
corrective actions were taken. We are getting mixed signals 
today. A lot of the comments that you made are now coming 
across my desk and the Secretary General's. We are following 
the situation, determined to make those corrections which seem 
to be right and responsive to known deficiencies, and that is 
being pursued actually this week.

    Arusha is tough. Kigali is even tougher to do this with. 
One thing we have corrected is that we substantially filled up 
all the posts that the member States have allowed us to fill, 
so getting the number of people and the right type there, that 
is now under our belt, and we will see if that corrects the 
situation. There may be a need for more senior personnel 
changes.

    Senator Feingold. I was informed by the prosecutor there 
that one of the issues may be overstaffing in some places, so I 
hope you will just take that into account as well.

    Mr. Connor. Well, I have to answer that, Senator. The 
prosecutor went before the Budget Committee and pleaded for 
more resources.

    Senator Feingold. There is a disconnect here.

    Mr. Connor. So I go to these meetings--and we got those 
additional resources.

    Senator Feingold. I think his reference was with regard to 
Arusha, rather than Kigali, but I am not absolutely certain. 
But we have to followup on it. Thank you for your answer.

    Mr. Connor. Thank you.

    The Chairman. Senator Grams.

    Senator Grams. Thank you very much, Mr. Chairman. The 
questions I had for the fourth panel I think I will move them 
up to this panel, if I can.

    Mr. Ruggie, talking about sunset provisions, I know the 
Secretary General has proposed to impose sunset provisions on 
new organizational structures and/or major commitments of 
funds. Why not some of the existing, or why aren't all programs 
at the U.N. brought under the same things, and should be 
sunsetting? By the way, I am a strong supporter of that in the 
U.S. Congress under our programs, and I am wondering why the 
U.N. would not also take a look at this.

    Mr. Ruggie. Senator, the Secretary General's proposal was 
conceived of as a first step. It was not intended to be the 
only step, but as you well know, we had difficulty getting even 
that first step approved in the General Assembly. We keep 
trying, and we hope that we succeed, but it was never intended 
simply as a--as a forward-going measure it was intended to 
affect all programs, and all new institutional structures.

    Senator Grams. Do you see further debate on this in the 
future as far as expanding the sunset provision into existing 
programs?

    Mr. Ruggie. Well, we are still trying to get the first step 
implemented. Yes.

    Senator Grams. All right. Mr. Connor, when you talk about a 
no-growth budget, according to OIOS millions of dollars 
continue to be wasted in U.N. peacekeeping operations because 
of poor financial oversight and weak internal controls, 
amounting to about $900 million over a period of time. Is that 
also an area that you are going to have great concern about, or 
looking as to how to get rid of some of the waste and abuse 
that maybe is in some of these programs as well?

    Mr. Connor. Senator, OIOS has identified about $10 to $15 
million worth of savings each year since they have been 
instituted, so I am a little bit lost with the larger number 
that you gave.

    Most of the deficiencies, most of the savings had also been 
identified as originating in peacekeeping. The administrative 
controls are clearly in a state of installation and then 
implementation, and that causes some gaps, and the backup at 
headquarters has been consistently needed and has been given.

    You ask how many people are in peacekeeping on the backup 
side. Back in the height of the peacekeeping, 1995 or 
thereabouts, we had 600. We are down to about 325 at this time. 
It is probable that we cut the core too much, and I think that 
is the best answer I can give to your question.

    Senator Grams. Mr. Connor, I meant that $900 million was 
acquisition and not waste, so my apology on that. Your numbers 
are right, but you know, there is indication we have no idea 
what is owned by the U.N.; because inventory records are 
inadequate, so there are concerns about inventory as well as 
waste in the budget when it comes to peacekeeping.

    Mr. Connor. Well, Senator, we have established Brindisi to 
recondition used and bring back up to good quality an 
inventory. We had very few, if any, losses of that inventory in 
Brindisi. We have recycled one peacekeeping mission's equipment 
for the next one, and to that extent we have worked pretty 
effectively, but I am sure we have not--you know, if you are a 
driver in a peacekeeping mission on a 90-day contract and the 
mission is going to be shut down, and you are going to be out 
of a job, we lose some trucks. They drive off with them. It 
will happen.

    Senator Grams. Mr. Hays, before we close, I would just like 
to get you involved in this as well, but it was my 
understanding that under the Kassebaum-Solomon bill that the 
U.S. must join in the consensus for every major budget 
decision. How was your decision to disassociate from the 
consensus on the budget outline consistent with that obligation 
of Kassebaum-Solomon?

    Ambassador Hays. I think that with regard to the last 
budget, my understanding, and certainly I checked this with the 
Department before I made a decision on how to act, was that we 
had an understanding between the Secretary, the administration, 
and the Hill, that we were going for Zero Nominal Growth [ZNG] 
whether or not it was in the legislation. Therefore, when we 
were not able to meet specifically the ZNG, I could not join; 
because it would have been a breach of that agreement and 
understanding between us.

    Senator Grams. Could that have been required to have a no-
vote, rather than--

    Ambassador Hays. It would have required us to go to a no-
vote, and I preferred not to go that way, given the fact that I 
saw no support for our position of absolute ZNG.

    Senator Grams. OK. Thank you very much, Mr. Hays. Thank 
you, Mr. Chairman.

    The Chairman. Senator Warner.

    Senator Warner. Thank you, Mr. Chairman.

    First, Mr. Connor, I looked through your distinguished 
biography. I think we are fortunate you have taken this on as 
another career.

    Mr. Connor. Senator, I love what I am doing every day over 
there. It may belong, but--

    Senator Warner. That is marvelous.

    Mr. Connor [continuing]. --helping the organization and 
helping the member States, it is kind of fun.

    Senator Warner. We spoke with the Secretary General, as you 
know, this morning on the subject of Kosovo, and you were about 
to give some views of your own here a few moments ago when we 
had to, time-wise, attenuate your response. Have you had that 
opportunity to give us your views?

    Mr. Connor. I am worried about the money on Kosovo. I did 
not know how much it was going to cost back in July when the 
Security Council voted for it, and neither did anybody else. We 
put out a quickie assessment for $125 million. We had only 
collected a fraction of that by the time we got to December, 
and then on that happy day, the American money came in and the 
Japanese money came in, and we have now collected $117 million 
out of $125 million, but that was supposed to be for the 6 
months that ended December 31.

    Now we have got another assessment out, and practically 
nobody has paid, and that brings it up to what we really need 
for the full year. That is another $250 million. The U.S. has 
not yet paid that, so we have a consistent lag, and this 
bothers us. We are stretched all the time. We do things we 
should not do. We borrow money from the regular budget to float 
peacekeeping. We then pay it back. We mix it between 
peacekeeping missions, the ones that are not as active.

    I said it in the financial presentation. The U.N. is 
running on empty, and we have got many miles to go, and most of 
those miles are coming in emergency situations that Ambassador 
Holbrooke and members of this committee are very, very worried 
about.

    We have collected relatively few of the pledged voluntary 
contributions, so as the financial manager of the organization, 
I am doing a lot of things that I spent 40 years with Price 
Waterhouse learning not to do, and that is inevitable, so it is 
very important that we complete the Helms-Biden.

    Senator Warner. Well, this translates into a tremendous 
amount of human suffering which is taking place.

    Mr. Connor. Yes, sir.

    Senator Warner. You know that, and also I think an added 
risk to the men and women of the Armed Forces of our Nation and 
many others, and this is what concerns me, and one of the main 
reasons that I was so pleased to have the opportunity, with 
Chairman Helms, to come up here.

    Now, Mr. Ruggie and Ambassador Hays, this subject of the 
gratis personnel in the department of peacekeeping, could you 
give us a little status report on that? First, the politics of 
it. Is it still very contentious? Is it working? Given the 
enormity of the task just in the Balkans, and those that are 
being viewed in relation to the importance of Africa, where are 
we on the curve of adequacy and the politics?

    Do you want to answer a little bit, Mr. Ruggie?

    Mr. Ruggie. I will come in after Ambassador Hays.

    Ambassador Hays. First of all, I think the gratis personnel 
are still going on in the field, but the question is whether or 
not we can meet the demands of the peacekeeping efforts without 
having some sort of surge capacity back here at headquarters.

    We have been asked in the budget for additional personnel 
for DPKO. That was given. It is still not enough. We still have 
to have a certain talent background, a talent mind set, an 
experiential background to deal with these types of operations, 
so as you heard in previous conversations, other nations are 
providing that, not at the headquarters level but within 
capitals. For instance, we are providing it in the Pentagon. 
They are providing it in Great Britain, in London. They are 
providing it in Paris.

    We believe that there may be a way to provide this surge 
capacity without running into conflict on the political issue 
of differentiating between haves and have-nots. There are a 
number of nations who do not have a lot of wealth but have 
good, solid military capabilities, and they would like to be 
able to contribute that capability to these sorts of efforts.

    They were the ones that came forward and said, we think 
gratis personnel leaves us out in the cold. You wealthy nations 
get to play and we do not get to play.

    I think we can cobble together a solution that will 
incorporate both concerns, and we are working on that 
diligently.

    Mr. Ruggie. Senator Warner, you have been raising all day 
long a series of very, very important questions, and in fact 
Ambassador Holbrooke posed it as this may be the last chance 
for the United Nations to demonstrate its utility in the area 
of peacekeeping, and I think he may be right, but we really 
need your help.

    When we are now assigned a mission, the Security Council 
adopts a resolution. Many times the resolution is, to begin 
with, ambiguous, because it is a political compromise.

    Ambassador Holbrooke referred to Resolution 1244 on Kosovo, 
which leads to very different interpretations on the part of 
member States, just what it means in terms of the ultimate 
sovereignty and independence of Kosovo vis-a-vis the Federal 
republic, so a clear mission is a prerequisite. You would not 
send troops into the field without a clear mission. A clear 
mission statement is an absolute prerequisite.

    Second, we need to have some advanced planning capacity. 
Once we get an assignment--for example, let us say we are told 
we need to place 5,500 policemen, or whatever the case may be, 
in Kosovo. We do not know who these people are. We have got to 
find them one by one in member States. We have got to come to 
the U.S. Government, to individual States, to localities, to 
find them.

    When we are assigned a mission, we do not have a 
headquarters unit that we could sort of plunk down in the field 
to prepare the ground.

    One of the reasons we do not have those things, Senator, is 
because of political opposition in some of the member States, 
and it touches on the sovereignty issue that you have all 
talked about today. To some people this conjures up fears of a 
United Nations army doing nasty things in the world, and 
challenging the sovereignty of member States.

    It does not, Senator. These are national troops. These are 
national policemen. But what we do need is the capacity to do 
some rational forward planning if we are to get into the field 
more quickly, if the people who go into the field are to have 
had any experience in talking to each other beforehand, and 
working together, and having some common sense of what they are 
supposed to accomplish. We really need your help in that 
regard, all of you, and member States elsewhere, if we are 
going to pass the test that you say we now face.

    Senator Warner. Thank you.

    Senator Biden. Mr. Chairman.

    The Chairman. Sure.

    Senator Biden. Would the committee indulge me for 2 
minutes?

    The Chairman. Absolutely.

    Senator Biden. I would like to followup on the issue of the 
ability to have at the Secretary level this planning for 
military expertise made available.

    I do not want to be argumentative or provocative here, but 
isn't one of the reasons why the smaller nations that do not 
have the wherewithal to make a financial contribution but have 
a military capability did not like the way it was being run is 
they wanted to get paid more? This is a money-making, 
legitimate money-making proposition for them.

    The opposition was not merely to a NATO-dominated or a 
U.S.-dominated or a Brit-dominated or a western-dominated 
military capacity, because there is no question they are the 
most capable in the world, none. Zero. None. Is it not about 
whether or not they get to be reimbursed for peacekeeping?

    I do not blame them for that. I understand that, and they 
are competent, but how much of it--and maybe you are--the 
reason why you are not a formal panel is, you represent an 
international organization, and we have no right to call you 
before us, and you are gracious--you are gracious to come 
before us for this informal discussion. You may not want to 
informally answer the question, but if you would, I would 
appreciate it. How much of it relates to the issue of needing 
cash?

    Ambassador Hays. Since I represent you and not the U.N.

    Senator Biden. Yes, you do.

    Ambassador Hays. I will be happy to answer from our point 
of view.

    From our reading, our discussion, this is both a jobs 
concern and a representation concern. First of all, our gratis 
personnel were viewed, because they were 2 and 3 and 4-year 
tours, as a replacement for permanent positions, and therefore 
doing other people out of jobs, you are absolutely right, out 
of jobs both here and overseas.

    Second, there was a concern that there was not a wide 
enough distribution of these jobs to ensure that we built a 
credibility in certain parts of the world that all nations were 
participating.

    And last, there was a concern that because these people 
represented nation-States and not the United Nations, that the 
U.N. did not buildup the expertise on a permanent basis to 
handle these activities.

    We feel, and I think many of the folks who provided the 
gratis personnel, that these were surge capacity personnel. 
Perhaps they stayed too long, but we need surge capacity as 
well as permanent capacity.

    Senator Biden. Well, let me conclude by saying I want to 
thank you for coming, but when we talk about the contributions 
to peacekeeping all nations make, it is pointed out, 
accurately, that some smaller nations provide a 
disproportionally high, relative to population and income, 
share of peacekeeping.

    I want you to know that most Americans would be 
overwhelmingly delighted for them to do more, and they are not, 
in fact, making a sacrifice the way it is laid out to be, 
because of the reimbursement side. They are making a personal 
sacrifice. They are risking their personnel. That is real. That 
is genuine. But it is not like any are coming kicking and 
screaming into service. They want to come into service.

    The only reason I mention that is for the American audience 
that is here, is to understand that. Those of my liberal 
friends, who I am often counted as one, who say well, you know, 
they do so much more--they do so much more because they want to 
do more. They want to do more.

    So let us get the record straight here. This is not a 
matter of smaller nations saying, oh my God, we are being 
called into service. We do not want to do this. They say, send 
us more. It is an employment operation.

    And I again in no way diminish their capacity, their 
bravery, their credibility, or their commitment, but I just 
think it is important we look at the whole here, and so when we 
are told how the United States of America is on a per capita 
basis really not doing much more in terms of peacekeeping than 
other nations, as they say where I come from, give me a break. 
Give me a break.

    So I honor their commitment, but let us make sure we 
understand that part of it relates to the need for employment, 
and we are never going to get it right, I suspect, until we are 
able to have you have some kind of planning capacity, some kind 
of ability to know ahead of time what is going to happen, and 
with all due respect, we are never going to get that, not just 
from us.

    I mean, I happen to think you should. I will send you my 
article on it, as I say, but I am a minority of one in that 
prospect, so get ready for contingency.

    The Chairman. You are not a minority of one. You may be a 
minority of two, but I agree with you.

    Let me ask you a question, gentlemen. First of all, if a 
little more planning had been done, I would have moved you 
ahead, because you represent the information that we absolutely 
need. My question is, would you accept a fair number of written 
questions from Senators who are here, and maybe a few who are 
not here? Would you do that?

    Mr. Connor. We would be very happy to, Senator. We have 
answered questions from GAO and other aspects, parts of the 
U.S. Government. We would be delighted to give any information 
we can.

    The Chairman. Well, I appreciate your saying that, and I am 
going to give you one or two myself, but in any case, this is 
very important testimony.

    It may not make the front page of the New York Times 
tomorrow morning, but it is the guts and feathers of what is 
wrong, or perceived to be wrong about the United Nations, and I 
personally appreciate your coming here. I wish we had more 
time, and I am going to get you on the telephone one of these 
days and see if you will come down to Washington and let me buy 
you some bean soup in the Senate dining room.

    Mr. Ruggie. It would be our pleasure, Senator.

 
                            A P P E N D I X

                                 ______
                                 


 Responses to Additional Questions Submitted for the Record by Members 
           of the Committee to the United Nations Secretariat
                      questions from senator helms
Assessment Scale

    Question. In my mind, the toughest reform necessitated by 
the Helms-Biden legislation is a wholesale restructuring of the 
assessment scale for Member States' dues. China is on the 
Security Council as a permanent member. But it pays only 1 
percent of the UN budget. Is that going to change? And what is 
going to be done about the 90 countries who pay just one one-
hundredth of 1 percent of the budget?


    Answer. The bedrock of the calculation of the scale of 
assessment is each country's share of world gross national 
product (GNP). That main element is then adjusted to reflect a 
number of economic factors, the principal one of which is a 
country's per capita income. Another adjustment is the ceiling 
assessment rate of 25 percent.

    As the attached schedule shows, the reduction benefiting 
one group of Member States must, of course, be compensated for 
by increasing the assessed rates of other countries. In the 
attached schedule, this reallocation falls mainly to Japan and 
the countries of the European Union, whose rates were adjusted 
upwardly to compensate for the lowering of others.

    As for the minimum assessment rate, or floor, this was 
reduced to 0.001 percent in the current scale of assessments, 
for 1998-2000. This reflected the fact that the previous scale, 
for 1995-1997, assessed a number of smaller Member States at 
many times their share of the total national income of the 
membership. It was estimated, for example, that the 0.01 
percent assessment rate of Sao Tome and Principe in 1995-1997 
was over 35 times higher than its share of the total national 
income of Member States.

    The scale of assessments for the period 2001-2003 is due to 
be discussed at the resumed session of the General Assembly in 
March, the Committee on Contributions in June and the General 
Assembly again in the autumn. The final results of this 
consideration will probably not be known until the end of the 
year. It should be noted, however, that they will be affected 
by two factors: updating GNP amounts and decisions to be made 
about assessment scale methodology--including, notably, 
consideration of the low per capita income adjustment and the 
ceiling. Work on collating the GNP data is currently under way 
and a lively debate can be anticipated on the scale 
methodology.


     United Nations--Comparison of Gross National Product (Base Determinant) To Adopted Year 2000 Scale Rate
----------------------------------------------------------------------------------------------------------------
                                                                              2000
                     Top 20 Contributors                         GNP \1\   Scale Rate  Reduction \2\   Increase
----------------------------------------------------------------------------------------------------------------
United States................................................      26.156       25.00        -1.156
Japan........................................................      17.287      20.573                      3.286
Germany......................................................       8.283       9.857                      1.574
France.......................................................       5.500       6.545                      1.045
Italy........................................................       4.569       5.437                      0.868
United Kingdom...............................................       4.279       5.092                      0.813
China........................................................       3.107       0.995        -2.112
Canada.......................................................       2.295       2.732                      0.437
Spain........................................................       2.177       2.591                      0.414
Brazil.......................................................       1.979       1.471        -0.508
Russian Federation...........................................       1.618       1.077        -0.541
Netherlands..................................................       1.371       1.632                      0.261
Mexico.......................................................       1.265       0.995        -0.270
Republic of Korea............................................       1.255       1.066        -0.249
Australia....................................................       1.246       1.483                      0.237
India........................................................       1.176       0.299        -0.877
Argentina....................................................       0.965       1.103                      0.138
Belgium......................................................       0.928       1.104                      0.176
Sweden.......................................................       0.907       1.079                      0.172
Austria......................................................       0.791       0.942                      0.151
----------------------------------------------------------------------------------------------------------------
\1\ Country percentages of total world Gross National Product (GNP).
\2\ Reductions are mainly the result of the low per capita income adjustment. The reduction for the United
  States results from the established ceiling of 25 per cent. Increases above GNP are solely the result of the
  need to absorb the reductions given to other countries.


Kofi Annan's Reforms

    Question. The Secretary General called for a biennial 
budget of $2.655 billion--some $120 million above the 1998-1999 
budget. How committed is the Secretary General to reform? Or is 
putting the brakes on growth of spending not a fair test of the 
Secretariat's commitment to reform? As the architect of the 
Secretary General's reform proposals, do you think their 
implementation has been a success or a failure? How so? Have 
the Secretary General's reform initiatives run their course and 
run out of steam?


    Answer. The purpose of reforming the UN is to strengthen 
the institution and to prepare it to meet the challenges of the 
future. It is also an exercise to assure that the mandates 
given to it by its membership are performed effectively and 
efficiently within the resources that are appropriated for 
those ends.

    The Secretary General is committed to this goal. As a 
result of his reform initiatives there is a new sense of UN 
cohesiveness, especially in relations with the Programmes and 
Funds. The establishment of a Senior Management Group adds 
greatly to this new dimension. The Group includes the heads of 
various departments, programmes and fuiids and meets weekly to 
discuss overall policy issues that affect everyone. Members in 
Geneva, Vienna, Nairobi and Rome participate through 
videoconferencing.

    Yet to be approved are the proposals to adopt specific time 
limits for new mandates and to institute a results-based budget 
system. These proposals will be taken up when the Fifth 
Committee of the General Assembly resumes its session in March 
and again in May this year.

    Concerning the budget, the Secretary General proposed a 
figure of $2,535.6 million before recosting. It reflected the 
preliminary estimate for increases due to exchange rates and 
inflation, which were initially forecast to be around $120 
million. Subsequently, and closer to the adoption of the budget 
in December 1999, that figure was revalued downward as a result 
of favourable exchange rates. Also, real resource reductions 
were made in the preliminary budget proposals. Thus, at the end 
of the day, Member States approved a final budget for 2000-2001 
totalling $2.535 billion--which is virtually the same as the 
previous biennium budget.

Sustaining UN Reform

    Question. What steps are most important to sustain reform 
in the UN? For instance, what steps need to be taken to monitor 
and measure UN programs' effectiveness? And what can we do to 
pull the plug on UN programs which have either fully achieved 
their discrete aim or have failed miserably?


    Answer. Reform should be embedded in every activity of the 
organization.

    To meet this objective, the Secretary General has 
established a Strategic Planning Unit, which is responsible for 
identifying emerging global issues and trends, analysing their 
implications for the roles and working methods of the United 
Nations, and devising policy recommendations for the Secretary 
General and the Senior Management Group.

    In addition, every department and office in the Secretariat 
is carrying out management reviews to enhance their ability to 
accomplish objectives in the most cost-effective manner 
possible while strengthening services to Member States.

    The aim of shifting the UN program budget from a system of 
input accounting to results-based accountability will meet 
monitoring objectives. Under this new approach, the General 
Assembly, though its relevant Committees, would specify the 
results they expect the organization to achieve within the 
relevant budgetary constraints. The Secretariat would be held 
responsible for, and judged by, the extent to which the 
specified results are reached.

    Finally, the use of sunset provisions, once adopted by the 
membership, will set limits on each initiative that creates new 
organizational structures or major commitments of funds. They 
would have to be reviewed and renewed explicitly by the General 
Assembly.

The OIOS

    Question. Isn't the Office of Internal Oversight Services 
too flimsy to do much good? Isn't it too scared that it will 
antagonize member states with its findings? Isn't its impact 
limited by the fact it will not widely disseminate the findings 
of its investigations and audits, treating the subjects of its 
inquiries as clients? Isn't this one UN program which is 
actually under-funded--especially to hire enough investigators?


    Answer. OIOS' record, both in terms of the reports it 
prepares and the formal and informal statements to the General 
Assembly demonstrate that it is far from ``flimsy'', but indeed 
does a lot of good. Due to its independent set-up, which is 
reflected in a variety of different operational procedures, it 
does not need to worry about antagonizing member states. Its 
reports testify to this independence.

    The organization has consistently built up the OIOS' 
strength, counter to the general budgetary trend experienced by 
other United Nations programs. In agreeing to provide OIOS with 
additional resources Member States have confirmed their 
interest in this operation. This support shows that Member 
States are appreciative of its services.

    The impact of OIOS investigations and audits has been 
highly successful. Dissemination of investigations and audit 
findings are directed in the first instance to those that 
should/can take corrective measures. Furthermore, most 
findings/work products are disseminated to intergovernmental 
bodies, as well as in the public domain.

Peacekeeping/Genocide

    Question. The UN issued two reports recently offering an 
analysis of its own failures in the case of the so-called 
``safe area'' in Srebrenica and in the case of the genocide in 
Rwanda in 1994. What lessons has the Secretariat learned from 
these cases?


    Answer. The Secretary General's report on the fall of 
Srebrenica (A/54/549 dated 15 November 1999) and the report 
that he commissioned on the genocide in Rwanda (S/1999/1257 
dated 16 December 1999) were very well received by the Member 
States and the public at large, and a number of observers have 
commented that they break new ground in the United Nations 
because their level of candor, sincerity, and sense of 
responsibility are qualities that this Secretary General brings 
to the table in his effort to reform the Secretariat.

    As concerns the findings in the two reports, they remind us 
that the Secretariat and the Member States have much work to do 
to ensure that such tragedies are not repeated. Those findings 
and the measures that are required to address them will be the 
subject of a separate report on United Nations peace operations 
in general, which the Secretary General intends to issue later 
this year. It will focus on the areas of the Secretariat's 
performance that need to be improved as well as on doctrinal 
issues. I should like to take this opportunity to briefly 
mention ten lessons learned from the Rwanda and Srebrenica 
tragedies that the Secretariat has drawn from these tragic 
events.
Four lessons regarding the Secretariat's performance

    1. Individuals matter. When thousands of lives are at 
stake, the character of senior personnel in the field is 
absolutely crucial. Beyond possessing the requisite technical 
qualifications, they must be dynamic, courageous, imaginative 
and deeply principled. Over the past few years, the Secretariat 
has been working with troop contributing nations to evaluate 
candidates they put forward for the positions of Force 
Commander, Chief Military Observer and Civilian Police 
Commissioner. The Secretariat has also now been given the 
resources to bring such candidates to UN Headquarters for 
interviews.


    2. Timely and accurate information is critical. In response 
to the problems encountered in Rwanda and Bosnia, one of the 
first things that the Secretary General did when he took office 
in 1997 was to change the manner in which the Secretariat 
interacts with the Security Council. Briefings to the Security 
Council are now the responsibility of program managers in the 
substantive departments to keep the Council better and more 
promptly informed of developments in the field. Briefings to 
troop- and police-contributing nations have now also become a 
matter of routine rather than an exception. This has resolved 
many of the problems attributed to inadequate information flow.


    3. The Secretariat's recommendations to the Security 
Council must be honest and realistic. The Secretariat must 
present the Security Council with frank recommendations about 
what is required to mount and conduct a successful operation, 
taking more fully into account the risks and possible pitfalls 
and the need to guard against setting unrealistic expectations. 
Since the tragedies of Rwanda and Srebrenica, the Secretariat 
has had occasion to set conditions for the deployment of 
certain peacekeeping operations and, when these were not met, 
to recommend against deployment (for instance, as in the case 
of Congo Brazzaville in 1997). Furthermore, in a recent report 
on the situation in the Democratic Republic of the Congo (S/
1999/790), the Secretary General observed that: ``in order to 
be effective, any United Nations peacekeeping mission in the 
Democratic Republic of the Congo (DRC), whatever its mandate, 
will have to be large and expensive. It would require the 
deployment of thousands of international troops and civilian 
personnel. It will face tremendous difficulties, and will be 
beset by risks. Deployment will be slow.'' Such candor will 
assist the Member States to evaluate and plan for the type of 
assistance that missions such as MONUC will require in the near 
future.


    4. The Secretariat needs to provide strategic guidance to 
the field without micromanaging. The Secretariat can ill-afford 
to micromanage the field operations from a distance. The 
Secretariat needs to strengthen its capacity to assist the 
operations in times of crisis if peace processes begin to 
falter. The Secretariat must increase its sources of 
information to analyze situations in conflict zones. In this 
context, the Secretariat has improved its early warning 
capacity, and the Departments of Political Affairs and 
Peacekeeping Operations, the Emergency Relief Coordinator and 
the UN Agencies have joined together to maximize their 
resources in this area. Reports sent to Headquarters from the 
field contain information from a far wider variety of sources. 
Field missions now contain human rights and humanitarian 
components. A broader range of information is submitted to the 
Security Council to assist it in its decision-making. The 
Secretary General has also encouraged the Secretariat to forge 
greater links with academic institutions and policy institutes.

    These few measures are indeed not enough to strengthen the 
Secretariat's capacity to conduct the type and scope of 
independent risk analysis which the Srebrenica and Rwanda 
reports recommend. The Secretariat does not have an 
intelligence gathering capacity and is thus entirely reliant 
upon Member States to share such critical information with it. 
The Secretariat continues to face considerable resource 
constraints, as we see in relation to the support of operations 
in Kosovo, East Timor, the DRC and Sierra Leone. If the Member 
States want the Secretariat to play a greater role in 
supporting the peacekeeping operations in the field, then they 
must first be willing to provide it with the necessary 
resources.
Six lessons regarding doctrinal issues upon which the Member States' 
        reflection is required

    The doctrinal issues related to effective peacekeeping can 
be summarized in two sayings which have gained currency in the 
Secretariat over the years: ``There must be a peace to keep'' 
and ``peacekeepers should not make promises that they cannot 
keep nor threats they cannot deliver.'' Both of these 
principles were ignored in the cases of Rwanda and Bosnia. From 
these two general lessons flow six more specific lessons, as 
follows:


    1. Size matters. The configuration and size of a 
peacekeeping force must be commensurate with the risk that it 
is likely to face. Once the will of a peacekeeping operation 
has been tested and it fails to deliver an immediate and 
decisive response, its credibility diminishes exponentially and 
its capacity to stem the tide of violence evaporates.


    2. Sometimes having too few peacekeepers is worse than 
having none at all. The Secretary General's report on 
Srebrenica clearly describes how the Dutch peacekeepers in that 
enclave were poorly equipped and too few in numbers to repel an 
attack by a well-armed Bosnian Serb force. Rather than 
providing a credible deterrent against the Serb attack, the 
Dutch peacekeepers instead found themselves at the mercy of the 
Serbs as potential hostages, which thus diminished the UN's 
ability to call upon NATO air power with full effectiveness. In 
short, symbolic deterrence is not an appropriate substitute for 
credible deterrence and can do more harm than good.


    3. Peacekeeping and war fighting are distinct activities. 
The lesson is simple: blue helmets should not be used to fight 
a war, because they will surely fail. There are nevertheless 
times when the international community must resort to the use 
of force in order to prevent the genocide of a people. In such 
instances there are options far better suited to waging war, 
such as a coalition of Member States under the framework of a 
lead nation (as in the Gulf War or in Haiti).


    4. Mandates must be realistic. When the Security Council 
adopts mandates that create unrealistic expectations on the 
part of the local population, particularly with regard to the 
protection of civilians in armed conflict, this can contribute 
to the worst case scenarios described in graphic detail in the 
Rwanda and Srebrenica reports. From a practical point of view, 
this endangers the lives of our personnel, who come under 
attack by the local populace when the peacekeeping mission 
fails to protect them. From a moral perspective, the creation 
of false expectations discourages or even prevents vulnerable 
communities from exploring ways and means of protecting 
themselves.


    5. A united Security Council is critical. The success of a 
peacekeeping operation is dependent upon the firm support of 
the Security Council, particularly its permanent members. When 
the Security Council is deeply divided on how to respond to a 
crisis, as it was over the war in Bosnia, the parties to a 
conflict begin to view the compromise resolutions and 
statements that come out of the Council as no more than paper 
tigers. Without the firm backing of the Security Council the 
peacekeepers lose the leverage required to induce the 
belligerents' compliance through non-forceful means. In 
contrast, the way in which the Security Council responded to 
the violence in East Timor following the popular consultation 
in September 1999 was an excellent illustration of how a united 
Council can have a tremendously positive effect.


    6. Rapid deployment is essential. Once the Security Council 
authorizes the establishment of a peacekeeping force, it should 
be deployed promptly, because peace processes tend to be most 
fragile once a cease-fire or a comprehensive agreement has been 
signed. The Rwanda report describes in detail the utter 
absurdity of the troops arriving in theatre only after the 
genocide had run its course. The Security Council authorized 
the deployment of 5,500 troops to Rwanda on 17 May 1994 (six 
weeks after the killing started). Three months later (after 
hundreds of thousands more Rwandese had been butchered), the 
Secretariat was still trying to convince Member States to 
provide the troops required.

    There is no doubt that the Secretariat must continue to 
work on building a framework for enhancing the United Nations' 
rapid deployment capacities, through such initiatives as the 
Stand-by Arrangements System. However, it must be clearly 
stated that the lack of a framework does not explain the 
failure of the troops to arrive in Rwanda on time. The reality 
is simple. The United Nations does not have an army of its own 
(nor does the Secretariat believe that it should have one). The 
Secretariat relies 100 percent on the Member States to provide 
the required troops. In the case of Rwanda, those Member States 
in a position to assist could not find the will to do so. Even 
today, we are plagued by the same problem in Kosovo and East 
Timor, where our peacekeeping operations face dramatic 
shortages in the numbers of civilian police that they require 
to effectively maintain law and order. We are thus grateful for 
the generous financial and personnel support that the United 
States is providing to the United Nations Interim 
Administration Mission in Kosovo (UNMIK).


    [The following questions were sent directly to Mr. Connor]

Budget

    Question. To reach a budget of $2.536 billion, the General 
Assembly cut expenditures in general temporary assistance, 
consultants and travel. At the same time, the support account 
for peacekeeping increased and the number of temporary 
positions charged to extra-budgetary funds increased. How much 
of the regular budget was simply transferred to the other 
accounts? To what extent were these legitimate transfers or 
simply different ways of increasing the overall funding to the 
UN?


    Answer. The General Assembly reduced the 2000-2001 budget 
by $19.6 million in resources requested by the Secretary 
General for temporary assistance, consultants and travel in 
order to accommodate Member States' request. Such imposed 
decreases are handled through across the board cuts in all 
departments, not through the transfer of posts to extra-
budgetary or support account posts. In fact, the number of 
extra-budgetary positions envisaged for this biennium are not 
seen as increasing, but as detailed in table 10 of document A/
54/6/Rev.1 are estimated to decrease to 6,632 from a total of 
7,613 in the previous biennium. The establishment of extra-
budgetary posts is solely contingent upon voluntary 
contributions from Member States for specific purposes as 
detailed in the terms of reference of each trust fund or 
special account.

    On the other hand, support account posts are established on 
the basis of the needs and number of peacekeeping missions. 
While the number of GA approved support posts has increased, 
this is a result of the most recent expansion of peacekeeping 
operations in Kosovo, East Timor and Africa after a relative 
short period of downsizing in the number and scope of missions. 
All in all, the number of support staff complements the size, 
complexity and scope of the operations.

    The main mechanism for dealing with budgetary cuts has been 
the Secretary General's program on productivity improvements. 
By focusing on streamlining our procedures and processes, by 
reviewing the way we do business, the UN has been able to cope 
with the increasing demands and fewer available resources.

Budget Reform

    Question. The last General Assembly resolution stated that 
the Secretary General was to continue to budget on an output 
basis. That is, budgets would not be linked to program 
effectiveness. What are the impediments to the adoption of a 
results-based budgeting approach? What priority do you place on 
gaining approval for and implementing results-based budgeting?


    Answer. The introduction of results-based budgeting is more 
of an evolutionary development in the United Nations. The use 
of pure input budgeting was discontinued in the UN when program 
budgeting replaced the former objective of expenditures budgets 
in 1974. Since that time, much work has been undertaken to 
define Outputs, to monitor these and to formalize these 
arrangements within a set of detailed rules and regulations 
covering all aspects of the planning, programming, budgeting, 
monitoring and evaluation cycle.

    Thus the proposed shift to results-based budgeting means 
continuing the search for better managerial use of resources, 
that is looking at the way outputs have been budgeted and 
defined and the way they are provided for in dollar terms, and 
how they are monitored and evaluated.

    As requested by the General Assembly, a comprehensive 
report is before the Assembly in document A/54/456. This 
report, which will be reviewed in early fall, seeks the 
endorsement of the Assembly of a gradual approach to the 
introduction of results-based elements in the program planning, 
budgeting, monitoring and evaluation cycle, in a manner that 
fully reflects the specific needs and characteristics of the 
organization.

    In addition, a concrete measure has been proposed for the 
inclusion in all sections of the program budget for the 
biennium 2002-2003, of performance indicators in addition to 
statements of objectives and expected accomplishments in a 
results-based framework, while maintaining the current level of 
detail on post and non-post requirements.

    Further steps envisaged by the Secretariat are: (a) the 
measurement, at the end of the biennium 2000-2001, of the 
performance of the five budget sections covered in the 
prototype fascicles against a limited number of expected 
accomplishments, using selected performance indicators; and (b) 
other internal measures designed to increase the knowledge of 
staff and to develop mechanisms and procedures that would 
support a gradual implementation of performance measurement as 
a basis for improved program monitoring and evaluation.

    Such a phased approach will allow the organization to test 
the feasibility of these proposals and to make adjustments 
where necessary.

Lost Funds

    Question. What do you know about money allegedly lost when 
the UN Environment Program deposited it in the account of a 
private citizen (Susan Madakor) who did not work for the UN, in 
Brooklyn? Didn't the amount total some $700,000?


    Answer. From 12 February 1998 through 25 October 1999, nine 
separate countries--namely, Belgium, Dominica, Finland, France, 
Italy, Namibia, St. Kitts and Nevis, Turkey and Uruguay--wire 
transferred funds in varying amounts to the UNEP Trust Fund. In 
thirteen cases, it appears that the wire transfer instructions 
omitted one digit from the bank account number. The wire 
transfer instructions specified an account which happened to be 
the bank account of Ms. Susan Rouse-Madakor. A total of 
$701,998.94 was credited to the account of Ms. Rouse-Madakor.

    As of 4 February 2000, the United Nations has recouped 
$470,121.57 from the Chase Manhattan Bank and efforts are 
continuing to ensure that the intended beneficiary, United 
Nations Environment Program (UNEP) Trust Fund, receives the 
balance of the amounts which the Member States intended to 
contribute.

    OIOS is conducting an investigation into the source of the 
erroneous bank account number as well as into the procedures 
for accepting contributions, to ensure that this error is not 
repeated and are cooperating with the legal authorities of the 
United States on the case of the misdirected funds.
                      questions from senator grams
Code of Conduct

    Question. The Secretary General just sent a proposal to the 
General Assembly that would apply the UN code of conduct to 
officials other than Secretariat officials and experts on 
missions. A paragraph in the proposal specifically provides 
examples of these officials including JIU inspectors and the 
Head of the ACABQ. Why weren't these officials covered under 
the code of conduct from the beginning? What is the prospect 
for this proposal passing the General Assembly?


    Answer. The explanation is purely for technical reasons. 
The first step in instituting the new code of conduct was to 
amend the Staff Regulations and Staff Rules, which apply to UN 
staff members only. Since the JIU inspectors and the Head of 
ACABQ are not UN staff members, a separate set of regulations 
had to be drafted, including for others who belong in the same 
category, particularly experts on mission. The report is thus 
presented to the General Assembly in accordance with its own 
request. We believe that the prospects are good for this 
proposal passing the General Assembly.


    Question. Has anyone from the OIOS staff approached the 
Secretary General with concerns regarding the appointment of 
the Under-Secretary General for Legal Affairs to serve as the 
temporary head of the OIOS? It would seem difficult to maintain 
OIOS' operational independence if the head of OIOS is 
responsible for providing legal support and advice to UN 
offices he is also auditing, investigating or evaluating.


    Answer. As far as we are aware, the Secretary General has 
not been approached by anyone from the OIOS staff regarding the 
appointment of the Under-Secretary General for Legal Affairs to 
serve as the temporary Head of the OIOS, The appointment of Mr. 
Corell as a temporary Head of OIOS for a short period does not 
create a difficulty in maintaining OIOS' operational 
independence. Mr. Corell has informed us that he instructed 
heads of units to continue working as in the past, that he 
would deal only with the most important issues of policy and 
present reports to the General Assembly only if they could not 
await the arrival of the new Under-Secretary General. He has 
further advised us that he would, of course, recuse himself in 
relation to any advice provided by the Office of Legal Affairs 
to any UN Office requested in connection with an audit, 
investigation, inspection or evaluation by OIOS of that Office. 
Of course, Mr. Corell would not be required to recuse himself 
in respect of legal advice provided to such Offices unrelated 
to such audits, investigations, inspection or evaluations. In 
sum, we found that in identifying someone to stand in for the 
Head of OIOS for a short period, the natural choice would be 
the Legal Counsel, who also acts independently in that capacity 
within the Secretariat. Ultimately, the task would have to be 
discharged with the judgment required by the circumstances.
                                 ______
                                 

Responses to Additional Questions Submitted by Members of the Committee 
                        to Ambassador Holbrooke
                      questions from senator helms
The Budget

    Question. To reach a budget of $2.536 billion, the General 
Assembly cut expenditures in general temporary assistance, 
consultants, and travel. At the same time, the account for 
peacekeeping increased arid the number of temporary positions 
charged to extra-budgetary funds increased, and that leads me 
to ask the question, how much of the regular budget was simply 
transferred to other accounts?


    Answer. There has been no transfer of funds because the 
budgets are separate and distinct, and used for different 
purposes. Funds appropriated for the Regular Budget cannot be 
used to pay for peacekeeping missions. Similarly, extra-
budgetary monies, which are voluntary contributions made by 
member states, are earmarked for specific activities; rules and 
regulations prohibit use of these amounts for activities 
authorized under the Regular Budget.

The Congo

    Question. In the context of ``Africa month'' during the 
U.S. presidency of the Security Council, it has been suggested 
that the United States should play an active role in a future 
peacekeeping mission in the Democratic Republic of the Congo. 
Presidential Directive 25 requires that peacekeeping missions 
serve the ``national security interests'' of the United States. 
Do you feel it is in the United States national security 
interests to participate in such an operation in the Congo?


    Answer. The U.S. has a clear national interest in resolving 
the multi-state conflict in the Democratic Republic of the 
Congo, and encouraging the evolution of a stable, democratic 
Congo at peace with its neighbors. The current conflict affects 
much of the African continent, with enormous costs to U.S. 
political and economic interests. Involving troops from at 
least a half-dozen countries, three Congolese rebel factions 
and numerous foreign armed groups, the Congo conflict has 
become intertwined with internal conflicts in Rwanda, Uganda, 
Sudan, Angola and Burundi, threatening to destabilize a broad 
swath of central and southern Africa.

    Inaction on the part of the international community would 
have disastrous consequences, risking a resurgence of genocide 
in the region and the devolution of this proxy war into a 
direct war. Continued fighting in the region has produced a 
dangerous security vacuum that has drawn in rogue states which 
are seeking weapons sales, political allies, and access to 
strategic materials. The fighting threatens to spark a major 
humanitarian crisis, with a severe long-term impact on economic 
growth, investment, poverty alleviation and trade for the 
region. For all of these reasons, the Congo conflict ranks 
among the most dangerous in Africa.
                      questions from senator grams
DOD Costs

    Question. In addition to $1.4 billion the U.S. provided to 
the UN in voluntary and assessed contributions in fiscal year 
1999, the U.S. contributed $8.779 billion in support of UN 
Security Council resolutions such as enforcing the no-fly zones 
in Iraq and undertaking humanitarian aid in Kosovo. According 
to the Administration, these amounts are not charged to the UN 
because the costs support actions that are in the U.S. interest 
and would be carried out whether or not they supported UN 
resolutions. Why hasn't this Administration been more 
aggressive in seeking credit for U.S. contributions?


    Answer. As indicated, the U.S. has not sought credit for 
its contributions that extend beyond the mandates of the 
resolutions because these activities are in the national 
interest of the U.S. and would be carried out whether or not 
they supported UN resolutions.

OIOS

    Question. I am very concerned that one of our greatest 
reform achievements to date, an independent Inspector General's 
office, has been jeopardized by the appointment of the Under-
Secretary General for Legal Affairs to serve as the temporary 
head of the OIOS. On its face, it would seem difficult to 
maintain OIOS' operational independence if the head of OIOS is 
responsible for providing legal support and advice to UN 
offices he is also auditing, investigating or evaluating. Has 
the U.S. Mission voiced any concerns to the Secretary General 
that it would be better to have a prominent person from outside 
the UN system, or someone who had worked for Mr. Paschke, 
serving in this capacity?


    Answer. We agree that the Secretary General has not made a 
timely appointment of a permanent chief of OIOS. We first 
reminded the Secretary General of this important appointment in 
April 1999 and followed it up in August with several names of 
possible candidates. When it became apparent, that the initial 
candidates were not deemed qualified, we provided additional 
names in December, as did other member states. In January of 
this year, Ambassador Holbrooke spoke with and sent a letter to 
the Secretary General urging speedy action on the appointment.


    Question. The certification to Congress on the independence 
of the OIOS is a legal document, and as such the State 
Department is expected to have a legal justification for its 
decision. Would you provide the background documents supporting 
this certification given Mr. Correll's appointment?


    Answer. We agree that any certification to Congress must 
have a basis in fact to justify it. However, decision-makers 
consider input from a variety of sources when making a judgment 
as to whether or not a particular certification may 
appropriately be made, and there is no requirement that all 
such input be reduced to writing. Moreover, the decision 
documents that typically are prepared are of an internal and 
deliberative character. That said, we are always willing to 
provide via briefings additional details concerning the factual 
basis for our certifications to supplement the summary 
``justification'' generally provided with the certification 
itself.

Budget

    Question. It is my understanding that under Kassebaum-
Solomon the U.S. must join in the consensus for every major 
budget decision. How was your decision to disassociate from the 
consensus on the budget outline consistent with that 
obligation?


    Answer. The UN budget outline for 2000-01 was approved by 
the General Assembly two years ago, in December 1998. Although 
I was not yet on board at that time, I understand that the U.S. 
decision to disassociate from--but not block--consensus 
adoption of the outline reflected our expectation that further 
efforts could be made by the UN to save on costs. As approved, 
the level of $2.545 billion was $13 million above our target 
level of $2.533 billion.

    The outline is not an approved budget. The actual 2000-01 
UN budget was approved in December 1999 at a level of $2.536 
billion. Although marginally higher than our $2.533 billion 
target, the approved UN budget is below the outline level 
approved a year earlier ($2.545 billion) and substantially 
below the level requested by the Secretary General ($2.655 
billion), which included adjustments for economic factors such 
as inflation and exchange rates.

    The U.S. disassociated from the consensus adoption of the 
UN budget because it was slightly above our desired target of 
$2.533 billion--an actual difference of less than $3 million. 
At the same time, our decision to not block consensus reflected 
our general satisfaction with the outcome of the approved 
budget. The $122 million gap between the Secretary General's 
request and the U.S. target level was virtually eliminated. 
Savings were achieved in administrative costs such as staff 
travel, consultants, information technology, temporary 
assistance and general operating expenses.

    I would note that the only alternative to the consensus 
procedure regarding the UN budget is to call for a vote. The 
U.S. would have lost such a vote on the 2000-01 UN budget. The 
voting action also would have poisoned the atmosphere for this 
year's critical negotiations on the UN scales of assessment. It 
was essential for us to avoid such an outcome.

    The U.S. will continue to work for budget discipline in the 
United Nations. Our adherence to the consensus procedure--even 
if we disassociate--will ensure U.S. views are given 
appropriate weight in the final outcome.


    Question. During the negotiations on the UN budget for the 
next biennium, did the United States propose specific cuts to 
maintain a no-growth budget? For example, when the G-77 
demanded $2.5 million to create year-round conference services 
in a rarely used facility in Nairobi, did you suggest an 
offset? Would you provide the Committee with the list of cuts 
the U.S. Mission believed could be made without harming the 
UN's core functions?


    Answer. Prior to the budget negotiations we analyzed the 
budget proposal and identified potential reductions in a number 
of areas that we believed could be made without harming the 
UN's core functions, These included reductions in provisions 
for staff costs, travel expenses, information technology, 
consultants fees, and major maintenance. At various points 
during the negotiations we proposed these reductions; some 
member states proposed other reductions, while others proposed 
increases, The give and take of the negotiations resulted in a 
$2.535 billion budget that is just $2 million more than an 
absolute zero nominal growth budget. While this was 
substantially less than the proposal made by the Secretary 
General, it was still more than we believed was necessary to 
carry out the priority activities of the UN. For this reason, 
we disassociated ourselves from the agreement.
                                 ______
                                 

 Responses to Additional Questions for the Record Submitted by Senator 
                          Helms to Donald Hays
                implementation of united nations reform
Assessment Scale

    Question. In my mind, the toughest reform necessitated by 
the Helms-Biden legislation is a wholesale restructuring of the 
assessment scale for Member States' dues. China is on the 
Security Council as a permanent member, but it pays only 1 
percent of the UN budget. Is that going to change? And what is 
going to be done about the 90 countries, who pay just one one-
hundredth of one percent of the budget?


    Answer. We are working to mobilize the entire UN membership 
in an agenda for comprehensive scale reform aimed at creating a 
flatter, more objective system. Many Member States share our 
concern about the anomalies and inequities embedded in the 
current assessment methodology. Our efforts axe focused on 
getting major players at the UN, including but not limited to 
China, to recognize that financial responsibilities are part 
and parcel of playing a leadership role at the UN. While 
certain of the least developed countries are not in a position 
to shoulder an additional dues burden, there are many other UN 
Members that can and should pay more. Our proposals address 
this problem in a transparent and fair way, and are aimed to 
ensure that all countries with the capacity to pay are 
contributing their fair share. We have been meeting with 5-6 
delegations per day to explain our proposals and urge their 
support. This is complemented by a similar mobilization for 
scale reform in capitals through our embassies and senior 
officials. Our message seems to be getting across, and while it 
is too early to predict the ultimate outcome, we are cautiously 
optimistic about effecting significant change to the assessment 
system.

 Budget Reform

    Question. The last General Assembly resolution stated that 
the Secretary General was to continue to budget on an output 
basis. That is, budgets would not be linked to program 
effectiveness. What are the impediments to the adoption of a 
results-based budgeting approach? What priority do you place on 
gaining approval for and implementing results-based budgeting?


    Answer. The changes needed to achieve a more results-
oriented UN budget are substantial and may take several years. 
In fact, the changes are very much like ones being made as our 
own government switches to performance-based planning and 
budgeting, as stipulated in the Government Performance and 
Results Act. They will require shifts in attitudes of all of 
the important players, including member states and program 
managers, as well as critical improvements in program 
evaluation functions, One of the major obstacles that we must 
overcome is a view held by many developing countries that 
results-based budgeting is just a pretext for making budget 
reductions.

    The Secretary General has proposed a gradual approach, 
starting with the budget period covering 2002-2003, and the 
Fifth Committee will consider this later in the year. We 
believe this is very important, and we will work closely with 
other member states to obtain a positive outcome. At the same 
time, we will continue to push for full implementation of 
existing UN rules and regulations which already contain 
requirements like those found in results-based budgeting. For 
example, the rules require program managers to do regular self-
evaluations of their activities with a view to determining 
effectiveness and continuing relevance; unfortunately, this is 
not done regularly and consistently throughout the UN, so we 
will continue to insist on improvements in this area. 
Similarly, we will seek full compliance with a recent rule 
change, which we instigated, which requires inclusion of 
specific objectives and expected accomplishments in budget 
proposals, and also requires monitoring of progress made in 
achieving them. All of this, we believe will lead to an 
organization that is focused on outcomes rather than inputs.

Lost Funds

    Question. What do you know about money allegedly lost when 
the UN Environment Program deposited it in the account of a 
private citizen (Susan Madakor) who did not work for the UN in 
Brooklyn? Didn't the amount total some $700,000?


    Answer. Our knowledge of this ease is based primarily on 
media accounts. As you indicated, a woman in Brooklyn received, 
erroneously, a substantial amount of funds into her bank 
account that were intended as voluntary donations for UN 
Environmental Program activities. The UN did not catch the 
error initially because it was not aware that counties had made 
contributions. Once discovered, however, the UN took action to 
freeze unspent funds and recover the remainder. OIOS 
investigators are in the process of determining how this 
happened and what might be done to prevent such incidents in 
the future.

Kofi Annan's Reforms

    Question. The Secretary General called for a biennial 
budget of $2.655 billion--some $120 million above the 1998-1999 
budget. How committed is the Secretary General to reform? Or is 
putting the brakes on growth of spending not a fair test of the 
Secretariat's commitment to reform? Do you think the 
implementation of the Secretary General's reform proposals has 
been a success or failure? How so? Have the Secretary General's 
reform initiatives run their course and run out of steam?


    Answer. The Secretary General is committed to the ongoing 
strategic management of the United Nations. At the start of his 
tenure he made it his first priority to produce a detailed 
agenda of measures and proposals to improve the effectiveness 
and efficiency of the organization. Membership has supported 
the bulk of his ``Track II'' reform package while requesting 
more detail on proposals for results-based budgeting and sunset 
provisions. Meanwhile, the Secretary General continues to 
herald reform as an ongoing process and is programming this 
September's Millennium Summit to produce an animating vision 
for the future of the organization. Certainly the Secretary 
General's ability to operate over recent years. under a zero-
nominal-growth regular budget is a testament to doing more with 
less; this has been a critical first step in fitting the 
organization to new purposes brought about by a changing world 
environment. The implementation of the Secretary General's 
reform package is making that fit possible. The successful 
addition of a Deputy Secretary General heading up a new 
leadership and management structure (a first-ever ``cabinet'' 
called the Senior Management Group) has reinvigorated the 
United Nations. It has promoted and realized strengthened 
leadership capacity in the Secretariat, enhanced strategic 
direction from the General Assembly, acting as one coordinated 
entity in the field at the country level, and increasing UN 
administrative effectiveness and efficiencies, among other 
things. One example: UN staff, through a specially-created 
suggestion box, contributed over 400 ideas which have been 
implemented for improving day-to-day administrative matters. 
The Secretary General's initiatives have been lead by his 
overarching reform: to lead the ongoing process of change and 
to institute sound management throughout the organization. 
Given that UN reform, then, is a process and not an event, it 
will continue to run the course as new opportunities and 
constraints arise in the course of managing the United Nations.

Sustaining UN Reform

    Question. What steps are most important to sustain reform 
in the UN? For instance, what steps need to be taken to monitor 
and measure UN programs' effectiveness? And what can we do to 
pull the plug on UN programs which have either fully achieved 
their discrete aim or have failed miserably?


    Answer. The most important steps for sustaining reform in 
the UN are those that involve and motivate the membership to 
maintain and demonstrate sustained political will for 
stewarding the organization effectively and efficiently. In 
brief, membership has to realize value for its involvement 
which it can get by working together for sensible mandates for 
UN programming, scheduled reviews of Secretariat performance, 
support for the organization's financial stability, independent 
and capable internal oversight, and thoughtful selection of 
subsequent Secretaries-General. For monitoring and measuring UN 
programs' effectiveness, the Secretary General has established 
a Strategic Planning Unit to identify emerging global issues 
and trends, analyze their implications for the organization, 
and devise policy recommendations for the Secretary General and 
the Senior Management Group. This type of orientation has been 
copied and incorporated within the many Departments. Through 
the adoption of the culture of relevance, officials now are in 
effect monitoring and measuring UN programs' effectiveness for 
compliance with mandates and goals, and no longer merely 
producing a set number of outputs. Having requested that each 
Department create a ``results-based budgeting'' mock-up for 
each section of the regular budget, the Secretary General 
established a culture of accountability to program managers for 
targeting failed programs and supporting effective programs.

The OIOS

    Question. Isn't the Office of Internal Oversight Services 
too flimsy to do much good? Isn't it too seared that it will 
antagonize member states with its findings? Isn't its impact 
limited by the fact it will not widely disseminate the findings 
of its investigations and audits, treating the subjects of its 
inquiries as clients? Isn't this one UN program which is 
actually under-funded--especially to hire enough investigators?


    Answer. The creation of OIOS in 1994 was perhaps the most 
significant UN reform in recent history. Under its first chief, 
Karl Paschke, the Office proved itself as a valuable tool for 
improving the management culture of the UN, for identifying 
savings, and for reporting on fraud and abuse. Last year alone 
OIOS recommendations resulted in savings of $23.5 million. 
What's more, OIOS audits have led to substantial improvements 
in operational effectiveness and its investigations section 
pursued several major cases where UN staff and contractors were 
stealing funds or otherwise abusing their authority.

    A good example of OIOS' willingness to be ``hard hitting'' 
is found in a recently-issued investigation report about a 
theft of $800,000 in the Bosnia peacekeeping mission. The chief 
of the mission's travel section had devised a clever scheme to 
obtain kickbacks from travel agents for excess baggage fees 
that were already included in the cost of the airline tickets. 
After a full audit and investigation by OIOS, the thief was 
prosecuted and convicted in New York, where he awaits 
sentencing. Efforts are also being made to recover the stolen 
funds. More importantly, however, the investigation has led to 
improvements in the weak internal controls that allowed the 
scheme to operate in the first place.

    The fact that OIOS does not widely disseminate the findings 
of its investigations and audits does not limit the impact or 
effectiveness of the office. Using its automated databases, 
OIOS has assiduously followed up with managers who are 
responsible for ensuring implementation. In its latest annual 
report, OIOS reported that managers had implemented 85 percent 
of the recommendations the office had issued since October 1994 
related to investigations, and 74 percent of all audit 
recommendations. This represents a steady increase over the 
five years that OIOS has been operating, and is a strong 
indication that program managers have become increasingly 
receptive to OIOS' ideas for improving their operations and 
strengthening internal controls.

    Are OIOS' resources sufficient? This is hard to tell. No 
doubt the auditors and investigators will probably always say 
there are not enough of them. But OIOS resources, when combined 
with other oversight resources--including the Board of Auditors 
and the internal oversight mechanisms in various funds and 
programs--provide substantial oversight coverage of UN 
activities. We were also pleased that the new UN budget 
provides additional auditor positions and other resources for 
OIOS.
                                 ______
                                 

    Additional Questions Submitted for the Record by Members of the 
                      Committee to John R. Bolton
                      questions from senator helms
Reform and Sovereignty

    Question. You agree with me that the United Nations has 
utility only to the degree that it serves the will of the 
members states, and in particular, serves the interests of the 
United States. What institutional reform or change in the U.S. 
approach to relations with the U.N. would best ensure this is 
the case?


    Answer. As I indicated in my prepared testimony, it is 
incumbent upon the United States to protect its own interests 
in the United Nations and other international organizations. 
Unfortunately, there is no substitute for clear-headed 
presidential leadership on this point as part of the overall 
conduct of American foreign policy. Nonetheless, vigorous 
congressional participation, pursuant to its own independent 
Constitutional authorities, can help mitigate some of the worst 
mistakes of misguided Executive-branch policies. Despite the 
Committee's heavy workload, I would urge that you consider more 
frequent hearings on American policy in international 
organizations and in the negotiations of international 
agreements that affect domestic policy issues. By bringing 
increased public attention to these issues, I believe that 
overwhelming public opinion will make itself heard in both 
branches.

Peacekeeping

    Question. Peacekeeping missions were on the wane in the 
middle years of the Clinton Administration, following debacles 
in Somalia and Bosnia--about which you have previously written 
and testified. In the late Clinton Administration, they seem to 
be a growth industry again. To what degree do peacekeeping 
operations in Sierra Leone, East Timor, and the Democratic 
Republic of the Congo serve American interests?


    Answer. U.N. involvement in disputes that truly threaten 
``international peace and security'' is both legitimate under 
the U.N. Charter and often in the best interests of the United 
States. Whether and to what extent, however, such U.N. 
involvement should include peacekeeping forces deployed into a 
troubled region is very much a separate question. Too often in 
the past, and quite likely now in Sierra Leone and the Congo, 
deploying U.N. observers or disengagement forces may be 
premature, and actually exacerbate conflicts rather than help 
mitigate them.

    The three basic prerequisites of successful U.N. 
peacekeeping remain, as they always have been: (1) the consent 
of all of the parties to a conflict; (2) neutrality by the U.N. 
among the parties; and (3) the use of force by U.N. troops 
essentially only in self defense or in aid of their mission. 
Too often, the deployment of peacekeepers has proceeded without 
these essentials being in place, and the results have been 
tragic, as in Somalia and Bosnia. In particular, the proposed 
U.N. deployment in the Congo has all of the signs of being 
premature, ill-planned and likely to fail to keep a non-
existent peace or actually to harden existing lines of 
conflict.

Iraq

    Question. Could you offer your thoughts of the steps that 
the U.N. Security Council has taken to loosen sanctions on 
Iraq? How has the U.N. performed in the year since UNSCOM was 
shut down, ending weapons inspections in Iraq? How has the U.S. 
team at the U.N. performed with regard to Iraq?


    Answer. There has been for some time a substantial 
discontinuity between UN employees on the ground in Iraq 
implementing the ``oil-for-food'' program and senior 
Secretariat leadership in New York. The Iraq-based personnel 
appear to have become ``captured'' by Iraqi propaganda about 
the effects of economic sanctions on the Iraqi people, contrary 
to the clear evidence that Saddam Hussein is expending scarce 
economic resources to bolster his own military and political 
position in Iraq to the detriment of dissident or disfavored 
segments of the Iraqi population. This tilt toward Saddam has 
been manifested in inadequate monitoring of financial flows 
under the oil-for-food program (thus providing Saddam's regime 
with resources to purchase non-humanitarian goods and 
equipment), and, in addition, unsatisfactory controls over the 
distribution of humanitarian supplies provided under the oil-
for-food program. Much could be done to correct these problems 
by returning full operational control of the ``oil-for-food'' 
program to management by the Secretariat in New York, which 
would provide far greater opportunity for effective oversight 
by the Security Council.

    Unfortunately, the collapse of the sanctions regime through 
loose field administration is not only the fault of the United 
Nations. Our Administration's inattention both to sanctions 
enforcement and to the hard political task of maintaining and 
enhancing the international coalition against Iraq has been 
ignored for too long. The recent boarding of a Russian ship 
apparently carrying Iraqi oil in violation of the international 
sanctions may signal a renewed emphasis on sanctions 
enforcement, which should be encouraged and expanded.

Taiwan

    Question. Taiwan has every attribute of a sovereign state. 
What does the failure of the U.N. to give a seat or voice to 
Taiwan tell you about the representativeness of the U.N.?


    Answer. I believe, and have previously testified on the 
House side that the Republic of China on Taiwan clearly 
deserves renewed representation in the United Nations. I have 
also explained how that might be achieved. For inclusion in the 
record, I attach a recent article in the Legal Times which 
explains my thinking on Taiwan and the U.N.

                       Legal Times, June 22, 1998

                          Welcome Back, Taiwan
   the united nations should erase the stain of resolution 2758 and 
                    `readmit' the republic of china

                           by John R. Bolton

    In the 1970s, the United Nations was a convenient, indeed 
preferred, venue for legitimizing American and Western 
institutions, values, and allies. The shameful Resolution 3379 
of 1975, which equated Zionism with racism, was simply the 
worst of a long list of outrageous General Assembly actions. It 
was presaged in 1971 by Resolution 2758, which eliminated the 
Republic of China (now generally known as Taiwan) from the 
United Nations' rolls and replaced it with the People's 
Republic of China (P.R.C.). Although the Zionism resolution was 
repealed in 1991, the pernicious effects of Resolution 2758 
persist to this day.

    As President Bill Clinton prepares to leave on his much 
debated trip to the P.R.C., Resolution 2758 stands out as a 
Cold War relic, a practical impediment to the more effective 
operation of the U.N. system, and an affront to the often-
trumpeted characteristic of U.N. universality.

    Resolution 2758 is itself illegitimate, violative by its 
own terms of the U.N. Charter in multiple respects, and a 
virtually dispositive rebuttal to any contention that the 
United Nations functions within a ``rule of law'' context. So 
flawed is this resolution that only its effective repeal by the 
General Assembly can provide any hope of expunging the stain on 
the escutcheon of the United Nations.

    In the years since 1971, the crassly political way in which 
Resolution 2758 violated the U.N. Charter and its larger 
charter-breaking implications have been conveniently forgotten, 
but the history of its adoption tells us much about what is 
politically wrong with the United Nations today. That history 
may even provide a way out of the current quagmire for those 
willing to seize it.

    Failure to seize this opportunity--and especially the 
failure of the United States to take the lead in righting this 
wrong--can only have grave consequences for the United Nations, 
especially given the parlous levels of support it enjoys in 
Congress. Taiwan attempted to begin a debate on repeal during 
the latest session of the General Assembly. Although its 
efforts were turned aside by the P.R.C.'s typically energetic 
lobbying, the status of Taiwan is one that U.N. supporters 
ignore only at their own peril.

    The simplest way to explain the illegitimacy of Resolution 
2758 is to state the basic facts that the P.R.C. never actually 
joined the United Nations and the Republic of China was never 
actually expelled, pursuant to the U.N. Charter. Resolution 
2758's only operative paragraph states in full that the General 
Assembly:

        Decides to restore all its rights to the People's 
        Republic of China and to recognize the representatives 
        of its Government as the only legitimate 
        representatives of China to the United Nations, and to 
        expel forthwith the representatives of Chiang Kai-shek 
        from the place which they unlawfully occupy at the 
        United Nations and in all the organizations affiliated 
        with it.


    Although the resolution was cast in the language of law, 
the P.R.C., Albania (lead sponsor of the draft resolution), and 
their supporters adopted the ``representation'' approach for 
highly political reasons.

    Any objective reading of Resolution 2758 clearly 
demonstrates its facial violations of the U.N. Charter. It had 
the de facto effect of admitting a new member to the United 
Nations, expelling a sitting member, and replacing a permanent 
member of the Security Council, all without any Security 
Council action. Strikingly, a majority of the General Assembly 
persuaded themselves that none of these actions amounted to an 
``important question'' under the charter.

    Had the P.R.C. applied directly for membership, Article 
4(2) would have required it to be elected ``by a decision of 
the General Assembly upon the recommendation of the Security 
Council.'' Quite obviously, in 1971, such an approach would 
have subjected the P.R.C. application to vetoes by the United 
States and the Republic of China. Similarly, efforts to suspend 
Taiwan from U.N. membership (under Article 5) or to expel it 
entirely (under Article 6) would have failed both because the 
substantive requirements of those articles were not met, and 
because General Assembly action under either provision also 
requires a Security Council recommendation, subject to the 
permanent members' veto power.

    Moreover, applications for new U.N. memberships, 
suspensions, and expulsions are all explicitly enumerated in 
Article 18(2) as ``important questions'' requiring a two-thirds 
majority of those members present and voting in the General 
Assembly. Since 1961, the United States, Taiwan, and their 
supporters had been able to rely on a series of resolutions 
that declared that ``in accordance with Article 18 of the 
Charter, any proposal to change the representation of China is 
an important question.''

    Using any route provided by the U.N. Charter thus would 
have (and had repeatedly in the past) led to defeat for the 
P.R.C. Accordingly, the P.R.C. decided to end-run the carefully 
crafted procedural protections of the charter and create a new 
and unauthorized procedure of simply replacing one set of 
``representatives'' with another.

    On Oct. 25, 1971, in clear evidence of the decline and 
final collapse of the United States-led, pro-Republic of China 
coalition, the General Assembly first rejected the latest 
``important question'' resolution by a vote of 55 in favor, 59 
opposed, 15 abstaining, and two absent. The Albanian text that 
became Resolution 2758 was then adopted by a vote of 76 in 
favor, 35 opposed, 17 abstaining, and three not participating.

    Illegitimate as the proceedings that led to the adoption of 
Resolution 2758 may have been, however, the past cannot be 
rewritten. Today, attention must be focused on addressing the 
consequences of the resolution.
Obvious Option

    The most obvious option is for Taiwan to seek its repeal 
and reobtain representation. In effect, Taiwan now faces the 
mirror image of the P.R.C.'s problem before 1971. Attempting to 
obtain membership through the normal U.N. Charter procedures 
would almost surely produce a Beijing veto. Accordingly, 
following the trail blazed by Beijing appears to be Taiwan's 
only realistic course, although it is one that will require 
enormous diplomatic efforts. What Taiwan needs is the visible 
support of the United States, which, sadly, is a dubious 
proposition during the current administration.

    The obstacles to repealing Resolution 2758, while numerous, 
are by no means insuperable.

    First is the question of whether the General Assembly, 
acting on its own without the Security Council, has the 
authority to ``reseat'' Taiwan. The U.N. Charter is silent on 
this point. Of course, the charter process was also explicitly 
contrary to the ultra vires procedures followed by the General 
Assembly when it adopted Resolution 2758, so the problem of 
perfect procedure should not long detain us.

    In 1971, recognizing the likelihood that the P.R.C.'s 
efforts would finally succeed, the United States and others 
proposed ``dual representation'' of both the P.R.C. and Taiwan, 
with the P.R.C. being seared as a permanent member of the 
Security Council. Operative paragraph two of the draft U.S. 
resolution stated specifically that the General Assembly 
``Affirms the continued right of representation of the Republic 
of China.''

    In describing this draft resolution at the time, U.N. 
Ambassador George Bush queried rhetorically: ``Some may ask 
where and when the Charter has been used before in precisely 
the way our resolution proposes. The answer is: nowhere--
because in 26 years the United Nations has never faced 
precisely this situation.''

    After reviewing such cases as the three General Assembly 
votes possessed by the U.S.S.R. (on its own, as well as through 
the Ukrainian and Byelorussian Soviet Socialist Republics), and 
the U.N. membership of India even before its full independence 
from the British Empire. Bush concluded by saying:

        In every such case the United Nations has faced a 
        reality, not a theory--and has acted accordingly, 
        finding new solutions for new problems. We are in a 
        similar situation now. We face a reality, not a theory. 
        Our proper concern must be to do justice to the complex 
        reality that exist today in the form of effective 
        governing entities, and the Charter gives us the room 
        to innovate to satisfy that concern.


    While the dual representation resolution never came to a 
General Assembly vote in 1971, reseating Taiwan would have the 
practical effect of adopting it today.

    This would indeed result in the addition of a U.N. member 
outside the procedures of Article 4. But that outcome cannot be 
any different in legitimacy than Resolution 2758 itself. It 
would be absurd to say that the General Assembly cannot correct 
the iniquitous effects of an illegal earlier resolution simply 
because of doubts about the corrective. Otherwise, the assembly 
would be unable to overcome self-inflicted wounds, even when it 
had the will and the ability to do so.

    Second, there is the question of whether Taiwan qualifies 
as a ``state'' under Article 4. Clearly it does: It controls a 
defined territory has an identifiable population and a capital 
city, administers its own internal affairs, and is able to 
enter into relations with other states.

    The United Nations' history, as Bush's remarks on the 
U.S.S.R. and India demonstrated, contains ample precedent for 
accommodating ambiguous circumstances. Both East and West 
Germany held U.N. membership prior to their reunification. The 
two Koreas are both U.N. members, even though their very 
existence as separate states stems only from the historical 
circumstances of Japan's surrendering in 1945 to the Americans 
in the south and the Soviets in the north. The two Yemens also 
held separate U.N. memberships prior to their merger, as did 
Tanganyika and Zanzibar before becoming Tanzania.

    Contrary to the fears expressed by the P.R.C., providing 
representation to Taiwan would not represent a ``two China'' 
policy, nor need it lead to the conclusion that the United 
Nations is recognizing Taiwan's ``independence'' from the 
P.R.C. In all the cases noted, practical political realities, 
not the theology of international law ultimately governed the 
decisions of the United Nations. The same realities should 
guide it today.

    Third, Third World majorities have argued successfully in 
the past that the actions of one General Assembly cannot be 
overturned by subsequent General Assemblies. But this argument, 
while politically powerful, has always been a myth.

    As early as November 1950, the General Assembly repealed a 
resolution adopted by an earlier assembly. In Resolution 386, 
the General Assembly rescinded Resolution 38, which had barred 
Spain (as a former ``enemy state'') from U.N membership. 
(Because of Second and Third World fears about the impact of 
repealing resolutions, other former ``enemy states,'' including 
Germany and Japan, were subsequently admitted to the United 
Nations without a General Assembly vote revoking their ``enemy 
state'' status.)

    Whatever remaining doubts existed about the authority of 
the General Assembly to repeal should have been completely 
dispelled in December 1991, when the operative language of the 
``Zionism is racism'' resolution was repealed by a vote of 111 
in favor; 25 opposed, 13 abstaining, and the remaining not 
participating.
Political Resolution

    Fourth, opponents of repeal might raise the ``important 
question'' issue thus requiring a two thirds General Assembly 
majority and making repeal much more difficult. But since 
Resolution 2758 itself was not originally decided as an 
``important question,'' there is no reason why is repeal should 
be subjected to a higher threshold.

    The resolution of this procedural issue is ultimately 
political: If there is truly a majority in the General Assembly 
with the necessary political will to reseat Taiwan, then there 
will be a majority to determine that the repeal of Resolution 
2758 and adoption of the dual representation concept is not an 
``important question.''

    Fifth, some might argue that, whatever the legality of 
Resolution 2758, the Republic of China's 1971 attempt to 
withdraw from the United Nations means that Taiwan has 
renounced its status as an original U.N. member and must now 
reapply under Article 4 as a new member. Taiwan's 
``withdrawal'' occurred when shortly after the vote was lost on 
whether to declare the Albanian draft resolution an ``important 
question,'' the Republic of China delegation made a point of 
order, saying that it would no longer take part in any further 
proceedings. The next day, President Chiang Kai-shek explained 
the delegation's action: ``Before this infamous [Resolution 
2758] could be put to a vote' this country announced its 
withdrawal from the United Nations, an organization which it 
took part in establishing.''

    The U.N. Charter deliberately made no provision for the 
withdrawal of member governments, largely to prevent the threat 
of withdrawal from being used as a form of political blackmail 
or as a means of evading obligations under the charter. Japan's 
withdrawal from the League of Nations in March 1933 was very 
much on the minds of the U.N. drafters. Some have questioned, 
therefore, whether it is even permissible for U.N. members to 
withdraw. The only other example of an effort to withdrawal--a 
short-lived attempt by Indonesia in 1965--actually tends to 
show that withdrawal, at least in the short turn, has no force 
or effect.

    Moreover, Taiwan's ``withdrawal'' was so completely 
intertwined with Resolution 2758 that it is doubtful whether 
the purported withdrawal should play any role here at all. Any 
fair reading of the situation in 1971 demonstrates that the 
Republic of China's various expressions of intent to withdraw 
all involved the actual or expected adoption of the Albanian 
draft and should be taken as part of a single transaction that 
expelled Taiwan's representatives and installed those of the 
P.R.C. Thus, the repudiation of Resolution 2758 would eliminate 
the need for Taiwan's withdrawal, rendering it moot today.
Card Games

    When the General Assembly adopted the infamous ``Zionism is 
racism'' resolution in 1975, U.S. Ambassador Daniel Patrick 
Moynihan declared in ringing terms that: ``The United States 
rises to declare before the General Assembly of the United 
Nations, and before the world, that it does not acknowledge, it 
will not abide by, it will never acquiesce in this infamous 
act.'' No such gesture of defiance, no such challenge to a 
resolution's legitimacy was made in 1971 by Ambassador Bush--
perhaps because then Secretary of State Henry Kissinger was too 
concerned with playing the ``China card'' to allow the United 
Nations to get in the way.

    Yet legitimacy is a precious asset for any institution, and 
never more so than for one created ex nihilo like the United 
Nations. Losing that legitimacy is relatively easy, as the 
United Nations has repeatedly proven, but regaining it is a 
lengthy and arduous task, especially in U.S. domestic political 
terms.

    Today, the real question for U.N. members is whether the 
stain of Resolution 2758 can be expunged, or whether its 
corrosive effects will continue to hurt the organization's 
reputation and effectiveness. Many U.N. members are quick to 
criticize the withholding of American financial assessments by 
Congress, but their collective silence on the exclusion of the 
Republic of China is deafening. If critics of the United States 
are really serious about the United Nations, let them help 
renew Taiwan's representation.

Congo in ``Africa month''

    Question. It has been suggested that the United States 
should play an active role in a future peacekeeping mission in 
the Democratic Republic of the Congo. Presidential Decisive 
Directive 25 requires that peacekeeping missions serve the 
``national security interests'' of the United States? Do you 
feel it is in the United States' national security interests to 
participate in such an operation in the Congo?


    Answer. As noted in response to a previous question, I 
think that UN involvement in efforts to resolve the ongoing 
conflict in the Great Lakes region of Africa--through 
mediation, good offices, or other diplomatic methods--is in our 
best interests. Nonetheless, it does not follow automatically 
that deployment of a U.N. peacekeeping force is in such 
interests, despite the current predisposition to do so. Until 
the parties to the conflict have truly agreed on the necessary 
conditions for such a force, which they manifestly did not do 
at the special Security Council meeting on the subject in 
January, I believe it would be a serious mistake to authorize a 
U.N. peacekeeping force for the Congo.

    In particular, there is no American interest that would be 
advanced by the participation of U.S. forces in any such 
peacekeeping mission, even if it were ultimately deployed under 
proper circumstances. There is a larger issue here about 
whether and when armed forces of the five Permanent Members of 
the Security Council should participate in peacekeeping, which 
has not, since the end of the Cold War, received adequate 
public debate and discussion. I remain generally skeptical of 
the utility of Perm Five participation in peacekeeping, and I 
would respectfully urge the Committee to examine this question 
in more detail at an appropriate point.
                  questions submitted by senator grams
International Criminal Court (ICC)

    Question. I know you share my concerns about the creation 
of the International Criminal Court. It appears unlikely the 
Clinton administration will be able to find a way to provide 
100% protection for U.S. military personnel--and thus will not 
be able to sign onto the Court. Are you concerned, however, 
that the Administration will practice benign neglect--or 
worse--it will support Security Council referrals to the Court?


    Answer. Every indication we have is that the Clinton 
Administration is still energetically attempting to find a way 
to sign the 1998 Statute of Rome, which established the 
International Criminal Court (``ICC''). They have in no way 
slackened their participation in ongoing negotiations intended 
to establish procedures for the ICC, and they continue to tell 
foreign governments in diplomatic demarches that they remain 
committed to signing the Statute if at all possible. In short, 
as with the Administration's actions on a number of other 
treaty fronts, it is seeking to implement its preferred 
policies even though Congress has not given its 
constitutionally-prescribed approval.

    Given the Administration's record, it is entirely 
reasonable to believe that the Department of State will 
continue to cooperate with governments that are parties to the 
Statute of Rome, or that the Department will support the 
creation of ad hoc tribunals, such as for East Timor, which 
might in the near future be transferred to the ICC if and when 
it actually comes into existence. Congress, which has signaled 
its opposition to the Statute of Rome on a bipartisan basis, 
should continue to scrutinize the Administration's actions in 
order to avoid a frustration of its Constitutional 
responsibilities and prerogatives.

Arrears

    Question. Whenever the subject of the arrears comes up one 
of the main arguments used by the supporters of paying the 
arrears in full with no conditions is that the U.S. is legally 
bound to do so. Is this your interpretation of U.S. treaty law?


    Answer. It is simply inaccurate to say that the United 
States is ``legally'' bound to pay automatically contributions 
assessed by the United Nations or its specialized agencies. We 
are bound only to a political process by the U.N. Charter to 
meet the organization's financial obligations, and we are 
entirely free politically to accept or reject the results.

    I have previously written and testified on this subject, 
and I attach to the answers for inclusion in the record of the 
hearing (a) an article from the Wall Street Journal; and (b) 
prepared testimony delivered in 1997 before the House 
International Relations Committee.

               The Wall Street Journal, November 17, 1997

              U.S. Isn't Legally Obligated to Pay the U.N.

                           by John R. Bolton

    Adjourning for the year, Congress stung the Clinton 
Administration by refusing to appropriate any funds for the 
payment of U.S. ``arrearages'' (unpaid assessments) to the 
United Nations. U.N. supporters contend that the U.S. must pay 
up in order to meet its ``solemn legal obligations.'' Failure 
to pay, they assert, is ``illegal'' under the ``treaty 
commitment'' the U.S. entered into by ratifying the U.N. 
Charter in 1945.

    This line of argument is flatly incorrect. Its widespread 
acceptance, moreover, is based on several misperceptions about 
the Constitution, U.S. obligations under international 
treaties, and the attendant policy implications for American 
decision makers.

    First, treaties have no special or higher status than other 
acts of Congress or, for that matter, than the U.S. 
Constitution. There is widespread confusion on this point, even 
among sophisticated foreign policy analysts, based in large 
part on some expansive dicta by Justice Oliver Wendell Holmes 
in a 1920 Supreme Court decision. At the time of the U.N.'s 
formation, some pointed to Holmes's dicta to reinforce their 
worry that treaties might be used as a ``back door'' to amend 
the Constitution.

    Perhaps sensing the need to quiet these concerns, the 
Supreme Court revisited the issue in 1957 in Reid v. Covert. It 
ruled that ``no agreement with a foreign nation can confer 
power on the Congress, or on any other branch of Government, 
which is free from the restraints of the Constitution.'' It 
stressed that ``this Court has regularly and uniformly 
recognized the supremacy of the Constitution over a treaty.'' 
Whatever the legal impact of a treaty, that impact must be 
determined consistently with the Constitution and subordinate 
American law.

    Second, treaties are ``law'' only for U.S. domestic 
purposes. In their international operation, treaties are simply 
``political'' obligations.

    The Supreme Court recognized this distinction as far back 
as 1884, holding that a treaty ``is a law of the land as an Act 
of Congress is, whenever its provisions prescribe a rule by 
which the rights of the private citizen or subject may be 
determined.'' As for the international aspects, the court held 
clearly that a treaty ``depends for the enforcement of its 
provisions on the interest and honor of the governments which 
are parties to it.'' And if they don't work? ``If these fail, 
its infraction becomes the subject of international 
negotiations and reclamations, so far as the injured party 
chooses to seek redress, which may in the end be enforced by 
actual war.''

    There may be good and sufficient reasons to abide by the 
provisions of a treaty; in most cases one would expect to do so 
because of benefits treaties provide not because the U.S. is 
``legally'' obligated to do so. As the Supreme Court stressed 
in 1889 in Chae Chan Ping v. U.S.: ``whilst it would always be 
a matter of the utmost gravity and delicacy to refuse to 
execute a treaty, the power to do so was prerogative, of which 
no nation could be deprived without deeply affecting its 
independence.''

    Third, treaty obligations can be unilaterally modified or 
terminated by congressional action. This is the principle that 
U.N. advocates ignore when they argue that Congress is 
``legally bound'' every year to authorize and appropriate 
precisely the same amount of money as that demanded by the 
U.N.'s assessment notice.

    They argue, in effect, that Article 17 of the U.N. Charter 
(concerning the allocation of U.N. expenses among the members) 
strips Congress of its normal constitutional power and 
discretion over financial matters under the Constitution's 
Appropriations Clause (Article I, Section 9). It would 
certainly come as news to Congress that the U.N. Charter had 
modified its power over the purse. The Supreme Court has been 
consistent on this point. As it said in 1871 in The Cherokee 
Tobacco, ``an act of Congress may supersede a prior treaty.'' 
There is no doubt that, whatever the U.N.'s assessment notice 
may say, Congress is fully within its rights to pay it, ignore 
it or do anything in between.

    Fourth, American constitutional requirements override 
``international law.'' It's hard to imagine that any member of 
Congress would seriously argue the contrary point: That the 
U.S. is ``bound'' to pay its U.N. assessments because there is 
a ``higher'' authority--an authority over and above the 
Constitution--that somehow compels such a result.

    Some acolytes of international law, however, make precisely 
that argument, contending that whatever the provisions of 
American jurisprudence, it must bend its knee to higher 
international authority. In their view, this is just the next 
step up from saying that state law gives way before contrary 
federal law. In that sense, they say, falling to acknowledge 
higher international authority renders the nonpayment of U.S. 
assessments ``illegal.''

    The argument that the U.S. Constitution is subordinate to 
international law, erroneous though it is, at least has the 
virtue of clarity. Either the U.N. Charter amends the U.S. 
Constitution to diminish congressional discretion over 
appropriations or it does not. If it does, then the utopian 
internationalists are right, and the U.S. is a global outlaw. 
If not, then the normal constitutional powers of Congress (and 
the President) are undiminished, and Congress can legitimately 
override any treaty provision it chooses. There is no escape 
from this logic.

    Of course, the decision on whether and what amounts the 
U.S. should pay for U.N. matters, political though it may be, 
is not an excuse for obtaining benefits on the cheap. It does 
not follow inevitably that because the U.S. is not legally 
obligated to pay, it should not pay. Instead, the correct 
conclusion is that the U.S. should meet its commitments when it 
is in its interests to do so and when others are meeting their 
obligations as well. It is precisely the satisfaction with the 
performance of other member governments and U.N. secretariats 
that has led to Congress's withholding of appropriations 
before--and which may well do so again.
                                 ______
                                 

                  Prepared Statement of John R. Bolton

                               before the

  Committee on International Relations, U.S. House of Representatives

                             April 9, 1997

    Thank you, Mr. Chairman, for the opportunity to testify 
today before the Committee on the question of whether United 
Nations peacekeeping serves U.S. interests. I will summarize my 
testimony, and I request that the complete text be included in 
the record of this hearing.

    Although the subject is a broad one, I hope to concentrate 
in this prepared statement on the subject of financing U.N. 
operations, a topic which covers not only peacekeeping, of 
course, but all U.N. operations financed by assessed 
contributions. I do so not in any way to minimize the 
importance of the political and diplomatic questions concerning 
U.N. peacekeeping, which I would be happy to address in 
response to questions from Members of the Committee. Rather, I 
believe that the financial responsibilities of the United 
States in international organizations have not been well 
understood, and I hope to contribute to correcting that 
problem. While my views are still somewhat preliminary, I 
welcome the opportunity to present them to the Committee for 
your consideration.

    Before turning to the financial issues, however, I wanted 
to summarize quickly my views on peacekeeping. To assist the 
Committee, I have attached a copy of ``Intrastate Conflicts and 
American Interests'' from the Spring, 1995, issue of Human 
Rights Brief, which states many of these views at somewhat 
greater length. I conclude basically that ``traditional'' U.N. 
peacekeeping, in situations truly implicating international 
peace and security, remains a viable instrument of foreign 
policy.

    Where peacekeeping has run into difficulties recently, it 
has been for one of two reasons. First, the Security Council 
has unwisely attempted to expand ``peacekeeping'' into ``peace 
enforcement'' in situations where the U.N. membership, and 
particular its leading nations, was politically unwilling to 
follow through on its rhetoric. In part, these problems 
resulted from deviating from the basic assumptions underlying 
successful peacekeeping (consent of the parties, U.N. 
neutrality, and use of force by U.N. peacekeepers only in self-
defense) without honestly confronting what such deviations 
would mean on the ground.

    Second, the Security Council, and especially the United 
States, has been too prone recently to involve the U.N. in what 
are essential the internal conflicts of member States. These 
conflicts, which often bring tragic humanitarian consequences, 
do not rise to the level of the Security Council's 
jurisdiction--threats to international peace and security. In 
the absence of such threats, involving the Security Council 
involves the U.N. in conflicts not readily amenable to 
resolution in that forum, and weakens its legitimacy and 
ability to act in matters which truly threaten international 
peace. It is in these situations that one can truly say that 
the U.N.'s best friends (those advocating a larger and larger 
U.N. role in international affairs) are frequently its worst 
enemies (by involving the U.N. in situations where it must 
inevitably fail).

    Turning to the financial issue, my basic argument is that 
the United States has no binding legal obligation to pay 
assessed contributions to the United Nations, for peacekeeping 
or for other purposes. Whatever may be the ``political,'' 
``diplomatic,'' or ``moral'' arguments or interests at stake, 
the issue is not ``legal'' in any conventionally understood 
sense of that term in the United States. This argument is fully 
supported by both judicial and legislative precedent, 
stretching over nearly the entirety of American history. While 
this legal conclusion differs from what passes as the 
contemporary conventional wisdom, I believe that it is the 
conventional wisdom that is wrong. I offer these thoughts in 
the form of propositions, which I then discuss in light of the 
applicable American legal authorities and practice.
1. Treaties have no special or higher status than other legislative 
        acts, or the U.S. Constitution.

    I have been surprised, in conversations even with 
knowledgeable and sophisticated foreign policy analysts, to 
hear repeated references to treaties as possessing some special 
status in the American legal system. I believe that the 
confusion stems from a misreading both of the Supremacy Clause 
of the Constitution, and of the well-known opinion by Mr. 
Justice Holmes in Missouri v. Holland, 252 U.S. 416 (1920).

    The Supremacy Clause provides:

          This Constitution, and the laws of the United States 
        which shall be made in Pursuance thereof; and all 
        Treaties made, or which shall be made, under the 
        Authority of the United States, shall be the supreme 
        Law of the Land; and the Judges in every State shall be 
        bound thereby, any Thing in the Constitution or Laws of 
        any State to the Contrary notwithstanding.

        U.S. Constitution, Article VI, clause 2.


    The inclusion of ``treaties'' in the Clause was a 
deliberate effort by the Framers to subordinate contrary State 
laws to treaties entered into by the national government. Under 
the Articles of Confederation, States had frequently enacted 
laws which, for example, clashed with the Treaty of Paris of 
1783. Just as the Framers intended duly enacted laws at the 
national level to supersede contrary State laws, so too, 
national treaties were intended to trump State law under the 
Supremacy Clause.\1\
---------------------------------------------------------------------------
    \1\ See Reid v. Covert, 354 U.S. 1, 16-17 (1957).

    The Constitution entrusted the treaty-making power solely 
to the national government, by providing that the President 
``shall have Power, by and with the Advice and Consent of the 
Senate, to make Treaties, provided two thirds of the Senators 
present concur. . . .'' U.S. Constitution, Article II, Section 
2, clause 2. Indeed, the Framers also provided that ``No State 
shall enter into any Treaty, Alliance, or Confederation . . 
.,'' to make it completely clear that the treaty power belonged 
only to the national government. (Id. Article 1, Section 10, 
---------------------------------------------------------------------------
clause 1.)

    In Missouri v. Holland, supra, the State of Missouri 
challenged the constitutionality of the Migratory Bird 
Convention of 1916 with Great Britain, as well as statutes and 
regulations intended to implement the treaty. Missouri argued 
that the Convention, which attempted to limit the killing and 
capturing of migratory birds in the U.S. and Canada, violated 
the Tenth Amendment. The Supreme Court rejected Missouri's 
argument and upheld the validity of the treaty, as well as the 
implementing statue and regulations.

    Justice Holmes specifically concluded that ``[t]he treaty 
in question does not contravene any prohibitory words to be 
found in the Constitution.'' (252 U.S. at 433.) Nonetheless, 
his opinion added expansively that:

          It is said that a treaty cannot be valid if it 
        infringes the Constitution; that there are limits, 
        therefore, to the treaty-making power; and that one 
        such limit is that what an act of Congress could not do 
        unaided, in derogation of the powers reserved to the 
        states, a treaty cannot do.

          Acts of Congress are the supreme law of the land only 
        when made in pursuance of the Constitution, while 
        treaties are declared to be so when made under the 
        authority of the United States. . . . We do not mean to 
        imply that there are no qualifications to the treaty-
        making power; but they must be ascertained in a 
        different way. It is obvious that there may be matters 
        of the sharpest exigency for the national well-being 
        that an act of Congress could not deal with, but that a 
        treaty followed by such an act could, and it is not 
        lightly to be assumed that, in matters requiring 
        national action, ``a power which must belong to and 
        somewhere reside in every civilized government is not 
        to be found [citation omitted].

(Id. at 432-33.) Having dealt with the Convention, Justice 
Holmes summarily upheld the implementing statute: ``If the 
treaty is valid, there can be no dispute about the validity of 
the statute under article 1, [Sec.] 8, as a necessary and 
proper means to execute the powers of the government.'' (Id. at 
432.)

    Concern about the implications of Justice Holmes' dicta 
grew particularly acute after World War II, with the formation 
of the United Nations and numerous other international 
organizations, as some became concerned that the Treaty power 
might be used as a ``back door'' way to amend the Constitution. 
This concern led to an extended discussion about whether to 
amend the Constitution to provide that treaties could become 
effective internal U.S. law only through subsequently enacted 
legislation that itself would be constitutional. This debate 
over the ``Bricker Amendment,'' while inconclusive, highlighted 
the relationship of treaties to the American legal system.

    Perhaps sensing the need to quiet the concerns generated by 
Missouri v. Holland, the Supreme Court revisited the issue in 
Reid v. Covert, 354 U.S. 1 (1957). There, the Court invalidated 
the murder convictions of wives of American servicemen who had 
accompanied them as dependents overseas, and who were convicted 
of murdering them by military courts martial. A plurality of 
the Court concluded that military trials of civilians generally 
violated the Constitution, while Justices Frankfurter and 
Harlan limited their opinion only to capital cases.

    The plurality opinion by Justice Black rejected an argument 
by the government that courts martial of dependents 
accompanying the U.S. military overseas were required to 
implement international agreements made with the countries 
where they were stationed. The Court concluded that ``no 
agreement with a foreign nation can confer power on the 
Congress, or on any other branch of Government, which is free 
from the restraints of the Constitution.'' (354 U.S. at 16.)

    After quoting the Supremacy Clause, Justice Black stated:

          There is nothing in this language which intimates 
        that treaties and laws enacted pursuant to them do not 
        have to comply with the provisions of the Constitution 
        . . .. It would be manifestly contrary to the 
        objections of those who created the Constitution, as 
        well as those who were responsible for the Bill of 
        Rights--let alone alien to our entire constitutional 
        history and tradition--to construe Article VI as 
        permitting the United States to exercise power under an 
        international agreement without observing 
        constitutional prohibitions. In effect, such 
        construction would permit amendment of that document in 
        a manner not sanctioned by Article V.

(Id. at 16-17.) Justice Black added that ``[t]his Court has 
regularly and uniformly recognized the supremacy of the 
Constitution over a treaty.'' (Id. at 17) (emphasis added). He 
then concluded expressly: ``There is nothing in Missouri v. 
Holland [citation omitted] which is contrary to the position 
taken here. There the Court carefully noted that the treaty 
involved was not inconsistent with any specific provision of 
the Constitution.'' (Id. at 18.)

    Thus, for purposes of American law, treaties do not exist 
apart from or outside of that body of law, or in a position 
superior to or superseding the Constitution, or any of its 
requirements or prohibitions. Whatever the legal impact of a 
treaty--a point I turn to next--that impact must be determined 
consistently with the Constitution and subordinate American 
law.
2. Treaties are ``law'' only for U.S. domestic purposes. In their 
        international operation, treaties are simply ``political,'' and 
        not legally binding.

    Another major source of confusion about the effect of U.S. 
treaty obligations is what it means to say that they 
constitute, in the Constitution's phrase, ``the supreme Law of 
the Land.'' In normal American usage, the word ``law'' denotes 
a binding obligation. In the context of U.N. assessments, the 
argument is frequently made that these assessments are the 
result of a treaty obligation, hence are the ``law of the 
land,'' and hence are ``legally binding'' on Congress to pay in 
full and in a timely fashion.

    This line of argument is flatly incorrect. To the extent 
that adherence to the U.N. Charter carries any obligation, it 
is political in nature, and subject to allof the possibilities 
for modification or abrogation of any political arrangement. 
That renders it fundamentally different from a treaty that 
affects the domestic relationships between the government and 
its citizens, or between private citizens, as the Supreme Court 
has repeatedly recognized.

    In Edve v. Robertson, 112 U.S. 580 (1884) (the ``Head Money 
Cases''), the Court upheld as constitutional a per-person fee 
on immigrants, to be used for the support of those who need 
care or assistance after landing. The ship owners challenging 
the fee's validity argued that the statute establishing the fee 
violated several U.S. treaty obligations. The Court rejected 
this argument, and in so doing articulated the 
importantdistinction between the effect of treaties in the 
international arena, on the one hand, and within the United 
States, on the other. With respect to the international arena, 
the Court said:

          A treaty is primarily a compact between independent 
        Nations. It depends for the enforcement of its 
        provisions on the interest and the honor of the 
        governments which are parties to it. If these fail, its 
        infraction becomes the subject of international 
        negotiations and reclamations, so far as the injured 
        party chooses to seek redress, which may in the end be 
        enforced by actual war.

(112 U.S. at 598.)


    With respect to a treaty's domestic impact, however, the 
Court explained that:

          . . . a treaty may also contain provisions which 
        confer certain rights upon the citizens or subjects of 
        one of the Nations residing in the territorial limits 
        of the other, which partake of the nature of municipal 
        law, and which are capable of enforcement as between 
        private parties in the courts of the country.

(Id.)

    In such circumstances:

          [a] treaty, then, is a law of the land as an Act of 
        Congress is, whenever its Provisions prescribe a rule 
        by which the rights of the private citizen or subject 
        may be determined. And when such rights are of a nature 
        to be enforced in a court of justice, the court resorts 
        to the treaty for a rule of decision for the case 
        before it, as it would to a statute.

(Id.) (emphasis added)


    The Supreme Court's distinction in the Head Money Cases 
echoed the same point made in The Federalist, Number 75: 
treaties ``are not rules prescribed by the sovereign to the 
subject, but agreements between sovereign and sovereign.'' As 
the Court indicates, when treaties operate as ``municipal 
law,'' they are justiciable as are all other similar legal 
requirements. ``An illustration of this character is found, in 
treaties which regulate the mutual rights of citizens and 
subjects of the contracting Nations in regard to rights of 
property by descent or inheritance, when the individuals 
concerned are aliens.'' (112 U.S. at 598.) In the international 
arena, however, resolution of disputes arising under treaties 
requires political adjustments--not legal adjudications--among 
the states party to the treaty, up to and including war.

    Precisely this kind of political environment is where the 
dispute over U.N. assessments is to be found, not in cognizable 
legal obligations. The Supreme Court has recognized:

          . . . but that circumstances may arise which would 
        not only justify the Government in disregarding [a 
        treaty's] stipulations, but demand in the interests of 
        the country that it should do so, there can be no 
        question. Unexpected events may call for a change in 
        the policy of the country. Neglect or violation of 
        stipulations on the part of the other contracting party 
        may require corresponding action on our part. When a 
        reciprocal engagement is not carried out by one of the 
        contracting parties, the other may also decline to keep 
        the corresponding engagement.

(Chae Chan Ping v. United States, 130 U.S. 581, 600-01 (1889).) 
Virtually these exact words could be used today to describe the 
rationale for the withholding of the U.S. assessed 
contributions to the U.N.

    In short, treaties are ``law'' to the extent that they 
constitutionally adjust private-private and private-public 
relationships within the United States. They are ``political,'' 
and not legally binding, to the extent that they purport to 
affect relations among national governments. There may be good 
and sufficient reasons to abide by the provisions of a treaty, 
and in most cases one would expect to do so because of the 
mutuality of benefits that treaties provide, but not because 
the U.S. is ``legally'' obligated to do so. As the Supreme 
Court observed in Chae Chan Ping: ``whilst it would always be a 
matter of the utmost gravity and delicacy to refuse to execute 
a treaty, the power to do so was prerogative, of which no 
nation could be deprived without deeply affecting its 
independence.'' (130 U.S. at 602) (emphasis added).
3. Treaty obligations can be unilaterally modified or terminated by 
        Congressional action.

    A variation of the argument that the U.S. is ``legally'' 
bound to pay whatever assessment is presented to it by the U.N. 
is that Congress lacks the power to authorize and appropriate a 
different amount. Under this variation, membership in the U.N. 
and adherence to Article 17 of the Charter strips Congress of 
the discretion over financial contributions, and ``binds'' 
Congress to the level presented by the U.N.'s billing notice. 
It is in this sense that some U.N. supporters argue that 
Congress is ``legally'' obligated to pay because the U.N. 
Charter is a treaty obligation.

    The House of Representatives rejected precisely this 
argument 201 years ago. Several provisions of the Jay Treaty of 
1796, establishing ``mixed commissions'' to address various 
issues, required appropriations to make them effective. 
Supporters of the Treaty argued that, since it had been duly 
ratified, Congress was obligated to make the necessary 
appropriations. Opponents, by contrast, argued that separate 
legislative action was required by the Constitutional provision 
that ``no money shall be drawn from the Treasury, but in 
Consequence of Appropriations made by Law . . ..'' (U.S. 
Constitution, Article I, Section 9, clause 7.)

    Historical discussion of the congressional debate over the 
Jay Treaty has concentrated on the struggle by Congress to 
obtain the negotiators' instructions. Nonetheless, while the 
debate was confused, at best, on several points, the financial 
question was also one of significance. As it turned out, the 
opponents, led by Congressmen James Madison and Albert 
Gallatin, prevailed on the financial point, certainly in the 
court of history. \2\ While the House appropriated the money 
necessary to implement the Treaty, it also adopted a Resolution 
that stated:
---------------------------------------------------------------------------
    \2\ See Killian and Beck, eds. The Constitution of the United 
States of America, Congressional Research Service (1987) at 502-03. See 
also: Samuel B. Crandall, Treaties, Their Making and Enforcement, John 
Byrne & Company (1916) at 177.

          . . . [W]hen a treaty stipulates regulations on any 
        of the subjects submitted by the Constitution to the 
        power of Congress, it must depend for its execution as 
        to such stipulations on a law or laws to be passed by 
        Congress, and it is the constitutional right and duty 
        of the House of Representatives in all such cases to 
        deliberate on the expediency or inexpediency of 
        carrying such treaty into effect, and to determine and 
        act thereon as in their judgment may be most conducive 
---------------------------------------------------------------------------
        to the public good.

(5 Annals of Congress 771, 782 (1796).) Thus, two centuries of 
precedents in this House confirm the legitimacy of the House, 
and the Senate, making their own judgments on appropriations, 
independent of any prior treaty ratification. Authorizing or 
appropriating less than the full amount of a U.N. agency's 
assessment is doing nothing more nor less than what Madison and 
Gallatin successfully urged two centuries ago.

    In the Head Money Cases, the Supreme Court also addressed 
the role of the House, compared to that of the Senate:

          A treaty is made by the President and the Senate. 
        Statutes are made by the President, the Senate and the 
        House of Representatives. The addition of the latter 
        body to the other two in making a law certainly does 
        not render it less entitled to respect in the matter of 
        its repeal or modification than a treaty made by the 
        other two. If there be any difference in this regard, 
        it would seem to be in favor of an Act in which all 
        three bodies participate.And such is, in fact, the case 
        in a declaration of war, which must be made by 
        Congress, and which, when made, usually suspends or 
        destroys existing treaties between the Nations thus at 
        war.

(112 U.S. at 599.)


    This practice is entirely consistent with an essentially 
unquestioned line of congressional practice that treaties can 
be voided or unilaterally modified by subsequent congressional 
action. The first example of such action took place shortly 
after the Jay Treaty controversy, described above. In 1798, 
relations with France had deteriorated to the point that 
Congress voided previously existing treaties between that 
country and the United States. The key explanatory language of 
the repealing statute provided that:

          Whereas, the treaties concluded between the United 
        States and France have been repeatedly violated on the 
        part of the French Government; and the just claims of 
        the United States for reparation of the injuries so 
        committed have been refused, and their attempts to 
        negotiate an amicable adjustment of all complaints have 
        been repelled with indignity; And whereas, under 
        authority of the French Government, there is yet 
        pursued against the United States a system of predatory 
        violence, infracting the said treaties and hostile to 
        the rights of a free and independent nation. . . .

(1 Stat. 578 (1798), quoted in Chae Chan Ping v. United States, 
supra, 130 U.S. at 601.) Adjusting for the different 
circumstances, of course, much of this language might seem 
applicable to the United Nations today.

    Where Congressional actions modifying treaties have been 
challenged judicially, there is an unbroken line of Supreme 
Court precedent holding that such legislative actions are 
entirely lawful and constitutional. Thus, in Chae Chan Ping v. 
United States, supra, a statute prohibiting the entry into the 
United States of certain Chinese laborers was challenged on the 
ground that it contravened existing treaties between the United 
States and the Emperor of China. The Court conceded that the 
challenged statute in fact violated the treaties indicated, but 
was not thereby invalid. The Court reasoned:

          A treaty, it is true, is in its nature a contract 
        between nations, and is often merely promissory in its 
        character, requiring legislation to carry its 
        stipulations into effect. Such legislation will be open 
        to future repeal or amendment. If the treaty operates 
        by its own force, and relates to a subject within the 
        power of Congress, it can be deemed in that particular 
        only the equivalent of a legislative Act, to be 
        repealed or modified at the pleasure of Congress. In 
        either case the last expression of the sovereign will 
        must control.

(130 U.S. at 600.)


    Moreover, Congress may exercise this authority for whatever 
reason it chooses: ``it is wholly immaterial to inquire whether 
it has, by the statute complained of, departed from the treaty 
or not; or, if it has, whether such departure was accidental or 
designed; and if the latter, whether the reasons therefor were 
good or bad.'' (Id. at 602. See also: The Cherokee Tobacco, 78 
U.S. 616, 621 (1871) (``A treaty may supersede a prior act of 
Congress . . ., and an act of Congress may supersede a prior 
treaty.''); Edve v. Robertson, supra, 112 U.S. at 597 (``We are 
of opinion that, so far as the provisions of the Act may be 
found to be in conflict with any treaty with a foreign Nation 
they must prevail in all the judicial courts of this 
country.''); Whitney v. Robertson, 124 U.S. 190, 194 (1888) 
(``By the Constitution a Treaty is placed on the same footing, 
and made by like obligation, with an Act of legislation. Both 
are declared by that instrument to be the supreme law of the 
land, and no superior efficacy is given to either over the 
other. [I]f the two are inconsistent, the one last in date will 
control the other. . . .''); Reid v. Covert, supra, 354 U.S. at 
18 (``This Court has also repeatedly taken the position that an 
Act of Congress, which must comply with the Constitution, is on 
a full parity with a treaty, and that when a statute which is 
subsequent in time is inconsistent with a treaty, the statute 
to the extent of conflict renders the treaty null.'').)
4. American Constitutional requirements override ``international law.''

    There may be those who contend, even despite what I believe 
to be the overwhelming weight of American legal authority, that 
the United States is still somehow ``bound'' to pay the U.N.-
billed assessed contributions. The only logical way to make 
such an argument, however, is the willingness to assert that 
there is a ``higher'' authority--an authority over and above 
the Constitution--that somehow compels such a result. Some have 
argued that ``international law'' constitutes such an 
authority, and that, whatever the provisions of American 
jurisprudence, that jurisprudence is subordinate to 
``international law.'' Just as laws duly enacted by the Federal 
Government have supremacy over State laws to the contrary, so, 
by analogy, inconsistent American law must bend its knee to the 
higher controlling authority.

    I am not aware that this argument has ever been seriously 
advanced in Congress or in Federal court. If it were, I have 
little doubt what reaction it would receive. In fact, the 
Supreme Court has previously said that ``[t]he powers of 
Government are delegated in trust to the United States, and are 
incapable of transfer to any other parties. They cannot be 
abandoned or surrendered.'' (Chae Chan Ping v. United States, 
supra, 130 U.S. at 609.)

    There are, however, those who do make such arguments, in 
American academia, and abroad. While there is neither time nor 
space here to resolve the question of ``what is law?'' I offer 
a few observations. First, because there is no clear authority 
that determines what constitutes ``international law,'' it 
hardly amounts to ``law'' as that term is conventionally 
understood in a constitutional system such as ours. Indeed, the 
vast bulk of such ``law'' seems to be what commentators and law 
professors say it is. Their works may make interesting and even 
persuasive reading, but they in no sense amount to ``law.''

    Second, even if the players could agree on a baseline of 
what ``international law'' was, there is no accepted way of 
adjudicating disputes arising under that law. Even--or perhaps 
especially--the International Court of Justice is inadequate to 
the task, reflecting in part the underlying lack of consensus 
on what the ``law'' being adjudicated is in the first place, 
what precedents and procedures should govern, the course of 
reasoning to be followed, and on and on.

    Third, and most importantly, international disputes over 
treaty obligations are, at bottom, political (and, at worst, 
military). Resolution of those disputes does not turn on legal 
questions, but on the political cost-benefit analysis of the 
respective parties to the agreement in question.

    In the context of the United Nations, no purpose is served 
by pounding on the idea that the U.S. is acting ``illegally'' 
by not paying the assessments decided by the General Assembly 
or other governing bodies. Even one of the eminent treatise 
writers on the U.N. Charter concedes that ``[i]n principle, a 
right to refuse payment of assessed contributions should be 
recognized within certain limits.'' \3\ In fact, insisting on 
the supposed American ``legal'' obligation, as opposed to 
asserting valid American interests in favor of payment, betrays 
the weakness of those advocating full payment of the 
assessment. If that is the strongest argument they have, their 
position is weak indeed.
---------------------------------------------------------------------------
    \3\ Bruno Simma, ed., The Charter of the United Nations: A 
Commentary, Oxford University Press (1994) at 329.

    Finally, I conclude by pointing out that the decision of 
whether and what amount the United States should pay for U.N. 
peacekeeping, political though it may be, is not an excuse for 
obtaining benefits on the cheap. It is not a logical inference 
to argue that because the United States is not obligated to 
pay, it should not pay. Instead, the correct conclusion is that 
the United States, whether ``legally'' obligated or not, should 
meet its commitments when it is in its interest to do, and when 
others are meeting their obligations (and not just the 
financial ones) as well. This is the logic that persuades me 
that financial contributions by member States to the U.N. 
system should be voluntary, or through negotiated 
---------------------------------------------------------------------------
``replenishments,'' rather than by assessments.

    Peacekeeping is an especially good example of why 
assessments should be voluntary. There are certain peacekeeping 
missions that benefit some member States disproportionately, 
and these States should realistically be expected to shoulder a 
greater part of the costs than what would be produced by the 
U.N.'s ``capacity to pay formula'' or its ``peacekeeping'' 
formula. Voluntary contributions have a way of concentrating 
the Security Council's attention in a way that assessed 
contributions frequently do not. I would urge that the 
Committee continue to investigate ways of encouraging the 
Administration to enhance the range of voluntary as opposed to 
assessed contributions within the U.N. system.

    Thank you again, Mr. Chairman, for the opportunity to 
appear today before the Committee. I would be pleased to answer 
any questions the Committee may have.

 
  WELCOMING REMARKS BY HON. JESSE HELMS, DELIVERED IN THE OLD SENATE 
                      CHAMBER OF THE U.S. CAPITOL

                                 ______
                                 

                        THURSDAY, MARCH 30, 2000

    Distinguished ambassadors, Dr. Baker, ladies and gentlemen. 
On behalf of the Foreign Relations Committee--and, indeed, on 
behalf of all 99 of my Senate colleagues--it is my great 
pleasure to welcome you to the United States Senate.

    My colleagues and I very much appreciated the warm welcome 
you all extended to us during our visit to the United Nations 
in January, and we are grateful to have the opportunity today 
not only to repay your hospitality, but especially to continue 
the important dialogue we began in New York.

    We welcome you this morning in a room filled with history. 
The United States Senate met in this chamber from 1810 until 
1859--except for a brief period in 1814 after the British 
marched on Washington and set fire to the Capitol Building. (No 
need to worry, Ambassador Greenstock, we got over it a long 
time ago).

    It was in this chamber that the ``Great Triumvirate'' of 
Senators Daniel Webster, Henry Clay, and John C. Calhoun 
conducted some of the greatest debates in our nation's history 
during what was known as the Senate's ``golden age.'' And, 
after the Senate left for larger quarters, this chamber is 
where the United States Supreme Court deliberated until 1935, 
65 years ago.

    Now, with your groundbreaking visit to the United States 
Senate, we are adding another chapter to the illustrious 
history of this room.

    It is indeed appropriate that you have begun your visit 
today in this chamber. For in this room, two of the three co-
equal branches of our nation's government held some of their 
greatest deliberations.

    Which is significant because, for many of our friends from 
foreign lands, our tripartite system of government is a 
mysterious institution. I know it has been suggested to you 
that the President alone speaks for the United States in 
foreign affairs. And in most nations of the world--even the 
great democracies--that is indeed the case; the executive 
branch of government dominates, and has a near monopoly in the 
conduct of foreign policy.

    Not so the United States. Our Founding Fathers had a 
brilliant and revolutionary vision in establishing the 
separation of powers, and a government with three independent 
and co-equal branches, the Executive branch, the Congress, and 
the Judicial branch. For those coming from countries with 
different systems, it is sometimes difficult for visitors to 
appreciate the unique role the United States Senate plays in 
setting our nation's foreign policy agenda.

    The United States can enter into no treaty without the 
advice and consent of the Senate (some presidents have gotten 
into trouble by demanding the Senate's consent, while spurning 
the Senate's advice); no ambassador can represent this nation 
abroad without the Senate's approval; and no foreign policy 
initiative that involves the taxpayer's money can go forward 
without those funds being authorized by Congress (as you are no 
doubt aware).

    When I had the privilege of addressing you in New York, I 
said to you that if we are to have a new beginning in U.S.-U.N. 
relations, we must endeavor to understand each other better. In 
my meetings with the distinguished Secretary General and his 
staff--and in visiting with you at the U.N. I learned a great 
deal about that institution.

    To reciprocate, I have asked the Director of the Senate 
Historical Office, Dr. Richard Baker, to come here this morning 
and share with you some of the history of the U.S. Senate--the 
world's greatest deliberative body, and its role in the making 
of U.S. foreign policy. It is my hope that this will be helpful 
to you and give you a better understanding of this institution, 
the U.S. Senate.

    With the Foreign Relations Committee's visit to New York, 
and now with your visit here today, I think we can say--quite 
literally--that we are making history together. I hope that we 
can continue to do so.

 
   ROUNDTABLE DISCUSSION WITH MEMBERS OF THE UNITED NATIONS SECURITY 
           COUNCIL: CRUCIAL ISSUES BEFORE THE UNITED NATIONS

                                 ______
                                 

                        THURSDAY, MARCH 30, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

    The roundtable was convened, pursuant to notice, at 2:07 
p.m. in room SD-419, Dirksen Senate Office Building, Hon. Jesse 
Helms (chairman of the committee) presiding.

    Members of the Foreign Relations Committee present: 
Senators Helms, Grams, Frist, Biden, Sarbanes, Wellstone, and 
Boxer.

    Members of the Armed Services Committee present: Hon. John 
Warner, Chairman; and Hon. Carl Levin, Ranking Member.

    United Nations participants present:

    His Excellency Arnoldo M. Listre, Permanent Representative 
of Argentina.

    His Excellency Anwarul Karim Chowdhury, Permanent 
Representative of the People's Republic of Bangladesh.

    His Excellency Robert R. Fowler, Permanent Representative 
of Canada.

    His Excellency Wang Yingfan, Permanent Representative of 
China.

    His Excellency Jean-David Levitte, Permanent Representative 
of France.

    Her Excellency Mignonette Patricia Durrant, Permanent 
Representative of Jamaica.

    His Excellency Agam Hasmy, Permanent Representative of 
Malaysia.

    His Excellency Moctar Ouane, Permanent Representative of 
the Republic of Mali.

    His Excellency Martin Andjaba, Permanent Representative of 
the Republic of Namibia.

    His Excellency Arnold Peter van Walsum, Permanent 
Representative of the Netherlands.

    His Excellency Sergey V. Lavrov, Permanent Representative 
of the Russian Federation.
    His Excellency Said Ben Mustapha, Permanent Representative 
of Tunisia.

    His Excellency Volodymyr Y. Yel'chenko, Permanent 
Representative of Ukraine.

    His Excellency Sir Jeremy Quentin Greenstock, Permanent 
Representative of the United Kingdom.

    The Honorable Richard Holbrooke, United States 
Representative to the United Nations.

OPENING STATEMENT OF HON. JESSE HELMS, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Chairman Helms. Usually with this gavel I say ``The 
committee will come to order,'' but I want to say let us all 
come to order. Let me reiterate how much it means to all of us 
to have all of you here. I hope that it will be good for 
everybody concerned.

    Ambassador Holbrooke, Mr. President, distinguished 
Ambassadors, ladies and gentlemen, welcome to this roundtable 
discussion of the Senate Foreign Relations Committee. This is 
indeed a historic day. Just as the Senate Foreign Relations 
Committee's U.N. visit in January, when we invited you here for 
this date in March, was the first time the committee had ever 
traveled en masse to visit an international institution, this 
is the first time that the entire United Nations Security 
Council has traveled together as a group to visit the United 
States Capitol.

    I cannot tell you how honored I am as a country boy to be 
sitting here saying hello and best wishes. We are extremely--I 
wish I had Dr. Holbrooke's deep voice which would be very 
helpful--we are extremely honored to have you all here.

    Let me get down to the one point of business. When I spoke 
to you in the Security Council chamber, I said that I came to 
extend my hand in friendship and to convey the hope that we can 
work together to build a more effective United Nations. That 
hand is still outstretched. I hope that our committee's visit 
to the U.N. did advance the goal a little bit and I am 
confident that your visit here today will do a great deal, and 
that is the reason I am glad to see you.

    But I do hope that we can agree to disagree agreeably and 
proceed in friendship in a search for common ground.

    Earlier in this century, this committee was seized with the 
issue of whether or not to approve the Treaty of Versailles 
which would establish the League of Nations. The chairman of 
the Foreign Relations Committee then, Henry Cabot Lodge, was 
not implacably opposed to the League, but he was opposed to the 
radical vision of the League championed by President Wilson.

    Instead of fighting to kill the League, Chairman Lodge made 
a constructive offer. He asked for 14 common sense conditions 
to the treaty establishing the League of Nations and there was 
an outburst of discussion between the President and so forth 
that I will not go into. In any case, the point is this, that 
the League of Nations failed.

    This committee, through the leadership of Senator Biden and 
Senator Grams and many others, has extended a hand of 
friendship to the United Nations. We want very much to improve 
the relationship between us and you and to strengthen 
cooperation between our country and the United Nations on terms 
of respect and cooperation that takes into account sovereignty 
and independence of the United States of America. And I said 
that in New York and I meant it.

    We have attempted to lay out a path by which such an 
improved relationship would be possible, if not probable. In 
any case, we have invited you here today in our sincere hope 
that, through increased dialog and increased understanding, we 
can improve the U.S.-U.N. relationship. We want to work with 
you to help the United Nations serve the purpose for which it 
was designed, that is to help sovereign states coordinate 
collective action by ``coalitions of the willing,'' to provide 
a forum where diplomats can meet and keep open channels of 
communications in times of crisis, to provide the peoples of 
the world with important services such as peacekeeping, weapons 
inspection, and humanitarian relief.

    All this is important work. For my part, I sincerely hope 
that we can travel down the path of mutual respect and 
cooperation together and that our discussions today will lead 
us in that direction.

    Now then, before we begin our discussion, a few 
housekeeping notes. Our discussion will be in two parts. The 
first hour will be dedicated to U.N. reform. It will be led by 
Senator Biden and Senator Grams and I, of course. Senator 
Grams, by the way, is Chairman of the International Operations 
Subcommittee and he has been our principal interlocutor with 
the United Nations and played a critical role in crafting our 
U.N. reform package.

    We will conclude at 3 p.m. and take a 5-minute break, and 
then the Chairman of the Armed Services Committee, Senator John 
Warner, and the committee's Ranking Member, Carl Levin, will 
then lead off our discussion on U.N. peacekeeping.

    After the opening remarks, Senators and Ambassadors will be 
recognized in the order in which they seek recognition, 
alternating as much as possible between Ambassadors and 
Senators. As our custom is in the Foreign Relations Committee, 
remarks will be limited to 5 minutes and will be measured by a 
lighted timer. The yellow light when it comes on indicates that 
you have 30 seconds left, and the red light indicates time has 
expired.

    I now turn to my distinguished colleague Senator Biden, and 
after he concludes we will turn to the distinguished Ambassador 
of Bangladesh, who is the current President of the Security 
Council, then to Senator Grams, then to the Ambassador of 
Namibia, the current President of the General Assembly, and 
then to Senator Boxer.

    Senator Biden.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Thank you, Mr. Chairman and distinguished 
guests.

    Mr. President, distinguished guests, members of the 
Security Council: To repeat what I said earlier, it is truly an 
honor to have you here. I do not think we have ever had as 
distinguished a group of individuals representing so many 
nations in this Foreign Relations Committee room, and I want to 
thank you for being here.

    Let me be very, very brief. One of the reasons why we asked 
you here is you often hear emanating from us and from the press 
our views of what we should and should not do. We are anxious 
and I am anxious to hear your views. I hope we can do what I 
suspect all of you as trained diplomats do every day, and that 
is focus on the parts we agree on and not spend too much time 
on the parts we disagree on.

    Let me be more precise. I know and I understand that, on 
the issue of ``reform'' of the United Nations, that you may all 
agree that there is a need for reform of the United Nations. 
You probably all agree that we should not be telling you and 
conditioning our support for the United Nations on what we 
think reform should be. I understand that.

    But I just hope we are able to discuss frankly, if we can, 
in addition to your possible displeasure with the way in which 
we conditioned what we did, I hope we will frankly discuss what 
reforms are or are not needed in the United Nations. I doubt 
whether any one of us would suggest that moving into the 21st 
century attempting to achieve the role which many of us dream 
the United Nations can achieve of being that single most 
significant world body to help maintain order, bring peace, and 
generate prosperity in the world, I doubt whether any of us 
would think the way we are equipped today is totally sufficient 
to take us through the 21st century.

    There is a need. Every major corporation in your country, 
every major political institution, has engaged in significant 
reform because circumstances have changed. I would just 
respectfully suggest, whether we suggest it or not, many 
circumstances have changed.

    I conclude by saying that for you to understand, I hope, 
please consider that from the point of view of the average 
American they never doubted why one-quarter of the 
responsibility for dues at the United Nations should be borne 
by the United States in 1951, 1955, 1958, 1963, 1969 and 1975. 
But they have trouble understanding why that is the case in a 
fundamentally changed world in the year 2000.

    So again, I hope we will have a discussion about what needs 
to be done. I am not in any way suggesting you should refrain 
from being critical of what we have done, but we are anxious to 
hear what you have to say.

    Mr. Chairman, I yield the floor.

    Chairman Helms. Thank you, Senator Biden.

    Ambassador Chowdhury, whom I had the pleasure of sitting 
with at lunch today. We had a delightful experience, and we 
appreciate that. Ambassador Chowdhury is the President of the 
United Nations Security Council for the month of March, and we 
recognize you, sir.

STATEMENT OF HIS EXCELLENCY ANWARUL KARIM CHOWDHURY, PERMANENT 
REPRESENTATIVE OF THE PEOPLE'S REPUBLIC OF BANGLADESH AND MARCH 
           PRESIDENT, UNITED NATIONS SECURITY COUNCIL

    Ambassador Chowdhury. Thank you, Mr. Chairman. It is a 
pleasure and an honor for me to commence the discussion from 
the visitors' side, if I may say. Your visit in January, if I 
may be allowed this comment, was an ice-breaking one, and our 
visit was a chocolate-breaking one.

    But on a serious note, we believe that your visit in 
January was really, if I may, the door-opening visit. The 
dialog that you started with us is very important and we 
believe that as diplomats and I think all civilized people 
believe that dialog is the only process to reach an 
understanding, to remove difficulties, to hasten the process of 
strengthening relationships.

    So we are here to continue that process of dialog. We would 
like to repeat that here you have represented by us 15 
countries out of 188 countries of the United Nations. We are 
all members of the Security Council. Like all our fellow 
members of the United Nations, we strongly believe in the need 
for reforms. The world is changing fast. We need to adapt the 
United Nations to the changing circumstances.

    Particularly, we believe that in a post-cold war situation 
the United Nations really needs to focus itself on its 
responsibilities in the present day world and in the coming 
decades. It has to approach these new emerging responsibilities 
with a process of reform and that is what we are doing.

    You are aware, Mr. Chairman, that reform is in the minds of 
all of us. We believe that, be it big country, small country, 
rich country, poor country, all of us are interested in 
reforms. We are engaged seriously in this exercise, and I can 
tell you on behalf of my colleagues here, on behalf of myself, 
and even on behalf of the colleagues who are not present here 
that reform is taken with utmost seriousness by the U.N. 
membership.

    We want to believe that in this process of looking into our 
reforms all of us need to keep first and foremost the best 
interests of the United Nations in mind. This is the 
organization that we are engaged in reforming, so we must see 
what is in the best interests of the organization and how best 
it can serve humanity, how best you can reach out to each and 
every individual of the world to make their lives more secure, 
more peaceful. That is what we are engaged in.

    If I may say, we also should look at the United Nations in 
its totality, not only in its role in peacekeeping or the 
international peace and security area, but also in the areas of 
economic and social development, in the areas of norm-setting 
that the U.N. has done over the years.

    I come from a country which is a developing country, known 
as, categorized as a least developed country. But millions and 
millions of people in my country and countries in similar 
situations around the world have benefited tremendously from 
the work of the United Nations. The U.N. has made an impact on 
their lives.

    So we believe that we should try to do everything possible 
to make the U.N. strong, more effective, and more efficient, so 
we are engaged in this process.

    I thank you for this opportunity for me and my colleagues 
to engage in this interaction with you. We believe that it will 
be fruitful and worth our visit.

    Chairman Helms. Thank you, Mr. Ambassador.

    We will now hear from Rod Grams, Chairman of the 
Subcommittee on International Operations with oversight for 
U.N. operations, for his first comments.

    STATEMENT OF HON. ROD GRAMS, U.S. SENATOR FROM MINNESOTA

    Senator Grams. Thank you, Mr. Chairman.

    As a supporter of the U.N. and Chairman of the 
International Operations Subcommittee, which as you mentioned 
oversees the United Nations, I want to thank you for extending 
the invitation to members of the Security Council to visit the 
Senate. I would also like to express my sincere and personal 
gratitude for all the Ambassadors who have made the effort to 
be here as well. I thank you very much.

    Congress, as you know, is entering a new phase in our 
relations with the United Nations and one which I am confident 
will be less adversarial in the future. I think this meeting 
will go a long way to underscore that change in tone. I share 
the belief of the Secretary General that a reformed United 
Nations will be a more relevant United Nations in the eyes of 
the world.

    So I am interested in listening and also in learning, and I 
want to perform the needed work in order for the U.N. to reach 
its potential.

    Now, as one who was involved in drafting the U.S. reforms 
benchmarks, it should come as no surprise that I believe that 
these are a good start. The Clinton administration has already 
made a certification regarding the conditions concerning U.S. 
sovereignty and $100 million of our arrears has been paid.

    The issue which now is at the forefront of all of our minds 
is the possibility of the change in the scale of assessments in 
the regular budget and for peacekeeping activities. As you 
know, payment of $475 million in U.S. arrears plus $107 million 
in debt relief is at stake. Given the top three U.N. budget 
contributors in calendar year 2000 are assessed a total of 
55.43 percent, while the other 85 member countries are assessed 
a total of 44.57 capability, I would be interested in hearing 
today your views about the assessment formula, how it can be 
altered to provide a broader base of support for U.N. 
operations, although I must add that, having twice served as a 
congressional delegate to the United Nations, I am convinced 
that some of the year three conditions, including the anti-
nepotism provision and the code of conduct and also creating a 
mechanism to sunset outdated programs, may be harder to achieve 
than the changes we are going to discuss in the substance.

    In the introduction to his reform proposal, the Secretary 
General stated the major source of institutional weakness in 
the United Nations is that certain organizational features have 
become--and I quote from the Secretary General--``fragmented, 
duplicative, in some areas ineffective, and other areas 
superfluous.''

    I think we all recognize that, even if the U.N. decides to 
implement every benchmark in the Helms-Biden legislation, that 
fundamental shortcomings will not be completely corrected. I 
hope we can work together in a very constructive way to 
consider even more far-reaching reforms than have been proposed 
to date.

    To this end, the chairman and I have asked the U.S. General 
Accounting Office to prepare a report on the success of the 
Secretary General's reform initiatives and, while the 
preliminary findings are very complimentary regarding the 
changes in the management structure at U.N. headquarters and 
the human resources system, according to GAO there is no system 
in place to monitor and evaluate program results or the 
impacts.

    In other words, the U.N. undertakes numerous activities on 
social, economic, and political affairs, but the Secretariat 
cannot reliably assess whether these activities have made a 
difference in people's lives and whether they have improved 
situations in a measurable way.

    I am very interested in your assessment of how well the 
U.N. can demonstrate it is making a difference, which it is 
undoubtedly doing in many areas. I strongly believe that the 
U.N. is an important forum for debate between member states and 
a vehicle for joint action when warranted. However, the U.N. 
must enact reforms to provide transparency and accountability 
so that it can be embraced as an asset.

    In closing, I sincerely hope, for the good of the United 
Nations, that you will join the United States in this mission. 
Again, like I stressed several times, I look forward to hearing 
from you on how you view this and what your recommendations 
will be.

    Thank you very much.

    Chairman Helms. Well said, Senator, and I thank you very 
much.

    Senator Biden and I have decided that we have forgiven the 
United Kingdom for what they did to the U.S. Capitol some years 
back. Ambassador Greenstock of the United Kingdom.

    Mr. Ambassador, would you comment on paternity leave while 
you speak? [Laughter.]

  STATEMENT OF HIS EXCELLENCY SIR JEREMY QUENTIN GREENSTOCK, 
         PERMANENT REPRESENTATIVE OF THE UNITED KINGDOM

    Ambassador Greenstock. Thank you, Mr. Chairman. I have my 
matches safely in my pocket today.

    Chairman Helms. Please pull your microphone closer. You are 
a soft-spoken man.

    Ambassador Greenstock. I want to respond to this real 
opportunity to have a further dialog on roles of the United 
Nations. I think we must get down to some of the questions that 
Senator Grams has raised.

    First of all, I want to make a little apology, Mr. 
Chairman. I would like to apologize for my abruptness recently 
in saying that the United States had muffled its voice and 
stained its reputation by falling behind in its obligations to 
the United Nations. When the voice of the United States at the 
U.N. is the voice of Ambassador Holbrooke, ``muffled'' is not 
the first word that comes to mind. So I think I ought to 
explain myself.

    Mr. Chairman, the United Nations is looking to the United 
States for the same thing that the States were looking to King 
George the Third for and did not get: the right balance between 
representation and taxation. Ambassador Holbrooke is trying to 
achieve that, but he is fighting to be heard in the United 
States.

    What is at stake is the collective effort amongst nations 
to control the process of change in the world, what we call 
globalization, and the U.S. and the U.N. are the two collective 
institutions that have the greatest influence on and bear the 
greatest responsibility for that process of change.

    Now, the U.N. without the United States is, I think, a 
limbless organization and the United States without the United 
Nations lacks the reach and the democratic force to produce 
that controlled change. The question we have come to ask this 
committee this afternoon is this: Is the United States prepared 
to invest in a United Nations that will not realize its full 
potential without that investment? Like any good investment, it 
is going to carry some risk. But unless you take that risk, you 
will never get the higher return that you need in your own 
interests.

    Now, this is, Mr. Chairman, directly relevant to the 
discussion about U.N. finances. U.N. membership is rightly 
focused on the capacity to pay of each country in the United 
Nations, and the United States is using that principle as an 
argument to get other nations to change their payments to fit 
with modern economic circumstances. But if the U.S. is uniquely 
to be excused from that principle, why should the rest of us 
buy into it?

    I think the only effective answer is that as a result the 
United States will be a consistent and willing partner of the 
United Nations, choosing unilaterally and voluntarily to put 
its full strength behind what the United Nations is and is 
going to become. That decision has to be made within the 
process of change and not after it, because otherwise we may 
lack the capacity to do everything that we need to do.

    Now, to come to Senator Grams' point, the U.N. is engaged 
deeply on a reform process and in the next 4 months there are 
going to be three separate reviews or reports which are 
relevant: the Secretary General's report on the U.N.'s role; 
the review of the internal management of the United Nations, to 
report this summer; and a review of peacekeeping going on now.

    It is essential to have the United States fully involved in 
this work with its voice clear and uncontested as an 
uninhibited partner of the United Nations. Then we may be 
laying the basis for a partnership which will control change.

    Thank you, Mr. Chairman.

    Chairman Helms. Thank you very much.

    Next is Senator Barbara Boxer, a delightful lady who serves 
on our committee. I have gotten to know her real well in the 
matter of this term. She is the ranking member of the 
Subcommittee on International Operations, which has oversight 
of the U.S.-U.N. relations, and she is recognized for--you are 
recognized for making your comment. You may proceed.

 STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman. I would like to 
commend you and Senator Biden and Ambassador Chowdhury for 
arranging this very historic meeting, and I want to extent on 
behalf of the people of California the warmest welcome to our 
guests, the Ambassadors of the U.N. Security Council. We are 
truly proud to have you here in these historic rooms.

    I had the great privilege, at the invitation of Ambassador 
Holbrooke, to visit the United Nations in December. It was a 
most rewarding experience for me and I was greatly impressed as 
I listened to the debate at that time. It was about Bosnia. I 
was greatly impressed in what I heard and how I saw people 
striving to make progress on a very difficult issue.

    One month later, our Chairman, Senator Helms, went to the 
United Nations. As Ambassador Chowdhury pointed out, it was a 
breakthrough, it was an ice-breaker. I thought what was really 
very interesting about that was how he spoke so directly to 
you. I think that is a high compliment. I think when things are 
difficult and you do not agree and you have problems, if you 
lay those out unequivocally it is a high compliment to the 
people, even though it may be not that pleasant a message.

    The fact that someone respects you enough to speak from the 
heart and tell you how he feels I think is very important. And 
I said that to my chairman. Although I did not agree with him, 
he said it, it is in his heart, and this is what he believes.

    One of the things I think Ambassador Holbrooke has been 
trying to do, and I think very successfully, is to try to 
explain to all who do not reside in our country and who do not 
exactly understand it the way things work here. We have to 
reach a compromise on many things, particularly when we have a 
divided Government as we do. Unlike in Great Britain where you 
have the same party in control, we deal with different 
ideologies and different ideas. So we must resolve these 
questions.

    I think that this going in was very, very important. Now, 
as the chairman has alluded to, I have spent only a short time 
on this committee. I am a new appointee. I am the only woman on 
the committee. I am proud to be here. But I do feel my State of 
California has a unique relationship with the United Nations. 
As you all know, the Charter was drawn up and signed by the 
representatives of 50 countries at the conference which met at 
San Francisco from April to June 1945. So we are very proud of 
our involvement back in our State.

    In the aftermath of World War II, in the tragedy of the 
Holocaust, the purpose and dream of the U.N. was to preserve 
peace through international cooperation. And despite our 
problems and our challenges, I know we are all keeping that in 
mind. That is why it is so worth the debate to resolve these 
problems of reform, because the dream is really alive today and 
that dream of peace through international cooperation cannot 
die.

    So we must resolve the problems that we face. Today there 
are many problems and we all see it differently. From my 
perspective it is preventing ethnic conflict, protecting the 
Earth's environment, stopping the proliferation of weapons of 
mass destruction, assuring the equal rights of women. These are 
all issues that can only be solved through international 
cooperation. One nation cannot solve all these problems alone.

    That is why the United Nations is as important today as it 
was in the years following World War II, and that is why the 
American people support the United Nations, giving it their 
highest approval rating since 1959.

    One challenge I briefly want to mention is the threat of 
infectious diseases, such as TB and AIDS. These epidemics know 
no boundaries and demand an international solution, and I am 
very proud of Ambassador Holbrooke and the Security Council for 
their discussion in January on the spread of AIDS, particularly 
in sub-Saharan Africa. It was the first time ever that an 
international health issue was discussed before the Security 
Council, truly an historic event that recognizes the security 
implications of the AIDS crisis.

    I want to compliment my chairman and my ranking member 
because, with their help, Senator Gordon Smith and I, we 
reached across party lines to do this. We were able to get 
through the committee a wonderful initiative to take on the 
problems of AIDS and tuberculosis, and I think members of the 
Security Council would be pleased to hear that America is 
really stepping forward on this.

    So Mr. Chairman, again I am very pleased to stand together 
and work with you and Senator Biden and Senator Grams on 
resolving some outstanding problems that we may have.

    Chairman Helms. Thank you very much.

    Now we have our friend from Namibia, Ambassador Andjaba. I 
hope I pronounced your name right. I did?

     STATEMENT OF HIS EXCELLENCY MARTIN ANDJABA, PERMANENT 
           REPRESENTATIVE OF THE REPUBLIC OF NAMIBIA

    Ambassador Namibia. Yes, you are right, Mr. Chairman.

    Mr. Chairman, I will be brief, and I will start with what 
you already know and that is that you have a right man at the 
U.N. at the right time, and that is my dear colleague and 
friend Ambassador Holbrooke. He is working very hard, very 
tirelessly, to improve the U.S.-U.N. relationship. But most 
importantly, Mr. Holbrooke needs your assistance, Mr. Chairman. 
He needs the assistance of this committee.

    The U.S. needs the United Nations and the United Nations 
needs the U.S. This was said so eloquently by Ambassador 
Greenstock.

    Namibia attaches great importance to reform, but we also 
believe that reform should not be an end in itself. We also 
believe that a hasty reform without implementing decisions will 
weaken the organization. Mr. Chairman, we also believe that 
reform must accentuate the needs of millions of people around 
the world, in particular those who live in poverty, those who 
live in conflict situations, and those living with HIV-AIDS and 
other diseases. Reform should not put these people in positions 
where their aspirations are compromised.

    Namibia today is known as one of the success stories for 
the United Nations. We should then work together, all of us 
nations, big and small, and maximize those successes for the 
benefit of all of us irrespective of where those successes are.

    Let us work together and help the United Nations address 
the needs and the problems that we ourselves have assigned it 
to do. Without the necessary resources, without the support, 
the United Nations will not be able to address those problems 
that we have asked it to address.

    Thank you, Mr. Chairman.

    Chairman Helms. Thank you, sir. We are honored to have you 
here today along with your comments.

    I guess we throw it open now. Senator Biden, anyone who 
seeks recognition? Ambassador van Walsum, the gentleman from 
The Netherlands.

STATEMENT OF HIS EXCELLENCY ARNOLD PETER VAN WALSUM, PERMANENT 
               REPRESENTATIVE OF THE NETHERLANDS

    Ambassador van Walsum. Thank you, Mr. Chairman.

    Mr. Chairman, I would like to make it very clear that my 
country--and I am not here in my personal capacity. We are not 
here as the Security Council, but we are here as individual 
members of the Security Council, so I do not speak in my 
personal capacity, but I am speaking as the representative of 
The Netherlands on the Security Council.

    My country supports all your insistence upon reform at the 
United Nations, but I cannot help saying once again that we do 
not like to do so under the pressure of the Helms-Biden 
legislation. Let me put it in a more positive way: We would 
like to cooperate with you to bring about reforms, but I am 
sure we would do so even more enthusiastically if at a certain 
time in the future the Helms-Biden legislation was repealed.

    Senator Biden. Well said.

    Ambassador van Walsum. What disturbs us about the Helms-
Biden legislation is the conditionality. I spoke about that on 
the 20th of January and I will not do so again. But it is an 
element which we do not like. The element which we do not like 
is the concept of withholding money, money that is due under a 
treaty obligation, to enhance one's influence on a given 
process.

    The reason that we are so sensitive about that is that my 
country is in relative terms pouring money into the United 
Nations and getting very little influence in return. The 
Netherlands is a country with fewer than 16 million inhabitants 
and last year it spent over 40 million U.S. dollars on assessed 
contributions and over $365 million on voluntary contributions 
to the United Nations.

    In the scale of assessments for the regular budget, The 
Netherlands ranks among the top ten contributors. Moreover, 
with a percentage of .81 of GNP, it belongs to the top seven 
country contributors of net official development assistance.

    For all this, it obtains very little influence in return. 
It does currently sit on the Security Council, but that is only 
for a term of 2 years and it enjoys that privilege on average 
only once in a generation.

    If our parliament should approach this situation even 
remotely along the same lines as the Senate Foreign Relations 
Committee, The Netherlands would seriously consider leaving the 
United Nations. If we did, some people might be sorry, but the 
United Nations would continue to exist. And that is the crucial 
difference between our two countries. The United Nations cannot 
survive without the United States, and this is why we cooperate 
and why we agree that a solution has to be found.

    But it should be clear that we are not cooperating because 
we think your arguments are valid, but simply because we feel 
that the United States has to not only stay in the United 
Nations, but has to be a committed, influential member. So we 
are not--I just want to make that clear. We are not persuaded 
by your arguments, but by our enlightened self-interest.

    Thank you, Mr. Chairman.

    Senator Wellstone. Mr. Chairman.

    Chairman Helms. Mr. Wellstone.

    STATEMENT OF HON. PAUL D. WELLSTONE, U.S. SENATOR FROM 
                           MINNESOTA

    Senator Wellstone. I kind of like the comments from the 
Ambassador from The Netherlands in some ways. I understand his 
point and I think I find myself more or less in agreement with 
him.

    I just wanted to also thank everyone here, all of the 
Ambassadors. Ambassador Holbrooke, thank you for your wonderful 
work.

    I just wanted to say to all of my colleagues that, as I 
think about this world that we live in and I think about my 
grandchildren--and I now have six--I really see the United 
Nations playing a really important role, a very important role. 
Senator Boxer talked about that, whether it be in public health 
or whether it be trying to deal with the proliferation of 
weapons of mass destruction or whether it be a sustainable 
environment or whether it be what my colleague from Namibia 
referred to as just the whole issue of justice for people and 
uplifting of living standards of people or whether it be a 
peacekeeping force--I know that Senator Warner is going to be 
chairing a session on this--that can get ahead of some of the 
genocide that we have seen and prevent it.

    I just think that ultimately this international 
organization is going to be terribly important for making this 
a better world. So the whole issue really becomes when we talk 
about reform, it still becomes reform for what priorities, 
reform for what mission, reform for what vision, and I am very 
focused on those questions.

    Thank you, Mr. Chairman.

    Chairman Helms. Thank you, Senator.

    Who seeks recognition? Ambassador Wang.

      STATEMENT OF HIS EXCELLENCY WANG YINGFAN, PERMANENT 
                    REPRESENTATIVE OF CHINA

    Ambassador Wang. Thank you, Mr. Chairman.

    I came to New York in February, so I missed your discussion 
with the members of the Security Council in January. But before 
I came to Washington I did my homework by reading your 
statement in the Security Council, and from your statement I 
picked some words which I think are very important. You stated 
``friendly atmosphere and understanding.''

    I am glad that this afternoon we have this very friendly 
atmosphere and our objective through our discussion is to have 
a better understanding, which I think we could manage to 
achieve.

    My colleagues in the Council have talked about the point 
that the United Nations needs the United States, but I think we 
should stress another point. That is, the United States also 
needs the United Nations very much. Probably I wish to change 
``the United Nations'' into ``the world.'' The world needs the 
United States and the United States needs the world as well.

    Every nation in the world pays great importance to its 
relationships with the United States, including the People's 
Republic of China. The Sino-U.S. relationship is a priority 
among our relations with countries indeed. We do hope we have 
very constructive, stronger relationships.

    Then, in this interdependent world, the United States, 
although the only superpower left, you cannot manage everything 
without the support of other countries in the world. I hope 
this point could be seen by many American people, especially 
the representatives in the House and in the Senate.

    We talk about reform. For the Chinese people we all know 
that reform is very important in our world. For the last 20 
years or more, every Chinese has benefited from the reforms we 
have carried out in our country. When we look at the United 
Nations, which has functioned more than half a century, 
certainly we need reform if we want to make this unique 
institution more effective.

    So there's no doubt that we should have reform, but in what 
way we should carry out reforms is very complicated. We had 
this United Nations half a century ago as a mechanism for world 
peace and for development of each nation which has its 
representative in this organization.

    We call it United Nations, but, very unfortunately, the 
nations are not quite united yet. So that is the problem. We 
had the cold war and even after the cold war we still had a lot 
of differences in the United Nations on many world issues. But 
how to have a better world when we look ahead for the new 
century, the millennium, and the millennium summit and the 21st 
century's U.N. role. I think we have to try to achieve unity in 
the United Nations, better unity in the United Nations.

    We have a lot of differences among the 188 members because 
conditions, economic development levels, vary from country to 
country. But we have not been coming to the United Nations 
because of differences. We have come here for something we can 
work for together, the common interest. So we have to work 
together through the differences for the common ground, for the 
common interest, where we can really be united so to have an 
effective United Nations.

    About reform, I would say that this morning when I had the 
tour of the Congress, when I had a briefing on the history of 
the Senate, I was struck by the point that when you had 37 
States in the Senate or in the Congress you passed some rules 
or laws to protect the majority of the States, I mean the 
interests of smaller and weaker States. For instance, when you 
adopt something you have to get two-thirds majority, in order 
to prevent the fact that the Senate might be dominated by the 
few important and stronger States.

    I think in the United Nations when we have reform we have 
to defend or try to defend the weaker states or smaller states 
to have their interests well represented and well defended in 
this unique world body.

    So when we discuss some particular issues or concrete 
issues we have to bear it in mind in our world we have some 
rich and strong powers like the United States, but we have a 
lot of not so strong and quite poor nations. So if they have a 
common interest, the interest of each member of the United 
Nations is well represented, well defended there, maybe we 
would make this United Nations more effective, not only for the 
few but for every nation.

    Thank you.

    Chairman Helms. Thank you. You are the Ambassador of your 
country?

    Ambassador Wang. Yes. I am currently more than 40 days in 
New York.

    Chairman Helms. What I want you to do is to talk to him 
about a conversation we had in this hearing room, Ambassador.

    Ambassador Wang. Thank you.

    Chairman Helms. Before recognizing the next speaker, please 
be advised that we will recognize three more before a short 
break and then turn to peacekeeping with Senator Warner. So 
three more.

    Senator Biden. Mr. Chairman, Ambassador Yel'chenko of 
Ukraine and Ambassador Fowler of Canada have both sought 
recognition.

    Chairman Helms. And Mali.

    Senator Biden. With the Ambassador from Argentina is four. 
I will let you, Mr. Chairman, pick them.

    Chairman Helms. And Senator Sarbanes. I do not know if that 
is four, but we will do it that way. You may proceed, sir.

STATEMENT OF HIS EXCELLENCY VOLODYMYR Y. YEL'CHENKO, PERMANENT 
                   REPRESENTATIVE OF UKRAINE

    Ambassador Yel'chenko. Thanks very much, Mr. Chairman. I 
thank you for your invitation. I am grateful to you for the 
opportunity to be here and the invitation we received. I am 
also thankful to you because I come from a country--and now let 
me quote from the statement of Ambassador Holbrooke during the 
January meeting in New York--``a country whose independence, as 
we all know, you strongly supported earlier than anyone else, 
in the United States.''

    Let me say that I fully agree with my colleagues who said 
that we cannot imagine the United Nations without the United 
States. But it seems to me that, as China said, that the United 
States needs the United Nations no less than any other country 
of this organization.

    We are aware of the problem which you have, the problem of 
reform. Let me say that Ukraine is as critical about the United 
Nations as the United States, and I fully share the words of 
Senator Grams. On the issue of arrears, let me say, as you well 
know, Ukraine is No. 2 after the United States as regards its 
arrears to the United Nations. We owe more than $200 million to 
this organization. But when you go to the Ukrainian parliament 
you will not hear from a single member of the parliament that 
Ukraine is not going to pay that, although more than two-thirds 
of our arrears is a result of a fully unjustified decision by 
the Committee on contributions made back in 1992. But we think 
this is only a matter of time for us to pay.

    But let me say once again that we fully respect and we 
share your opinion that the United Nations should reform more 
actively, the internal oversight should be strengthened, the 
budgetary process should become different. But this will become 
possible only if it is supported by our joint efforts.

    Again, I think that if the United States will be as active 
as it is now as it is being represented by Ambassador 
Holbrooke, then everything would be OK.

    Thank you.

    Chairman Helms. Thank you, sir.

    Senator Sarbanes.

 STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR FROM MARYLAND

    Senator Sarbanes. First of all, I was pleased to hear that 
very strong endorsement of our Ambassador to the United 
Nations. We think highly of Richard Holbrooke and we are glad 
to hear that that attitude also prevails amongst his colleagues 
in the Security Council.

    Mr. Chairman, I just wanted to take a moment or two to 
welcome our guests. We are very pleased they are here with us 
today in order to discuss important issues with respect to U.N. 
activities.

    It is my own firm belief that the interests of the United 
States have been served by our country's active participation 
in the United Nations and the U.N. system. I think any fair and 
objective evaluation over the course of the U.N.'s existence 
would support that observation, and I think our task now is to 
assist the United Nations to meet the challenges of the new 
century.

    I think we should be very strongly committed to that. The 
cold war that followed the end of World War II, of course, put 
the United Nations system into something of gridlock over quite 
a sustained period of time. Now, with the cold war over, new 
challenges have arisen that are testing the resolve of the 
international system.

    The U.N.'s work for peace and prosperity has never been 
easy, but the difficulty of the task has increased in part 
because the nature of the conflicts the U.N. is asked to 
address have become more complex. Warfare is increasingly 
conducted within national borders by parties who do not respond 
to political or economic pressure, and often involve forces 
that lack discipline and clear chains of command.

    Civilians are not only caught in the crossfire; they 
actually become the targets or pawns of the violence. And you 
have the vast refugee flows and complex humanitarian 
emergencies.

    Now, in my perception the U.S. seeks U.N. resolutions to 
provide a mandate for actions we seek to take, often with 
others, to serve and protect the international peace and 
prosperity. This of course often elicits significant 
contributions from other countries. Sometimes in fact it is 
other countries that put their troops on the line in order to 
accomplish important objectives of which the United States has 
been very supportive.

    By the end of 1999, the figures I have been given are that 
the U.S. had 677 persons involved in U.N. peacekeeping 
operations out of a total number of U.N. peacekeepers of 
18,410. If we did not have the U.N. and the U.N. system, it 
would either fall to the United States to respond to these 
various crises on our own, at greater costs and risks to 
Americans, or alternatively to suffer the potential 
consequences of doing nothing and allowing conflicts to spread 
and intensify.

    We often talk about burden-sharing and obviously it is very 
important to achieve the right ratio. But I think we ought to 
regard the way the U.N. system works as a very important form 
of burden-sharing, if the system was not there, and if the U.S. 
wanted to do something about a problem, we would have to do it 
on our own or, alternatively, not act and then bear the 
consequences of inaction.

    Besides important peacekeeping work, the U.N. is involved 
in many worthy efforts around the world. The World Health 
Organization, working in concert with USAID and other agencies, 
led a 13-year effort resulting in the complete eradication of 
smallpox, saving an estimated $1 billion a year in vaccination 
and monitoring. It helped, the World Health Organization 
helped, wipe out polio in the Western Hemisphere. Through its 
High Commissioner for Refugees, Children's Fund, Development 
Program, the International Fund for Agricultural Development, 
and the World Food Program, the U.N. has literally saved 
millions from famine and provided food, shelter, medical aid, 
education, and repatriation assistance to refugees around the 
world.

    So Mr. Chairman, I am very pleased that these distinguished 
Ambassadors have come to the Senate today to share their views 
with us on the important role that the U.N. has played and I 
very much hope will continue to play in the years ahead.

    I am pleased to extend this warm welcome to our 
distinguished visitors from the Security Council.

    Chairman Helms. Thank you, Senator.

    We have two Ambassadors who wish to be recognized. First, 
Ambassador Fowler of Canada and then Ambassador Ouane.

    Ambassador Ouane. ``WON.''

    Chairman Helms. Well, I appreciate the correction.

    Ambassador Ben Mustapha. Mr. Chairman.

    Senator Biden. Mr. Chairman, I know we are running short on 
time on Senator Warner, on the peacekeeping piece here. Maybe 
we could recognize the two Ambassadors you just recognized, 
have Senator Warner then open, and then recognize our friend 
from Tunisia to speak at that time. Would that be appropriate?

    Ambassador Ben Mustapha. Yes.

    Chairman Helms. Ambassador.

 HIS EXCELLENCY ROBERT R. FOWLER, PERMANENT REPRESENTATIVE OF 
                             CANADA

    Ambassador Fowler. Thank you, Mr. Chairman, and thank you 
for your extremely warm welcome here today. We've enjoyed 
ourselves. You provided a wonderful, splendid lunch, an 
excellent tour. I enjoyed reverting to the role of history 
student. I was particularly glad to see the full magnificence 
that has become of what my ancestors tried to burn down some 
years ago.

    As a Canadian history student, I learned very carefully 
that that was the result of your attacking Toronto. But I must 
say that, as a young Montrealer, I never thought it was a 
terribly bad idea. [Laughter.]

    But it is very good of you to have received us so well.

    Mr. Chairman, I would like to join our President in 
underlining the fact that the Security Council has no mandate 
whatsoever for financial issues, but we are, all 15 of us, 
members of course of the General Assembly and we all therefore 
have views as members of the General Assembly regarding the 
issue that we are discussing this morning, and obviously it is 
in that guise that we are addressing this issue.

    When we get to Senator Warner's issues in a moment, we will 
approach more directly the area of the mandate of the Council.

    Mr. Chairman, if I could begin by expressing some views on 
issues that were raised by my neighbor (in every sense), 
Senator Grams, and to acknowledge, as I know he would agree, 
that of course not only is the U.N. not perfect, it will never 
be perfect. It will never be Microsoft. We did not design it to 
be that way.

    It represents every culture, every religion, every idea, 
every ideal, every foible, and every tendency in the world, and 
that is what we designed it to be. In the main, I think we are 
very well served by it.

    By my count, there are about 8,000 international public 
servants working for the U.N. in New York. That compares with 
something over 30,000 working here for you on the Hill. We have 
overlap and duplication and so do you. There are 50,000 U.N. 
international public servants working around the world, doing 
the things that Senator Sarbanes catalogued so effectively a 
moment ago, and, again, I think they are serving us well.

    The U.N. at the senior levels is served by as dedicated a 
group of international public servants as I have ever seen. 
That said, we all must ensure that efficiency is the order of 
the day. I participated in cutting almost a quarter out of the 
Canadian public service and I assure you that we Canadians are 
not anxious to see waste and inefficiency in the international 
public service that we would deplore and find unacceptable at 
home.

    Our Secretary General has said that reform is not an event, 
it is a process, and it is something that we, I think all of 
us, must work on every day and in every way, and I think we are 
making progress in that regard. But Mr. Chairman, the U.N. 
today is, I believe, significantly sub-optimized. That is 
principally because the United States is not acquitting its 
full fiscal obligations and, even more, because we are deprived 
of your energy and commitment and, indeed, your leadership.

    Just imagine what Dick Holbrooke's engagement on 
fundamentally important issues like peace and security in 
Africa, the blight of internally displaced persons, or the 
countless millions of people around the world afflicted with 
AIDS; just imagine what his brand of energy and engagement 
could accomplish if Dick were not weighed down in his task by 
financial delinquency and American ambivalence toward the 
organization which he serves so admirably. Just imagine what 
America could achieve in the world were it to leverage its 25 
percent in this organization to make it really strong.

    I am confident, Mr. Chairman, that with meetings such as 
this today, with a better understanding of each other's 
preoccupations, we will get to that stage where the United 
States will bring to bear that enormous energy with which it 
has achieved such remarkable things over your short history. If 
that energy is applied to the work of the international 
organization that we all serve, we will be able to achieve 
remarkable things together.

    Thank you.

    Chairman Helms. Thank you, sir.

    We will hear from the Ambassador from Mali and then a short 
break. Sit in here or wait in the hall or whatever you want to 
do.

    Ambassador.

      STATEMENT OF HIS EXCELLENCY MOCTAR OUANE, PERMANENT 
             REPRESENTATIVE OF THE REPUBLIC OF MALI

    Ambassador Ouane. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman. Because the time is running I will be very brief.

    I have just one comment on U.N. reform. By now it is well 
recognized that--

    Chairman Helms. Mr. Ambassador, we want to hear everything 
you say. Pull the mike closer to you, if you will.

    Ambassador Ouane. Thank you, Mr. Chairman.

    I know the time is running and I will be very brief. I have 
just one comment on U.N. reform. By now it is well recognized 
that democratization of the world already is the goal of 
international community. I do hope that the United States, in 
supporting democratic values, will take concrete steps to 
promote democratization of the world order. The process could 
begin with democratization of the U.N. system. For that reason, 
we strongly support efforts to reform the U.N. both in 
peacekeeping and the regular budget.

    Thank you.

    Chairman Helms. Thank you.

    We will now take a short break. Following that we will 
recognize you, sir.

    [Recess from 3:10 p.m. to 3:19 p.m.]

    Chairman Helms. The order of recognition beginning now, 
first will be the distinguished Senator from Virginia, Mr. 
Warner, then Senator Levin, then Ambassador Said Ben Mustapha 
of Tunisia, and I hope I have your name right. Then we will 
hear from Ambassador Holbrooke.

    So you may proceed, Senator Warner.

   STATEMENT OF HON. JOHN WARNER, U.S. SENATOR FROM VIRGINIA

    Chairman Warner. Thank you, Mr. Chairman, and I commend 
you, Senator Biden, and the members of this committee for 
holding this, the second historic meeting between the U.S. 
Senate and this distinguished international body, the Security 
Council. I was privileged to be in New York, as I am privileged 
to be here today.

    I am certain in the minds of some there is the question of 
why should the chairman and ranking member of the Armed 
Services Committee be involved. It goes back to a great 
President of this Nation, Teddy Roosevelt, who once said: 
``Always speak softly, but always carry a big stick.'' Most of 
you know far more about diplomacy and foreign policy than do I, 
but clearly, throughout history, it has been shown that a 
nation's foreign policy is largely no stronger, no more 
effective, than that nation's ability, either alone or together 
with others, to carry out that foreign policy and the will to 
use force if that force be necessary.

    My responsibility in the U.S. Senate is for the roughly 1.4 
million, a little more, a little less, men and women wearing 
the United States uniform all over the world today, working 
with our allies. Our concept of the defense of this Nation is 
one of forward deployment. No one has crossed our shores since 
our friends from Great Britain and Canada. The oceans have 
protected us. But now we put our forces with your forces to 
defend peace around the world.

    I am sorry my colleague Mr. Sarbanes departed, because I 
listened as he talked about the number of U.S. troops. Let me 
tell you that the defense budget, which I will take to the 
floor in about 6 weeks, is approximately $300 billion. It is 
twice the size of all the defense budgets of the other 18 NATO 
nations.

    I remind you, we are relatively protected here in this 
country, but we expand that to work with you in many capacities 
throughout the world in the cause of freedom. And on the 
subject of peacekeeping, I clearly say that it is a vital role 
of this organization. We the United States want to be 
considered a partner in that. And I commend my long-time friend 
Ambassador Holbrooke for his efforts, and indeed he has taken 
certain risks and leadership that no other Ambassador in that 
post in my memory, Mr. Chairman, has taken. But again, he does 
it to strengthen the relationship between this organization and 
the United Nations and our country.

    But on peacekeeping, I must say I wish to offer some 
constructive criticism. Again coming back to an old maxim in 
our country, do not take on more than you can do. We are 
heavily involved in Bosnia and in Kosovo. We have 4,000 troops, 
Mr. Sarbanes, in Bosnia and some 6,000 in Kosovo. I did not 
hear any mention of that in the totals. They may not be wearing 
blue hats, but they are there implementing the Security Council 
resolutions, the policy of the United Nations, the EU, the 
OSCE, and other international organizations.

    So we are there, and we intend to stay. You might say: 
Well, Senator, you say you intend to stay, but you are the 
author of an amendment, which has been examined, I presume, by 
most of you, an amendment which said that our President has to 
certify--in connection with the $2 billion supplemental, $2 
billion just for Kosovo--that the other nations are fulfilling 
their commitments and roles, whether it is police or dollars or 
legal infrastructure or housing or whatever it maybe. The 
reason being we in this country want to try and determine when 
our troops, together with the troops of the other 30-plus 
nations carrying out this mission, can relinquish the military 
role of peacekeeping and have it assumed by the United Nations, 
the EU, and other organizations.

    Now, I must tell you that is not a step that was favored by 
our President. Indeed, he has communicated that to me, as have 
the Secretaries of State and Defense and the National Security 
Adviser. But by pure coincidence, the resolution that I drew 
up, without a word change in it, was voted today in the House 
of Representatives. It was placed on that supplemental with the 
$2 billion. It was a very close vote. Even though the President 
brought, as we say here, the full court press against it, it 
carried with 200 votes yea for it, 216 nay, a 16-vote margin.

    It is my intention to raise the same amendment, although I 
am continuing to work with our President and his staff on the 
matter in the U.S. Senate. Now, I do not point that out as a 
threat. We wish to be in Kosovo and Bosnia, but we think when 
you take these missions on you have got to bring to bear in a 
timely manner the infrastructure that is necessary to achieve 
our goals.

    Now, you are thinking about taking on missions in Sierra 
Leone and the Congo where human rights cry for relief, there is 
no doubt about that. But I ask of you rhetorically: Do you have 
the assets, do you have the commitment to take on those 
additional missions, when the Kosovo, Bosnia, East Timor 
missions are far from concluded? Do not take on more than you 
can do and do effectively.

    To continue to get the support here in the United States, 
you have got to show positive results in bringing some of these 
things to conclusion in a timely manner.

    I want to touch on Iraq. As we sit in this room exchanging 
our views, there are aviators flying from our Nation and Great 
Britain--France has stood down--taking risks of life. There are 
sailors trying to enforce the illegal trafficking of oil out of 
Iraq through the Persian Gulf. There are efforts to try and 
thwart that illegal transfer through pipelines.

    Now, can we in clear conscience ask these young men and 
women taking these risks to continue unless we are bringing the 
full might and the full weight of this organization, and indeed 
the nations themselves, to enforce the resolutions of this 
distinguished body? They may not be wearing blue hats, but they 
are in every respect carrying out the goals that you laid down.

    I may have a resolution on that situation not unlike the 
one that I have on Kosovo, because I am responsible for their 
lives, and the welfare of their families, and I must take such 
actions as I see fit, Mr. Chairman, to protect the men and 
women taking those risks today.

    So I thank you very much. We are going to be a full 
partner, but from time to time persons like myself must express 
views which may not be well received. But I will say, I have 
been here, what, 23 years and I have almost consistently voted 
in support of the United Nations and I intend to continue to do 
that, Mr. Chairman.

    Chairman Helms. Thank you, Senator.

    Senator Levin.

  STATEMENT OF HON. CARL S. LEVIN, U.S. SENATOR FROM MICHIGAN

    Senator Levin. Senator Helms, first let me thank you and 
Senator Biden for your leadership in bringing our guests here 
today. It is an extraordinary outpouring of world unity for 
improvement in the very important relationship between Congress 
and the United Nations.

    Dick Holbrooke does a spectacular job at the United 
Nations. His willingness to come here to Washington to meet 
with the Congress really is a very important step, I believe, 
in promoting a much warmer relationship between the Congress 
and the United Nations.

    I want to share a few thoughts with you as someone who 
generally has supported the United Nations and its peacekeeping 
operations. As Senator Warner said, I am the senior Democrat on 
the Armed Services Committee. So our responsibilities there are 
similar.

    I applaud the fact that the Security Council has recently 
discussed the integration of humanitarian components into 
peacekeeping operations and the matter of disarmament, 
demobilization, and re-integration of ex-combatants in a 
peacekeeping environment. I applaud Secretary Annan's 
appointment of a distinguished international panel of experts 
to study U.N. peacekeeping operations and to make 
recommendations for their improvement.

    I concur with the new chairman's initial comment that when 
peace operations are being ventured that state power, political 
will, and resources must be ensured until their completion.

    We have learned some lessons, frequently some bitter 
lessons, from some peacekeeping experiences. I believe that we 
have learned that you, the Security Council, must pay closer 
attention to on-going peace operations, and to assist you in 
doing that the Secretary General--and I believe that Dick 
Holbrooke and others have been very supportive of this--are 
urging that your Department of Peacekeeping Operations be 
strengthened, given more staff, given more resources to do the 
planning and the oversight that you need to do your job 
effectively. I welcome the news that you are going to be 
sending a mission to Kosovo next month to review the situation 
there.

    You must be realistic. Senator Warner made reference to a 
number of failures in the area of peacekeeping. I think we 
should learn from those failures. When it became clear that the 
Security Council had given the United Nations Protection Force, 
UNPROFOR, in Bosnia a mission that it was not equipped to carry 
out, one of two things should have happened. Either the 
appropriate resources should have been provided the UNPROFOR or 
the mission should have been changed.

    In Srebrenica and other places a mission was given to 
create safe havens, but the resources that were necessary to 
achieve that mission were not forthcoming, and the tragedy that 
occurred there and in other places resulted.

    We saw something similar in Somalia. Senator Warner and I 
went to Somalia to see what had happened in the aftermath of 
the tragedy and the loss of 16 American soldiers. We found that 
the mission was not clear. Its purposes were not clear. We 
engaged in nation-building without dealing with the people who 
were in control of that nation, to the extent that there was a 
nation.

    I hope that you will feel freer to use your media assets to 
ensure that member states provide the resources, both financial 
and the personnel, needed to get the peacekeeping missions 
done. We have now a situation in Kosovo where Bernard Kouchner 
is pleading for funds in order to provide the consolidated 
budget and the civilian police personnel. You have a press 
department which frequently gets word out about members who 
have paid their dues and assessments and those who have not. 
That is fine and that is appropriate. But it is also important 
that you get word out about the member states who routinely 
provide military troops, military observers, civilian police, 
and those that do not.

    Right now we desperately need civilian police in Kosovo. We 
are using troops in Kosovo for a purpose that they are not 
trained; civilian police are trained for those missions. We 
have too many countries that have not carried out their 
commitments. We have other countries that have made no 
commitments to provide for the deployment of civilian police, 
so that the peacekeeping mission can be achieved.

    I hope that you will find ways to redouble your efforts to 
get those police there. You are a unique body and you are 
visiting a unique legislative body. You have heard a lot about 
us. You know a lot about us. I think perhaps the most 
significant thing that I could say is this: The Congress has a 
unique role in foreign policy because we control the 
pursestrings. We also have oversight and other 
responsibilities. The control of the pursestrings gives us a 
special power and a special responsibility. That is true 
whether or not the same party is in control of the White House.

    Finally, these checks and balances, which are built into 
the U.S. Government, mean that power is divided. They are there 
because of the distrust of power that resulted a Revolutionary 
War. It is ironic that the world's greatest power at the 
moment, the United States, is a country that is built on an 
inherent distrust of power.

    It is a real fact of life in this Congress, with the 
division we have here. It is something we hope that you will 
come to understand, as we have, and to respect and to work 
with, as Dick Holbrooke does so brilliantly.

    Thank you, Mr. Chairman.

    Chairman Helms. Thank you, Senator.

    The distinguished Ambassador from Tunisia.

   STATEMENT OF HIS EXCELLENCY SAID BEN MUSTAPHA, PERMANENT 
                   REPRESENTATIVE OF TUNISIA

    Ambassador Ben Mustapha. Thank you, Mr. Chairman.

    Mr. Chairman, I was about to agree with the item one of the 
agenda relating to reform at the U.N. But as I see now that 
Senator Warner has already moved on to point two with his 
remarks, I will withhold and refer to our paper.

    Thank you.

    Chairman Helms. Now, a gentleman whom I did not know not 
too long ago, and the more I found out about him the more I 
admired him. We have people in this world who do and people who 
do not. This guy is a doer. Ambassador Holbrooke.

STATEMENT OF HON. RICHARD HOLBROOKE, U.S. REPRESENTATIVE TO THE 
                         UNITED NATIONS

    Ambassador Holbrooke: Thank you, Mr. Chairman.

    Mr. Chairmen and other members of the committee. My deepest 
thanks to all of you for this extraordinary day that you have 
arranged for the members of the Security Council of the United 
Nations, who are here of course in their individual capacity, 
but thank you nonetheless for all of them.

    My thanks especially to Ambassador Chowdhury and my other 
colleagues of the Security Council for coming here today in a 
very important second phase of an evolving dialog between the 
United Nations and our co-equal branch of government, as you so 
eloquently put it, Mr. Chairman, when you addressed us from the 
well of the Old Senate Chamber. I cannot tell you, as the one 
American representative here today, what a moving thing it was 
for me and my colleagues on the U.S. team to sit in those 
historic seats, which are normally closed to visitors, and 
listen to a senior American Senator speak to us from the same 
place where so much history took place.

    I will not repeat what has already been said here today 
about the importance of this deepening and broadening dialog or 
the historic nature, to use the phrase several people have 
used, because I think that speaks for itself. But I am deeply 
grateful to all of you, especially for the courtesy.

    Before I talk about peacekeeping, I would like to say a 
word about reform, with the permission of you, Senator Helms 
and Senator Biden, because your names are attached now and 
forever to a piece of legislation which is, to put it mildly, 
controversial.

    Reform is a very tough thing, as we all know. But I want to 
say to you and your colleagues on the committees, the Foreign 
Relations and Armed Services Committees, that all of us are 
trying, not just the United States delegation, which is under 
an absolute constitutional obligation to do so, and I told you 
under oath during my confirmation hearings that I was committed 
to seeking implementation of the Helms-Biden package, and I 
have tried to fulfil that commitment to you.

    But I do want to say to you, on behalf of the other 14 
nations in this room and almost all the other member states of 
the United Nations, that everyone is trying. Ambassador Fowler, 
Ambassador Andjaba, Ambassador Greenstock, and many other 
Ambassadors here have already expressed their reservations 
about some of the procedural aspects of this. But I hope that 
what was not lost in this part of the discussion is the fact 
that all of the Ambassadors in this room have told you, either 
here or when you met with them in New York, that reform is 
desirable.

    Senator Grams correctly and skillfully quoted our Secretary 
General, Kofi Annan, as supporting reform. But it is tough, as 
it is in the Congress or the executive branch. I think progress 
is being made.

    I cannot say today, Mr. Chairman, if we will succeed fully 
in achieving all your benchmarks. We have done about 80 percent 
of them already in the last 7 months, starting with getting the 
U.S. back on the ACABQ with the great assistance of Senator 
Grams, who was our first congressional visitor to New York, and 
with the support of the rest of you. But I cannot say today we 
will reach 100 percent on schedule. All I can tell you is we 
are trying, we think we are making progress, and we appreciate 
your continued support.

    I will keep you informed, as I have before, on a regular 
and daily basis. I also thank you and so many of your 
colleagues for coming to New York or for planning to come in 
the near future.

    Let me turn now to the peacekeeping issues that Senator 
Warner and Senator Levin have raised. Let me begin by saying 
that, despite all the other important things the United Nations 
does--the UNHCR, UNICEF, the specialized agencies, UNDP, our 
extraordinarily important efforts to combat AIDS in Africa--and 
we are deeply grateful, Mr. Chairman, to you, to Senator Smith 
sitting here now to my right, to Senator Boxer, and to others 
for your dramatic new initiatives to increase the amount of 
money.

    Despite the importance of all those other things, the U.N. 
is ultimately going to be judged on its ability in conflict 
prevention and conflict resolution. That is what Franklin 
Roosevelt and Winston Churchill had in mind. It is the core 
responsibility of the U.N. It is the one on which the U.N. is 
ultimately judged.

    I believe that that record has been very mixed, and in the 
last 10 years since the end of the cold war we have already 
gone through two phases and we are already in a third. In the 
first phase the U.N. expanded its peacekeeping much too 
rapidly, bit off more than it could chew, and ran into three 
spectacular disasters in Rwanda, Somalia, and Bosnia, and then 
retreated very rapidly, from a high of 80,000 peacekeepers to a 
sixth or an eighth of that number.

    Now, even in that period there were successes. Ambassador 
Andjaba has spoken eloquently in his previous meeting with you 
to the fact that the United Nations was a successful operation 
in Namibia, bringing a settlement to the problem and 
independence. That is also true of Mozambique. I think you can 
give the U.N. a qualified positive report card for Cambodia.

    But still, this was a very bad period. The U.N. was then in 
full-scale retreat. We are now in a new peacekeeping era, Mr. 
Chairman, with four big ones--East Timor, Kosovo, Sierra Leone, 
and Congo. Although Sierra Leone has not been previously 
mentioned today, I want to stress it because it is a very 
dangerous operation.

    Mr. Chairman, you and your colleagues have asked whether or 
not the Office of Peacekeeping of the U.N. is up to the job. 
Let me answer the question with a simple word: No. They are 
not. There is not one of us in the room who is happy with DPKO. 
The head of DPKO, Bernard Miyet, an outstanding international 
civil servant, does not think they are currently structured to 
do the job. The Secretary General does not.

    They have 400 or less people, 200 professionals, to 
oversee--and they are essentially the UN's ministry of defense. 
It is not going to work at the current levels. When you talk 
about reform--several of you mentioned, Senator Grams, 
Ambassador Greenstock, the Secretary General's review of the 
peacekeeping office. That is a review we are all extremely 
interested in. We are conducting our independent efforts, many 
other countries here are. We are deeply concerned about their 
ability to manage this process.

    Nonetheless, we are faced with the dilemma. If the U.N. is 
not going to do it, who is going to? In some cases, East Timor 
and Kosovo, the solution was very sophisticated. The U.N. voted 
to authorize the operation in the case of East Timor, but it 
was not conducted by the U.N. It was conducted by an 
international force led by the Australians, who did a 
magnificent job, and supported by the Philippines, Thailand, 
Malaysia, the United States, the United Kingdom, and many other 
countries. For the first time in history, I believe--correct me 
if I am wrong, Ambassador Wang--China sent civilian police to 
participate in the operation, and I think that should be noted. 
They had had some medical workers in a previous operation, but 
the Chinese participation should be especially noted.

    Now, in Kosovo the United Nations did not act until after 
NATO acted and then they in essence mandated what was already 
happening on the military side, backed up by a civilian 
operation. That was another model.

    In Africa neither model is available in its purest form. So 
Sierra Leone and Congo posed us the most difficult problems. I 
want to thank all of the four Senators at the head of the table 
in the presence of my colleagues, because all four of the 
Senators at the head of the table have approved the United 
States' support of the peacekeeping operation in Congo and 
Sierra Leone. That is very important.

    We do not yet have full approval from everyone on the 
appropriations side and we are very anxious to get that. 
Meanwhile, the DPKO, Mr. Chairman, is continuing its planning 
for the operation, with the possibility of deployment in July 
if the conditions are right. Of course, even before we make the 
final decision we need to unblock enough of the money so the 
planning can continue. There will not be American troops on the 
ground, as we have informed both your committees.

    But I want to say again that these operations in Africa--
and I am singling them out because we have elsewhere held very 
extensive hearings on Kosovo and Senator Warner and Senator 
Levin and their colleagues have been in extensive dialog with 
us on Kosovo. I want to say again how vitally important it is 
for all of us to support the U.N. and make it work in Africa.

    This is going to be a tough one. But absent that, absent 
support for the U.N.'s efforts in the Congo, I think we will 
face a much worse situation. It is better to deal with the 
causes of a crisis than to deal with its consequences.

    On that basis, Mr. Chairman, I thank you for your support.

    Chairman Helms. Thank you, sir.

    Senator Smith, we will hear from you.

  STATEMENT OF HON. GORDON H. SMITH, U.S. SENATOR FROM OREGON

    Senator Smith. Thank you. Mr. Chairman, I will be very 
brief. I am honored to join you as a member of your committee. 
I salute you, sir, and our ranking member Joe Biden for the 
efforts you have made to deepen the dialog between the U.S. 
Senate, Congress, and the United Nations.

    Senator Warner referenced Teddy Roosevelt's comment that 
American foreign policy should be about speaking softly but 
carrying a big stick. I recently read a book called In the Time 
of the Americans, which is a history of American foreign policy 
in the 20th century. American foreign policy began in the last 
century with that as our doctrine. It was followed by the 
service of Woodrow Wilson, whose views were not about a big 
stick, but moral purposes in American foreign policy.

    After the First World War, those two approaches really 
failed at the League of Nations and it took a second World War 
for military might and moral purpose to be joined together, as 
it has been magnificently done in the United Nations.

    I know that there is great frustration in the United 
Nations because of arrears of the United States. I would simply 
say to our visitors, so much of the good that the United States 
does in the world does not show up on any U.N. ledger. There 
has been reciprocal frustration in the U.S. Senate as to the 
issue of reforms and the way a lot of the moral purposes, as we 
see them, are frustrated.

    But these meetings are so valuable because we need the 
moral voice of the United Nations in the world and, when backed 
up by the military might of the United States and allies and 
people of like view, we form a union that forges such good in 
the world that we leave this planet a much better place.

    I think what our leaders have done here today by bringing 
us together is adding significantly to a better chapter as we 
start this new century.

    Thank you, Mr. Chairman.

    Chairman Helms. Thank you, Senator.

    There is one final Senator. He is a remarkable individual. 
He is a heart surgeon who has done beaucoup heart transplants. 
Bill, I want you to say whatever you want to say to our 
friends.

   STATEMENT OF HON. BILL FRIST, U.S. SENATOR FROM TENNESSEE

    Senator Frist. Mr. Chairman, thank you, and I will be 
brief. I know the hour is late and other people would like to 
speak. But I also would like to extend my welcome to everybody 
here and hopefully later today and this evening we will be able 
to continue discussions on several issues.

    I have had the wonderful opportunity of chairing the 
Subcommittee on African Affairs and just very briefly I want to 
speak to the concern that we all have about the prospects of 
long-term peace in the Democratic Republic of Congo and all of 
central Africa. Clearly the stability of that region affects 
the interests of the United States of America and failure to 
seize every opportunity to enhance the possibility for the 
resolution of conflict there would really be disastrous.

    I support the essence of the peacekeeping resolution that 
our colleagues have put forward. Yet many in this body are 
deeply concerned about the proposed expansion of the United 
Nations in the sense that it lacks some of the necessary 
elements, not because it is in Africa, but because of the less 
conducive atmosphere, in part safety, at this point in time.

    I wanted to express my own support for that ongoing dialog 
because I think that dialog will be important in this body and 
in the United States for there to be really effective 
leadership by the United States, by the United Nations, in 
working with Africa. And I look forward to continuing to pursue 
this cooperation with others in this room.

    Second, I want to mention again--I do not think it is an 
issue that we need to spend a lot of time on today, but I think 
it is important for our colleagues to understand in this body 
in particular, as represented by the Foreign Relations 
Committee and by the Budget Committee is the interest in AIDS-
HIV positivity in Africa.

    As the chairman mentioned, I am a physician. I am 
interested in public health. But I think it is very important 
again for everyone to recognize that when it comes to AIDS, 
when it comes to HIV positivity, all of our interests in terms 
of policy can be destroyed, can be undermined, if we do not 
adequately address this trend that is increasingly terrifying 
of AIDS and the increase of AIDS in Africa.

    In closing, let me just say that we have made real strides 
on the Foreign Relations Committee. Just last week we in a 
bipartisan way with a number of members on the committee, both 
sides of the aisle, added an amendment which greatly increases 
the authorization for supporting this war against AIDS. In 
fact, we doubled what the President of the United States had 
initially requested.

    I say that only because it notes the high priority that 
this Congress places on combatting AIDS worldwide and 
particularly in Africa. Just about 4 hours ago the Budget 
Committee of the United States, where we finalize the budget 
for all spending in the U.S. Senate, we established in the 
budget resolution that combatting AIDS worldwide must be a high 
priority of the United States foreign policy. That linkage 
between foreign policy and combatting AIDS is one that we 
understand and look forward to participating with others of you 
in.

    Thank you, Mr. Chairman.

    Chairman Helms. Thank you, Senator.

    Senator Warner.

    Chairman Warner. I just handed the chairman a note which 
was handed to me. An hour ago Secretary of Defense Cohen, 
because of the critical conditions in Kosovo, sent in two new 
U.S. units, one a surveillance group from Germany and the other 
a tank company out of Macedonia with tanks and artillery. So 
they may not have blue hats, but they are there and they are to 
be counted in the support of this mission.

    A serious situation over there, my good friends. We have 
got to address it.

    Chairman Helms. Senator, we have a series of distinguished 
Ambassadors who have a few words that they want to say. The 
distinguished Ambassador from Jamaica. Where are you today? 
There you are. You may proceed.

   STATEMENT OF HER EXCELLENCY MIGNONETTE PATRICIA DURRANT, 
              PERMANENT REPRESENTATIVE OF JAMAICA

    Ambassador Durrant. I wanted to join all those who have 
spoken in thanking you for the very warm hospitality extended 
to us by you and the members of the Senate Foreign Relations 
Committee and to say how much we appreciate the interest that 
members of this committee have taken in improving relations 
between the United Nations and the United States, because we 
believe--and it has clearly been expressed by all of our 
colleagues--that we all have an interest in ensuring a more 
effective United Nations.

    I hope you do not mind if I just make a few comments on the 
reform situation, because others have pointed to the fact that 
reform is an important part of what we are doing at the United 
Nations; but we agree that much still needs to be done. And 
others have pointed to the fact that, as Senator Frist just 
mentioned, the question of infectious diseases such as AIDS, 
which know no boundaries, improvement in the status of women; 
issues relating to the environment and relating to 
peacekeeping; the question of the proliferation of small arms 
in conflict areas, are issues which we all have to address.

    I mention this because we now have to deal with a very 
different situation from the past when we dealt with more 
traditional forms of peacekeeping. We are dealing with very 
complex conflicts. As Senator Warner mentioned, the situation 
is completely different in places like Kosovo than when we were 
talking about traditional peacekeeping between countries that 
have already agreed on a truce.

    But these complex conflicts and situations are the nature 
of the conflicts that we have to address, and if we do not 
address them they will cross borders and they will affect all 
our countries and they will drag us into a much wider 
situation.

    In this regard, I wanted to mention the question of the 
situation in the Democratic Republic of the Congo, which is a 
conflict which is spreading across borders, which brings in all 
countries around the borders of that country. And if we do not 
address that situation, deal with the situation of civilians 
caught in conflict, of children in conflict, deal with 
humanitarian emergencies, which in truth and in fact are 
draining resources away from what we would have spent on 
traditional development assistance--we will not be able to 
address the root causes of conflict.

    So we cannot deal with reform on the one hand, with 
development on the other, and with peacekeeping. We have to 
look at it as part of one complete whole. I hope that out of 
these discussions that we have today we will come to the 
conclusion that what we have to do is address all of these 
situations in a cooperative manner and arrive at solutions 
which will have the widespread support of the entire membership 
of the United Nations.

    Mr. Chairman, in closing I just want to recognize the 
tremendous contribution which the United States has made over 
the years, not only in peacekeeping but to all avenues and all 
operations of the United Nations across the world, and to thank 
Ambassador Holbrooke for the dynamism that he has brought to 
our work over the last few months, particularly in January when 
you visited us and began this dialog, which I know will stand 
all of us in good stead.

    Thank you, Mr. Chairman.

    Chairman Helms. Thank you very much.

    The senior Ambassador of the Russian Federation, Ambassador 
Lavrov.

    STATEMENT OF HIS EXCELLENCY SERGEY V. LAVROV, PERMANENT 
            REPRESENTATIVE OF THE RUSSIAN FEDERATION

    Ambassador Lavrov. Thank you, Mr. Chairman. Thank you for 
your hospitality.

    Of course, we are all here in our individual capacities and 
because this is not the kind of hearing, if only because I find 
it difficult to hear sometimes, but we would like to stress 
that we also value this opportunity to continue the dialog with 
you and your colleagues from the Senate on how we all as 
individuals, but some of us are influential individuals, how we 
can improve relations between the United States and the United 
Nations.

    I thank Chairman Warner for his presentation and I think it 
is good for the Pentagon that $300 billion has been authorized, 
and I also think that it is good for the world because we need 
the United States in operations like Kosovo. I am glad that, as 
Chairman Warner informed us, Secretary Cohen decided to 
increase the American presence there in a very serious 
situation and in view of the need to stop the crisis from 
deteriorating and to come back to the implementation of the 
resolution of the Security Council in full. So I believe it is 
good news.

    On the other hand, it is unfortunate that the United 
Nations still cannot get $1.5 billion, which is much less than 
$300 billion, unfortunate because, among other things, if not 
from international obligations about which my colleagues spoke, 
about some other things.

    The bulk of this money is owed exactly to contributing 
nations, to contributing nations for former peacekeeping 
operations. When Chairman Warner asks whether we all are sure 
when we decide on peacekeeping operations if the United Nations 
has resources for those operations, to a large extent the 
answer is--I mean, the question is rather hypothetical and 
maybe even artificial, because when we take our decisions on 
the peacekeeping operations countries just send their troops 
and they pay for these troops. And it is only after that these 
contributing nations are being compensated.

    Therefore, the problem of arrears, about which we spoke in 
the last hour, has also relevance to the ability of the United 
Nations to attract contributors.

    The second important factor answering the question about 
whether the U.N. has enough resources is the political will, 
nothing else, the political will. And that is the only thing 
which is necessary to take a decision on a peacekeeping 
operation, provided of course we are given information, 
analysis, and such from the Secretariat. When political will is 
present, everything is fine.

    And the U.S. can always very successfully make a very 
serious difference, like it was in the case of Haiti, when the 
U.S. was not only playing the leading role, but pushing for the 
continuation of a large peacekeeping operation which had the 
military component much bigger than the one for the Democratic 
Republic of the Congo, much larger than what we authorized for 
the Democratic Republic of the Congo.

    So my answer on the question of whether we know if we have 
the resources for peacekeeping operations is, yes, I think we 
do have the resources provided we have the political will.

    Last, I would like to say that the financial problems of 
the United Nations are relevant for its peacekeeping capacity. 
Of course we would like, together with many of us, to support 
DPKO and to strengthen DPKO. But I do not think it would be 
possible to do this by cutting other departments. Maybe I 
myself would want to do so, but I do not think that we are 
going to get a consensus in just increasing the DPKO without--I 
mean, increasing DPKO without increasing the overall U.N. 
budget. We have to be very, very much aware of all this.

    And since this is something which exists in financial 
matters in the General Assembly, and the General Assembly, by 
the way, is very much the model like the Senate of the United 
States--it is based on the concept of sovereign equality of 
states. The only difference is that your States are part of the 
United States and in our case the states are members of the 
United Nations.

    But unlike the Senate, the General Assembly on financial 
issues does not vote. So you need to have that consensus. 
Therefore I think we need all to work on this consensus, but 
this would involve certain concessions on all parts, including 
on the part of the United States.

    But we are ready to work toward this end, and I once again 
thank you and your colleagues for your hospitality.

    Chairman Helms. Thank you, sir.

    The distinguished Ambassador from France.

   STATEMENT OF HIS EXCELLENCY JEAN-DAVID LEVITTE, PERMANENT 
                    REPRESENTATIVE OF FRANCE

    Ambassador Levitte. Thank you, Mr. Chairman, for this 
golden opportunity to build a really positive and constructive 
relationship between the U.S. and the U.N. And thank you for 
sending to New York the best American Ambassador.

    Two comments, one on Kosovo. Senator Warner mentioned 
rightly Kosovo as a big problem. Senator, we worked together 
during this difficult period of the war. Let us stay together 
to build or try to build peace. It will be difficult. It will 
take time. But I hope it will be recognized that the Europeans 
are doing their part of the job.

    Today we have over 36,000 troops in Kosovo. This represents 
78 percent of the total amount of troops. We have announced 
recently that France will send another battalion to reinforce 
the most difficult part, that is the region of Mitrovica.

    In terms of spending, the European Union countries will put 
between 1999 and year 2000 over $8 billion in Kosovo, out of 
which $5 billion is for military expenditure and the rest for 
humanitarian aid and reconstruction.

    So we are doing our part of the job. Maybe we are too slow, 
but we will do our best to capture and do our part of the job.

    Now, my second remark, Mr. Chairman, is about peacekeeping 
operations, are we planning too many of them? Well, I put the 
question the other way around. Is it morally possible to say no 
to populations which are desperately in need of help, help to 
build peace, to have development? This is the situation in 
Sierra Leone. This is the situation in the Democratic Republic 
of the Congo. The situation in Central Africa is such that if 
we do not act now, tomorrow or the day after tomorrow we will 
have to act and it will be even more difficult and more costly.

    So let us do it now. But of course we have to be cautious. 
We have to organize ourselves in a better way, and we all agree 
on that. You want reforms, we want reforms. Let us do them 
together.

    Thank you, Mr. Chairman.

    Chairman Helms. Thank you, Mr. Ambassador.

    Any comments?

    Chairman Warner. No.

    Chairman Helms. Senator?

    Senator Biden. No.

    Chairman Helms. The last one on the list here is the 
distinguished Ambassador from Malaysia.

       STATEMENT OF HIS EXCELLENCY AGAM HASMY, PERMANENT 
                   REPRESENTATIVE OF MALAYSIA

    Ambassador Hasmy. Thank you, Mr. Chairman. Thank you for 
recognizing me sitting in the corner of this long table.

    I wanted to also join my colleagues in talking about the 
reform of the U.N. But since the subject has been adequately 
addressed, I will not. I would merely associate myself with 
what they have said.

    I had actually some facts and figures I wanted to discuss 
with you on another aspect of U.N.-U.S. relations. That is as 
to whether or not the U.S. benefits from the existence of the 
U.N. But I think I will save it for another occasion because it 
would take some time. The figures have been bandied around, as 
you know. Others have read about them, too. I am not sure that 
I will be able to do a complete job today.

    But we feel that on balance the U.S., in spite of its large 
contribution, has derived tremendous benefits from the U.N. 
system, much more than some other countries. But I will leave 
that for another occasion.

    As to the dialog, I am inclined to believe that it is doing 
well and I think the success of these dialog processes is 
reflected by your own remark to me during lunch as we were 
leaving, when you said: You have to invite me back to New York. 
So that proves that there is hope that this dialog, contrary to 
skepticism expressed in some quarters, may be helpful in the 
long run. I look forward to joining my colleagues to welcome 
you back should you be prepared to do so.

    Now, on the question of peacekeeping, which is the subject 
of the second session, I would like to also refer to the 
statement by Senator Warner when he asked the question, when he 
raised the point that we should not take on more than we can 
handle. I think that Ambassador Jean-David Levitte has already 
addressed that issue.

    It is a good principle to follow, but the problem is, as he 
(Ambassador Levitte) said, what do you do when you have more 
and more conflict situations around us? And we feel here that 
the U.S., acting in concert with other member states in the 
United Nations, can do much more than acting singly if and when 
you have to do it yourselves. So I think if you look at 
history, your best contribution to the U.N. system has been 
when you acted in concert with the U.N. community rather than, 
I think, alone. With the U.N. you have the legitimacy, you have 
the support, moral, material, and so on.

    So we are going through a period of more and more 
conflicts, some of a different nature from previously. You have 
intrastate conflicts which sometimes turn into interstate 
conflicts. The DRC is a case in point. Here I think the other 
members of the Council and the membership of the U.N. look 
forward to the leadership of the United States on this. We 
would like to see the United States become even more engaged, 
more actively engaged in this process because, as Ambassador 
Levitte said, if we do not fix it now things will get worse in 
the long term.

    So that is the dilemma we are in. So it is important 
therefore that on, for instance, the question of the DRC, many 
members of the Council look forward to a more proactive 
engagement of the United States on this issue. It is a 
difficult problem. Many people have to play significant roles 
before we can mount a major operation.

    But that country is burning. We tried to fix it some years 
ago. It did not quite work. So I think this time around we will 
have to fix it again. We will have to do a better job than what 
we did before. And this is where I think that this particular 
role of the United States would be very much desired.

    Thank you very much.

    Chairman Helms. Thank you, sir.

    The only gentleman we have not heard from, we would like to 
hear from you, Mr. Ambassador.

   STATEMENT OF HIS EXCELLENCY ARNOLDO M. LISTRE, PERMANENT 
                  REPRESENTATIVE OF ARGENTINA

    Ambassador Listre. Thank you, Mr. Chairman.

    First of all, allow me to join my colleagues in thanking 
you and Senator Biden and all your colleagues for this 
invitation that is so appropriate and so opportune in order to 
exchange views on this very important subject.

    I will be very brief. Many of the things that have been 
said already express my opinion, in particular what Ambassador 
van Walsum said relating to the Helms-Biden amendment. 
Argentina is not very happy with the amendment but very happy 
with you personally. Would you amend your amendment?

    Senator Biden. Well said, Mr. Ambassador.

    Chairman Helms. You sound like my wife. [Laughter.]

    Ambassador Listre. We really think that, it is obvious, 
that many countries are not satisfied with the scale of 
assessment in the United Nations and it is a matter which has 
to be dealt with in the General Assembly. It is not a matter 
for the Security Council. Perhaps we could try to compromise. 
And it is a thing that is possible to try to get compromise, a 
realistic compromise, in this regard, bearing in mind that the 
principle of the capacity to pay should be always respected by 
everybody. We should also bear in mind that there are going to 
be some countries, like many Latin American countries, that are 
the ones that are going to be more damaged with any new scale 
of assessment that it is not fully based on the capacity to 
pay. I think of my own country that will be the most damaged of 
all, but also I mean Brazil, Mexico, Chile, Colombia and 
others.

    In spite of this, I think that we should reach a compromise 
on this issue based on the idea of strengthening the United 
Nations, especially the peacekeeping operations. The United 
Nations has its shortcomings, but despite all the problems it 
is facing, it is the only organization that can deal 
effectively with some of these issues. It is the only 
organization that can deal with peacekeeping and all the 
problems we face, as Ambassador Holbrooke so eloquently pointed 
out.

    So we think that it is extremely important that the U.S. 
commits itself to the United Nations as every member state 
commits itself as well. This, because the United States is the 
most important country in the world. It is the most important 
contributor; not only how they pay, but the spirit with which 
they pay their contribution is very, very important to 
strenghten the organization.

    We look forward to working with you, sir, with your 
delegates, with your head of delegation, our great friend 
Richard Holbrooke. We look forward to a new direction, and I 
hope that the next time we meet we will have something pleasant 
to tell.

    Chairman Helms. Senator Biden.

    Senator Biden. Mr. Chairman, let me conclude what I have to 
say by making four points. One, to thank you for taking this 
initiative. I think that the opportunity for these gentlemen to 
be exposed to your charm, notwithstanding your taking positions 
on the U.N. in the past, has been very helpful.

    Chairman Helms. In the past.

    Senator Biden. In the past, in the past.

    Second, I discern two things. There seems to be a consensus 
around the table. One, you understandably do not like what we 
did, but you know what we did would have to be done even if we 
did not do it, but you would rather us not have done it. I 
share your view. I do not think it was the way we should have 
gone about it.

    But the thing that I find encouraging is the spirit with 
which each of you have spoken. I particularly was impressed by 
the Ambassador from Argentina who just basically said--I do not 
know that his principals back in Argentina heard him say it, 
but--we will pay more if we have to, but we do not want to.

    But I am confident that if this spirit can be maintained, 
and I am sure it will be with the leadership of Ambassador 
Holbrooke, we can work our way through a lot of these things. 
At least I sincerely hope we can, because I think that you are 
the essential institution to the existence of the world today. 
You are the essential institution.

    I happen to share the view that we need you as much as you 
so gracefully have stated that you need us. One of the things 
the American people are somewhat ambivalent about is we are not 
very comfortable in the role of being the world's only 
superpower. As someone said to me when I mentioned that today--
I will not mention the Ambassador's name--he said: You would be 
even more uncomfortable if you were not the world's superpower. 
[Laughter.]

    Well, probably correct. But nonetheless, I appreciate you 
being so solicitous to our particular concerns. It is actually 
remarkable that your countries would authorize you to come here 
today before a committee of the U.S. Senate and be as 
accommodating and candid as you have been. I just want you to 
know we are flattered by it. We do not expect it. We do not 
believe you have an obligation to be here. We do not think that 
this is something that we--I hope you do not view it as any 
way, I do not think you do, that we have in any way indirectly 
summoned you. We do not view it that way at all. We are truly 
flattered by the fact that you would be here.

    I want to particularly say to our friend from China, I was 
particularly struck by your forthright statement, and I want 
you to know I share, mutually share your view, that your 
country and ours, the formation and the maturation of that 
relationship is among the most important things that either of 
us will do in our lifetime is impacted on that.

    So I just want to tell you that I truly appreciate you 
being willing, to use an American colloquial phrase, to be 
engaged in our intramural dispute here and be involved with us.

    The only thing that I regret that all of you did today, I 
regret the fact that you paid such homage and respect to 
Holbrooke. He is difficult enough to deal with absent all of 
you telling us how important he is, and now he will be 
insufferable. [Laughter.]

    He is I think the most talented diplomat we have. I hate 
like hell the fact that he knows it. I hate like hell the fact 
that you acknowledge it.

    But short of that, I have nothing to say but thank you 
very, very much for giving us the privilege, the privilege of 
being able to host you.

    Thank you, Mr. Chairman.

    Chairman Helms. Do you want to respond to that?

    Ambassador Holbrooke. No, Mr. Chairman.

    Chairman Helms. Is that your final answer? [Laughter.]

    Ambassador Holbrooke. Yes.

    Chairman Helms. We have a request from Ambassador Ouane and 
I am going to give him the floor, the distinguished Ambassador 
from Mali. Pull the microphone close to you so we can hear you.

    Ambassador Ouane. OK. Thank you, Mr. Chairman.

    I am sorry to take the floor again, but the issue of 
peacekeeping is very important for us and we would like to make 
a comment on it. I appreciate the chance to have a discussion 
on peacekeeping today, especially because my region, Africa, is 
one of those most in need.

    My country Mali is small, but we have contributed what we 
can: peacekeepers, diplomats. Now we need your help, especially 
in Sierra Leone, in the Democratic Republic of the Congo. We 
Africans must keep those processes moving forward. But we need 
your help.

    In particular, I hope you will be able to make your full 
contributions to the U.N. missions in Sierra Leone and in the 
Democratic Republic of the Congo. If you do your part, we will 
do ours.

    Thank you very much, Mr. Chairman.

    Chairman Helms. Thank you very much.

    Now we have a request from somebody in the media wanting a 
graduation picture--excuse me. Yes, sir.

    Ambassador Fowler. Thank you very much, Mr. Chairman. I 
just wonder. With the vagaries of the alphabet I take over as 
chairman of the Security Council in all too few hours, and I 
wonder if I could perhaps ask you, Mr. Chairman, and the 
Senator of the United States if they might make a technical 
contribution to the efficiency of the United Nations by 
offering us this gizmo here. [Laughter.]
    If you could perhaps loan us such a machine in the Security 
Council, it might significantly streamline and render more 
effective our deliberations.

    Senator Levin. Would it be worth a billion dollars to you? 
[Laughter.]

    Chairman Helms. My arm is sore because I have held this 
gavel. We are adjourned.

    [Whereupon, at 4:25 p.m., the roundtable was adjourned.]

                                  <all>

</pre></body></html>
